<html>
<title> - THE SOCIETAL IMPLICATIONS OF NANOTECHNOLOGY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       THE SOCIETAL IMPLICATIONS
                           OF NANOTECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2003

                               __________

                           Serial No. 108-13

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



86-340              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY


                            C O N T E N T S

                             April 9, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science, U.S. House of Representatives....    11
    Written Statement............................................    12

Prepared Statement of Representative Nick Smith, Member, 
  Committee on Science, U.S. House of Representatives............    13

Prepared Statement of Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    14

Prepared Statement of Representative Eddie Bernice Johnson, 
  Member, Committee on Science, U.S. House of Representatives....    14

Prepared Statement of Representative Michael M. Honda, Member, 
  Committee on Science, U.S. House of Representatives............    15

                               Witnesses:

Mr. Raymond Kurzweil, Chairman and CEO, Kurzweil Technologies, 
  Inc.
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    47
    Financial Disclosure.........................................    48

Dr. Vicki L. Colvin, Executive Director, Center for Biological 
  and Environmental Nanotechnology; Associate Professor of 
  Chemistry, Rice University
    Oral Statement...............................................    49
    Written Statement............................................    50
    Biography....................................................    53
    Financial Disclosure.........................................    54

Dr. Langdon Winner, Professor of Political Science, Department of 
  Science and Technology Studies, Rensselaer Polytechnic 
  Institute
    Oral Statement...............................................    55
    Written Statement............................................    57
    Biography....................................................    61
    Financial Disclosure.........................................    62

Ms. Christine Peterson, President, Foresight Institute
    Oral Statement...............................................    63
    Written Statement............................................    64
    Biography....................................................    67
    Financial Disclosure.........................................    68

Discussion.......................................................    69

             Appendix 1: Additional Material for the Record

H.R. 766, Nanotechnology Research and Development Act of 2003....    96

 
              THE SOCIETAL IMPLICATIONS OF NANOTECHNOLOGY

                              ----------                              


                        WEDNESDAY, APRIL 9, 2003

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:15 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       The Societal Implications

                           of Nanotechnology

                        wednesday, april 9, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday April 9, 2003, the House Science Committee will hold a 
hearing to examine the societal implications of nanotechnology and to 
consider H.R. 766, The Nanotechnology Research and Development Act of 
2003, in light of those implications.

2. WITNESSES

Mr. Ray Kurzweil is Founder, Chairman and CEO of Kurzweil Technologies, 
Inc., a software development firm. A pioneer in artificial 
intelligence, he is the author of The Age of Intelligent Machines 
(1990) and The Age of Spiritual Machines (1999). He received the 1999 
National Medal of Technology and in 2002 was inducted into the National 
Inventors Hall of Fame, for his 1976 invention of the Kurzweil Reading 
Machine, the first device to transform print into computer-spoken 
words, enabling blind and visually impaired people to read printed 
materials. Since 1973, he has founded nine companies.

Dr. Vicki Colvin is the Executive Director of the Center for Biological 
and Environmental Nanotechnology and Associate Professor of Chemistry 
at Rice University. Research underway at the center focuses on 
nanomaterials' behavior in the environment and the body and considers 
risk assessment and safety factors.

Dr. Langdon Winner is Professor of Political Science in the Department 
of Science and Technology Studies at Rensselaer Polytechnic Institute 
in Troy, New York where he serves as co-director of the newly founded 
Center for Cultural Design. He is a political theorist who focuses on 
social and political issues that surround modern technological change.

Ms. Christine Peterson is cofounder and President of Foresight 
Institute. She focuses on making nanotechnology understandable, and on 
clarifying the difference between near-term commercial advances and the 
``Next Industrial Revolution'' arriving in the next few decades. 
Foresight Institute has developed guidelines that include assumptions, 
principles, and some specific recommendations intended to provide a 
basis for responsible development of molecular nanotechnology.

3. OVERARCHING QUESTIONS

    The hearing will address the following overarching questions:

        1. What are the concerns about existing and potential 
        applications of nanotechnology?

        2. How is it possible to anticipate the consequences of 
        technology development?

        3. How can research and debate on societal and ethical 
        concerns be integrated into the research and development 
        process, especially into projects funded by the Federal 
        Government?

4. BRIEF OVERVIEW

        <bullet> Nanotechnology is the science of manipulating and 
        characterizing matter at the atomic and molecular level. It is 
        one of the most exciting fields of science today, involving a 
        multitude of science and engineering disciplines, with 
        widespread applications in electronics, advanced materials, 
        medicine, and information technology. The promise of 
        nanotechnology to accelerate technological change has prompted 
        some to advise caution about pursuing rapid innovation without 
        some understanding of where it might lead us.

        <bullet> In the April, 2000 issue of Wired magazine, Bill Joy, 
        Chief Scientist for Sun Microsystems, published an article 
        entitled Why the Future Doesn't Need Us which postulated that 
        ``our most powerful 21st Century technologies--robotics, 
        genetic engineering, and nanotechnology--are threatening to 
        make humans an endangered species.'' Joy argued that the 
        convergence of information technology, biotechnology, and 
        nanotechnology could result in intelligent, self-replicating, 
        nanoscale robots with potentially destructive consequences. 
        Many experts have dismissed Joy's prognostications as better 
        suited to the realm of science fiction, but his article did 
        energize a debate on the potential impact of rapid technology 
        development.

        <bullet> In November, 2002, Michael Crichton published Prey, a 
        science fiction novel in which self-replicating, intelligent, 
        and rapidly evolving nanoscale robots pose a mortal threat to 
        humans and to the environment. Although fiction, Prey brought 
        Bill Joy's concerns to a wider public and reinvigorated the 
        debate over the possible negative consequences of future 
        developments in information technology, biotechnology, and 
        nanotechnology.

        <bullet> The National Academy of Sciences, in its recent 
        (2002) review of the National Nanotechnology Initiative, 
        recommended that the research on the societal implications of 
        nanotechnology be integrated into nanotechnology research and 
        development programs in general. The Academy noted that rapid 
        technology development will affect how we educate new 
        scientists and engineers, how we prepare our workforce, and how 
        we plan and manage research. Moreover, accelerated 
        nanotechnology developments could have broader social and 
        economic consequences that may afford an opportunity to develop 
        a greater understanding of how technical and social systems 
        affect one another.

        <bullet> One of the more salient concerns is the possible 
        environmental or health impact of nanotechnology materials. 
        Nanoscale particles, or nanoparticles, because of their small 
        size, may readily enter living systems with potentially toxic 
        results. While few comprehensive studies have been completed, 
        early research suggests that some common nanotechnology 
        materials may be biologically inert and thus pose little 
        threat. Nonetheless, new materials can interact with the 
        environment or with living systems in unexpected ways.

        <bullet> In March of 2001, the National Science Foundation 
        (NSF) convened a workshop on the societal implications of 
        nanotechnology. Workshop participants recommended that social 
        and economic research on nanotechnology be included in the 
        research conducted at NSF-sponsored nanotechnology centers.

        <bullet> Witnesses at the Science Committee's March 19 hearing 
        on H.R. 766, The Nanotechnology Research and Development Act of 
        2003, concurred with the recommendation of the NSF workshop 
        participants and testified that research on the societal 
        implications of nanotechnology should be an integral part of 
        the national nanotechnology research and development program. 
        H.R. 766 includes a provision that establishes a research 
        program to identify societal and ethical concerns related to 
        nanotechnology and requires that such research be integrated 
        into nanotechnology R&D programs insofar as possible.

5. BACKGROUND

    In its recent review of the National Nanotechnology Initiative, the 
National Academy of Sciences noted that the social and economic 
consequences of nanotechnology promise to be diverse, difficult to 
anticipate, and sometimes disruptive. Some experts suggest that 
nanotechnology will lead us to the next industrial revolution.
    According to the Academy review panel:

        . . .if the nanotechnology revolution lives up to the hype 
        comparing it to the industrial revolution, it will also 
        transform and perturb labor and the workplace, introduce new 
        worker safety issues, affect the distribution of wealth within 
        and between nations, and change a variety of social 
        institutions, including our medical system and the military. 
        While these kinds of transformations occurred with other 
        technological advances and were managed reasonably well, there 
        are reasons to believe the transformation propagated by a 
        nanotechnology revolution may be particularly challenging. 
        Nanotechnology is likely to affect and transform multiple 
        industries and affect significant numbers of workers and parts 
        of the economy. Technological acceleration, the increasing rate 
        of discovery in some disciplines, most notably biology, and the 
        synergy provided by improvements in information and computing 
        technologies, have the potential to compress the time from 
        discovery to full deployment for nanotechnology, thereby 
        shortening the time society has to adjust to these changes. 
        Speculation about unintended consequences of nanotechnology, 
        some of it informed, but a lot of it wildly uninformed, has 
        already captured the imagination and, to some extent, the fear 
        of the general public.

        Some technologists, such as those in the nuclear power and 
        genetically modified foods industries, have ignored these kinds 
        of challenges and suffered the consequences. Others, most 
        notably those in the molecular biology community, have 
        attempted to address the issues and to use their understanding 
        to stimulate an informed and objective dialogue about the 
        choices that can be made and the directions taken.

    The Academy review panel noted that nanotechnology provides a 
unique opportunity to develop a better understanding of how technical 
and social systems affect one another.

        We currently do not have a comprehensive and well-established 
        knowledge base on how social and technical systems affect each 
        other in general, let alone for the specific case of 
        nanotechnology. This state of affairs is a byproduct of not 
        having a chance to examine these interactions until the systems 
        are well established and of simply not investing sufficient 
        resources in these activities. However, nanotechnology is still 
        in its infancy. Thus, a relatively small investment now in 
        examining societal implications has the potential for a big 
        payoff.

    The Academy review panel further noted that while the National 
Science Foundation explicitly included societal implications in its 
solicitations for nanotechnology research during fiscal year (FY) 2001, 
few proposals were submitted and none was funded. Within the 
Foundation, none of the FY 2001 nanotechnology research funds were 
allocated to the Directorate of Social, Behavioral and Economic 
Sciences. According to the Academy review panel:

        [The Directorate of Social, Behavioral and Economic Sciences 
        (SBES) is] the most capable and logical directorate to lead 
        these efforts. As a consequence [of not allocating 
        nanotechnology funds to SBES], social science work on societal 
        implications could be funded [at NSF] in one of two ways: (1) 
        it could compete directly for funding with physical science and 
        engineering projects through a solicitation that was primarily 
        targeted at that audience or (2) it could be integrated with a 
        nanotechnology science and engineering center.

        There are a number of reasons both funding strategies failed 
        to promote a strong response from the social science community. 
        First, given the differences in goals, knowledge bases, and 
        methodologies, it was probably very difficult for social 
        science group and individual proposals to compete with 
        nanotechnology science and engineering proposals submitted to 
        the physical science and engineering directorates. In addition, 
        while NSF nanotechnology proposals were required to include an 
        educational component and/or a component aimed at the 
        development of a skilled workforce or an informed public, 
        studies of societal implications was only one of six optional 
        activities (including international collaboration, shared 
        experimental facilities, systems-level focus, proof-of-concept 
        testbeds, and connection to design and development activities) 
        that individual proposals could include. Not surprisingly, 
        while essentially every proposal included an educational 
        component, and many included familiar practices like testbeds, 
        very few included a social science component. Finally, NSF's 
        review committees and site visit teams [to review center 
        proposals] did not include social scientists.

        Thus, although NSF appears to have made a good faith effort to 
        include social science proposals in its agency-wide 
        solicitation, its internal funding strategy and the way the 
        solicitation was framed probably undermined its attempts to 
        support work in this area.

    Since the release of the Academy study, new NSF solicitations 
(FY03) require proposals for nanotechnology fabrication centers to 
include a societal implications dimension and NSF's Directorate for 
Social, Behavioral, and Economic Sciences will be involved in proposal 
review.
    NSF also supports a science and technology center--the Center for 
Biological and Environmental Nanotechnology at Rice University--that 
seeks to foster the development of nanotechnology through an integrated 
set of research programs that aim to address the scientific, 
technological, environmental, human resource, commercialization, and 
societal barriers that hinder the transition from research to useful 
technology.

6. WITNESS QUESTIONS

    The witnesses were asked to address the following questions in 
their testimony:
Questions for Mr. Ray Kurzweil

        <bullet> What are the concerns about existing and potential 
        applications of nanotechnology?

        <bullet> How is it possible to anticipate the consequences of 
        technology development?

        <bullet> To what extent and how should the policy makers 
        communicate with the public to facilitate a responsible debate 
        about the adoption of nanotechnology innovations into society? 
        What role should researchers in nanotechnology play? What role 
        should the private sector play?

        <bullet> How can research and debate on societal and ethical 
        concerns be integrated into the research and development 
        process?
Questions for Dr. Vicki Colvin

        <bullet> What are the concerns about existing and potential 
        applications of nanotechnology?

        <bullet> How is it possible to anticipate the consequences of 
        technology development?

        <bullet> To what extent and how should the policy makers 
        communicate with the public to facilitate a responsible debate 
        about the adoption of nanotechnology innovations into society? 
        What role should researchers in nanotechnology play? What role 
        should the private sector play?

        <bullet> How can research and debate on societal and ethical 
        concerns be integrated into the research and development 
        process?

        <bullet> How is the work of the Rice Center for Biological and 
        Environmental Nanotechnology integrated into the programs of 
        the National Nanotechnology Initiative?
Questions for Dr. Langdon Winner

        <bullet> What factors influence the successful adoption of new 
        technologies into society? What questions should be asked 
        during the research and development phase to help minimize the 
        potentially disruptive impact of transformational technology 
        developments?

        <bullet> What are the current concerns about existing and 
        potential applications of nanotechnology science and 
        engineering?

        <bullet> How can research on the societal and ethical concerns 
        relating to nanotechnology developments be integrated into the 
        research and development process?
Questions for Ms. Christine Peterson

        <bullet> What factors will influence the successful adoption 
        of nanotechnology applications into society? What questions 
        should be asked during the research and development phase to 
        encourage responsible integration of nanotechnology innovations 
        into society?

        <bullet> What is the status of the adoption of nanotechnology 
        applications? What policies might facilitate adoption of new 
        technologies? What are the potential roadblocks? For example, 
        will there be a workforce with appropriate technical skills?

        <bullet> What role will the private sector play in the debate 
        on societal and ethical concerns about existing and potential 
        applications of nanotechnology?

APPENDIX I
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

APPENDIX II

   Section-by-Section Analysis of the Nanotechnology R&D Act of 2003

Sec. 1. Short Title

    ``Nanotechnology Research and Development Act of 2003.''

Sec. 2. Definitions

    Defines terms used in the text.

Sec. 3. National Nanotechnology Research and Development Program

    Establishes an interagency R&D program to promote and coordinate 
federal nanotechnology research, development, demonstration, education, 
technology transfer, and commercial application activities. The program 
will provide sustained support for interdisciplinary nanotechnology R&D 
through grants to researchers and through the establishment of 
interdisciplinary research centers and advanced technology user 
facilities.
    Establishes a research program to identify societal and ethical 
concerns related to nanotechnology and requires that such research be 
integrated into nanotechnology R&D programs insofar as possible.
    Establishes an interagency committee, chaired by the Director of 
the Office of Science and Technology Policy, and composed of 
representatives of participating federal agencies, as well as 
representatives from the Office of Management and Budget, to oversee 
the planning, management, and coordination of all federal 
nanotechnology R&D activities. Requires the Interagency Committee to 
establish goals and priorities, establish program component areas to 
implement those goals and priorities, develop a strategic plan to be 
updated annually, consult widely with stakeholders, and propose a 
coordinated interagency budget for federal nanotechnology R&D.

Sec. 4. Annual Report

    Requires the Office of Science and Technology Policy to submit an 
annual report, at the time of the President's budget request to 
Congress, describing federal nanotechnology budgets and activities for 
the current fiscal year, and what is proposed for the next fiscal year, 
by agency and by program component area. Requires that the report 
include an analysis of the progress made toward achieving the goals and 
priorities established for federal nanotechnology R&D, and the extent 
to which the program incorporates the recommendations of the Advisory 
Committee (established in Sec. 5).

Sec. 5. Advisory Committee

    Establishes a Presidentially-appointed advisory committee, 
consisting of non-federal experts, to conduct a broad assessment of 
federal nanotechnology R&D activities and issue a biennial report.

Sec. 6. National Nanotechnology Coordination Office

    Establishes a National Nanotechnology Coordination Office with 
full-time staff to provide technical and administrative support to the 
Interagency Committee and the Advisory Committee, to serve as a point 
of contact for outside groups, and to conduct public outreach.

Sec. 7. Authorization of Appropriations

    Authorizes appropriations for nanotechnology R&D programs at the 
National Science Foundation, the Department of Energy, the National 
Aeronautics and Space Administration, the National Institute of 
Standards and Technology, and the Environmental Protection Agency (see 
table below).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Sec. 8. External Review of the National Nanotechnology Research and 
                    Development Program

    Requires the Director of the Office of Science and Technology 
Policy to contract with the National Academy of Sciences to conduct a 
triennial review of federal nanotechnology R&D programs including 
technical progress, managerial effectiveness, and adequacy in 
addressing societal and ethical concerns.
    Chairman Boehlert. We will come to order. A little 
housekeeping first. The Chair will recognize the distinguished 
Ranking Member, Mr. Hall of Texas, for the purpose of an 
appointment.
    Mr. Hall. Mr. Chairman, thank you. I ask unanimous consent 
that my honored colleague from Texas, my neighbor in Texas, Ms. 
Eddie Bernice Johnson, be elected to membership on the 
Subcommittee on Space and Aeronautics in order to fill an 
existing democratic vacancy.
    Chairman Boehlert. Without objection, so ordered.
    Mr. Hall. Thank you.
    Chairman Boehlert. Ms. Johnson, welcome. I want to welcome 
everyone here this morning for this important hearing. It is 
rare that Congress gets, or I should say takes, the opportunity 
to take a step back and think about the consequences of 
technological change even though they are driving--they are a 
driving force in our society. So I am eager to have this 
hearing.
    I just wanted to say that we should approach today's 
hearing with evenhandedness and humility. With evenhandedness, 
because technology, like most human endeavors, inevitably leads 
to both positive and negative consequences, but one thing we 
can be sure of is that nanotechnology will be neither the 
unallied boom predicted by technophiles nor the unmitigated 
disaster portrayed by technophobes. The truth will be in 
between, and it is worth probing. But how good are we at 
probing it? Here is where the humility comes in. As Yogi Berra 
is supposed to have said, ``It is always difficult to make 
predictions, especially about the future.'' And certainly, I 
might point out that he is one of the greats of the Yankees, 
which occupy the lofty position of first place in the American 
league.
    And indeed, our record, when it comes to technology, is not 
very good, but how good can we expect it to be? The social 
consequences of technology, the most subtle and far-reaching 
impacts, are the most difficult to predict and even more 
difficult to forestall. But that is not a reason to do nothing. 
We have to figure out as much as we can about the potential 
impacts of technology and plan accordingly. The most tangible, 
direct impacts, like harms to the environment or health, should 
be susceptible to study, even if we don't get everything right, 
right from the beginning.
    So I hope we have a thorough, in-depth discussion this 
morning that avoids easier answers and that makes distinctions 
between different types of potential consequences: those that 
are social, those that raise ethical questions, those that 
involve purposeful misuse of technology, those that relate to 
government, and so on, because each type of consequence raises 
its own set of questions. I think those questions are worth 
investigating, not just about nanotechnology, but about all 
technologies. And I am pleased that H.R. 766, the 
nanotechnology bill that I have introduced with Mr. Honda, 
authorizes research grants on societal and ethical consequences 
and requires that that research be integrated with the physical 
science research. We will markup that bill on April 30, and I 
expect it to be on the House Floor the following week.
    [See Appendix 1: Additional Material for the Record for 
H.R. 766.]
    Chairman Boehlert. As many people here know, the most 
extravagant fear about nanotechnology is that it will yield 
nanobots that will turn the world into gray goo. That is not a 
fear I share, but I do worry that the debate about 
nanotechnology could turn into gray goo with its own 
deleterious consequences. I am hopeful that today's hearing on 
H.R. 766 will keep the debate solid. We know it will be lively.
    Thank you very much.
    [The prepared statement of Mr. Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    I want to welcome everyone here this morning for this important 
hearing. It's rare that Congress gets--or, I should say, takes--the 
opportunity to take a step back and think about the consequences of 
technological change, even though they are a driving force in our 
society. So I'm eager to get this hearing started.
    I just want to say that we should approach today's hearing with 
even-handedness and humility. With even-handedness because technology, 
like most human endeavors, inevitably leads to both positive and 
negative consequences. The one thing we can be sure of is that 
nanotechnology will be neither the unalloyed boon predicted by 
technophiles nor the unmitigated disaster portrayed by technophobes. 
The truth will be in between, and it is worth probing.
    But how good are we at probing it? Here's where the humility comes 
in. As Yogi Berra is supposed to have said, ``It's always difficult to 
make predictions, especially about the future.'' And indeed our record 
when it comes to technology is not very good. But how good can we 
expect to be? The social consequences of technology--the most subtle 
and far-reaching impacts--are the most difficult to predict and even 
more difficult to forestall.
    But that's not a reason to do nothing. We ought to figure out as 
much as we can about the potential impacts of technology and plan 
accordingly. The most tangible, direct impacts--like harms to the 
environment or health--should be susceptible to study even if we don't 
get everything right, right from the beginning.
    So I hope we have a thorough, in depth discussion this morning that 
avoids easier answers and that makes distinctions between different 
types of potential consequences--those that are social, those that 
raise ethical questions, those that involve purposeful misuse of 
technology, those that relate to the environment, and so on--because 
each type of consequence raises its own set of questions.
    I think those questions are worth investigating--not just about 
nanotechnology--but about all technologies. And I'm pleased that H.R. 
766, the nanotechnology bill that I've introduced with Mr. Honda, 
authorizes research grants on societal and ethical consequences, and 
requires that that research be integrated with the physical science 
research. We will mark up that bill on April 30 and I expect it to be 
on the House floor the following week.
    As many people here know, the most extravagant fear about 
nanotechnology is that it will yield nanobots that will turn the world 
into ``gray goo.'' That's not a fear I share, but I do worry that the 
debate about nanotechnology could turn into ``gray goo''--with its own 
deleterious consequences. I'm hopeful that today's hearing and H.R. 766 
will keep the debate solid and lively. Thank you.

    Chairman Boehlert. And the Chair recognizes Mr. Hall.
    Mr. Hall. Mr. Chairman, I am pleased to join you in the 
welcoming of these witnesses here today. At the previous 
hearing, we reviewed the current Federal nanotechnology 
research effort and received comments and advice on new 
authorizing legislation, which the Committee will soon be 
marking up. I think it is fair to say that the previous hearing 
revealed strong support for the initiative and for the 
legislation.
    It is clear that nanotechnology has great promise that will 
have enormous consequences for the information industry, for 
manufacture, for medicine and health. Indeed, the scope of the 
technology is so broad; it is to leave virtually no product 
untouched. The fact that nanotechnology has such broad 
potential argues for careful consideration and careful 
attention to how it may affect society, and in particular, 
attention to potential downsides of the technology.
    While some concerns have already been raised that seem more 
to--in the realm of science fiction, there are also very real 
issues with the potential health and environmental effects of 
nanosized particles. Some examples will be brought out, I 
think, in today's testimony. I believe it is important for the 
successful development of nanotechnology that potential 
problems be addressed from the beginning in a straightforward 
and an open way. We know too well that negative public 
perceptions about the safety of a technology can have serious 
consequences for its acceptance and for its use. This has been 
the case in such technologies as nuclear power, genetically 
modified foods, and stem cell therapies.
    Research is needed to provide understanding of potential 
problems arising from nanotechnology applications in order to 
allow informed judgments to be made about risk and cost benefit 
tradeoffs for specific implementations of the technology. An 
effort must be made by the research community to open lines of 
communication with the public to make clear that potential 
safety risks are being explored and not ignored. We can't 
once--down again go down a path where the research community 
simply issues a statement to the public, ``Trust us. It is 
safe.'' The research plan for the National Nanotechnology 
Initiative has identified the need for research and education 
activities that address societal impacts of the technology, and 
I hope that today's hearing will help identify the questions 
that need to be asked, who should be involved, and the level of 
resources needed. Excuse me.
    I also ask our witnesses for any recommendations they may 
have for improvements to the authorizing legislation that will 
help strengthen the societal impact component of the 
initiative. And I once again thank you, Mr. Chairman, for 
calling this hearing. I appreciate the attendance of our 
witnesses today. I realize they are important people. They have 
important jobs. It takes time to prepare, time to come here, 
time to give us this, and we are grateful to you. And we thank 
you for it. Mr. Chairman, with that, I yield back my time.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    I am pleased to join the Chairman in welcoming our witnesses to the 
Committee's second hearing on the National Nanotechnology Initiative.
    At the previous hearing we reviewed the current federal 
nanotechnology research effort and received comments and advice on new 
authorizing legislation, which the Committee will soon be marking up. I 
think it is fair to say that the previous hearing revealed strong 
support for the initiative and the legislation.
    It is clear that nanotechnology has great promise. It will have 
enormous consequences for the information industry, for manufacturing, 
and for medicine and health. Indeed, the scope of this technology is so 
broad as to leave virtually no product untouched.
    The fact that nanotechnology has such broad potential argues for 
careful attention to how it may affect society, and in particular, 
attention to potential downsides of the technology. While some concerns 
have already been raised that seem more in the realm of science 
fiction, there are also very real issues with the potential health and 
environmental effects of nanosized particles. Some examples will be 
brought out in today's testimony.
    I believe it is important for the successful development of 
nanotechnology that potential problems be addressed from the beginning 
in a straightforward and open way. We know too well that negative 
public perceptions about the safety of a technology can have serious 
consequences for its acceptance and use. This has been the case with 
such technologies as nuclear power, genetically modified foods, and 
stem cell therapies.
    Research is needed to provide understanding of potential problems 
arising from nanotechnology applications in order to allow informed 
judgments to be made about risk and cost/benefit tradeoffs for specific 
implementations of the technology. And efforts must be made by the 
research community to open lines of communication with the public to 
make clear that potential safety risks are being explored and not 
ignored.
    We cannot once again go down the path where the research community 
simply issues a statement to the public: Trust us, it's safe.
    The research plan for the National Nanotechnology Initiative has 
identified the need for research and education activities that address 
societal impacts of the technology. I hope that today's hearing will 
help identify the questions that need to be asked, who should be 
involved, and the level of resources needed.
    I also ask our witnesses for any recommendations they may have for 
improvements to the authorizing legislation that will help strengthen 
the societal impacts component of the initiative.
    I want to thank the Chairman for calling a hearing on this 
important aspect of the nanotechnology initiative. I appreciate the 
attendance of our witnesses today, and I look forward to our 
discussion.

    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Representative Nick Smith

    This morning we meet for our second hearing to review H.R. 766, The 
Nanotechnology Research and Development Act of 2003. At the first 
hearing we examined the state of nanotechnology, its short-term and 
long-term potential, and the importance of establishing a government 
coordination mechanism for federal support of the science. Today we 
will examine the potential negative implications of nanotechnology on 
society and the environment.
    The first hearing provided a glimpse of the incredible promise that 
nanotechnology holds to improve our lives, strengthen our economy, and 
address a countless array of societal problems. When this promise comes 
to fruition, I believe that nanotechnology and biotechnology will 
become the most important technological advancement since the 
information technology revolution of the 1990s.
    While it is difficult to predict how long it may take for 
nanotechnology research and development to lead to significant 
breakthrough innovations, it is not difficult to understand that the 
Federal Government can accelerate this development by providing strong, 
coordinated support of fundamental nanotechnology research. This is the 
vision set forth in H.R. 766, that many of us on the Committee have co-
sponsored.
    One of the key components of the research effort authorized by H.R. 
766, and the topic of our hearing today, is research into the societal 
implications of nanotechnology. This research will help us to better 
understand the very real societal and ethical concerns that will arise 
in the wake of nanotech's inevitable impact on our lives. I strongly 
support these provisions of H.R. 766 and I believe it is critical that 
we address these issues so we can ensure that the general public can 
take comfort in knowing the products have been thoroughly tested and 
proved safe.
    This effort will go a long way in limiting the effectiveness of 
groups that seek to unfairly portray nanotechnology R&D as too 
dangerous to press forward with. These organizations attempt to create 
fear and paranoia by blurring the lines between legitimate societal 
risks and imaginary science fiction. Some groups have even gone to the 
extreme of calling for a complete moratorium on all nanotechnology 
research and commercialization, unfairly framing nanotechnology as 
``the next asbestos.''
    Unfortunately, these scare-mongering tactics of widespread 
misinformation campaigns can be very effective, and in fact often help 
raise significant amounts of money for the organization, with which 
they use to attack the science further. This same strategy has been 
very successful in damaging the reputation of biotechnology--delaying 
research, development, and adoption of several safe and beneficial 
products, most notably pest resistant GM crops in Africa.
    As a passionate supporter of science rather than emotion governing 
the advancement of biotechnology, I believe it is important that safe 
and beneficial nanotechnology innovations do not suffer the problems of 
emotion and delay that hindered biotechnology applications before them. 
This will require that we conduct research into areas of societal and 
ethical concern, educate the public on the safety of these products, 
and maintain a regulatory framework that keeps pace with the 
development of new and unique nanotechnology products.
    We must also recognize that the precautionary principle approach of 
not adopting new technology unless ``zero risk'' has been established 
is unrealistic. Instead, the question of moving ahead with new 
nanotechnology applications should not be decided on whether or not a 
risk might exist, but rather whether or not the benefits outweigh the 
risks. This approach will help ensure that policy decisions are driven 
by sound science, not unscientific alarmist rhetoric.
    Perhaps these efforts would be aided if we called for 
nanotechnology research based on regulatory scientific evaluation and 
safeguards. It might be difficult to stop negative rhetoric , but until 
committed skeptics of nanotechnology can provide sound scientific 
evidence to support their gloom and doom forecasts, we should make 
every effort to see their arguments are countered vigorously with 
scientific information.
    We have an esteemed panel of experts on these topics with us here 
today, and I look forward to a productive discussion.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
this committee to discuss the possible societal impacts and ethical 
concerns related to nanotechnology research and applications. 
Understanding the discoveries from nanotechnology will contribute to 
improvements in medicine, manufacturing, high-performance materials, 
information technology, and environmental technologies.
    Nanotechnology can best be considered as a ``catch-all'' 
description of activities at the level of atoms and molecules that have 
applications in the real world. A variety of nanotechnology products 
are already in development or on the market, including stain-resistant, 
wrinkle free pants and ultraviolet-light blocking sunscreens.
    However, specific applications of nanotechnology can have 
implications that cut two ways. For example, new nanoscale medical 
detection devices allow the identification of an individual's genetic 
predisposition to a disease. This raises issues of privacy and could 
threaten the stability of health insurance, which is based on 
uncertainty and spreading risk across the population. Further, 
nanotechnology developments have produced and will continue to produce 
rapid technological changes that can threaten the social structure, 
economic stability, and spiritual beliefs and values.
    I am interested to know what types of changes are needed to respond 
or adapt to societal changes that nanotechnology developments may 
bring. In addition, I am interested to learn more about public 
education efforts about nanotechnology.
    I thank the witnesses for appearing before our committee and look 
forward to their testimony.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman for calling this meeting today. I welcome 
our distinguished guests and would like to thank you for agreeing to 
testify here today on the importance of the National Nanotechnology 
Initiative.
    The purpose of this hearing is to examine federal nanotechnology 
research and development. Also today, we will consider H.R. 766, the 
Nanotechnology Research and Development Act of 2003. I am a proud 
original co-sponsor of this legislation.
    Nanotechnology is the act of manipulating matter at the atomic 
scale. Regardless of the diverse opinions on the rate at which 
nanotechnology will be implemented, people who make it a habit to keep 
up with technology agree on this: it is a technology in its infancy, 
and it holds the potential to change everything.
    Research in nanoscience is literally exploding, both because of the 
intellectual allure of constructing matter and molecules one atom at a 
time, and because the new technical capabilities permit creation of 
materials and devices with significant societal impact. The rapid 
evolution of this new science and the opportunities for its application 
promise that nanotechnology will become one of the dominant 
technologies of the 21st century. Nanotechnology represents a central 
direction for the future of chemistry that is increasingly 
interdisciplinary and ecumenical in application.
    I agree with the assessment that nanotechnology is one of the most 
promising and exciting fields of science today. I look forward to 
working with this committee on its advancement.

    [The prepared statement of Mr. Honda follows:]

         Prepared Statement of Representative Michael M. Honda

    Christine Peterson is co-founder and President of Foresight 
Institute, a Silicon Valley based nonprofit that educates the public, 
the technical community, and policy-makers on nanotechnology and its 
long-term effects.
    Christine focuses on making nanotechnology understandable, and on 
clarifying the difference between near-term commercial advances and the 
``Next Industrial Revolution'' arriving in the next few decades.
    With Eric Drexler and Gayle Pergamit, she wrote Unbounding the 
Future: the Nanotechnology Revolution, which sketches nanotechnology's 
potential environmental and medical benefits as well as possible 
abuses.
    Christine tells me that her work is motivated by a desire to help 
Earth's environment and traditional human communities avoid harm and 
instead benefit from expected dramatic advances in technology.
    I believe we have a unique opportunity to consider the possible 
social, legal, ethical, and philosophical issues that might arise as 
the nanotechnology industry matures before they occur, and it is our 
duty to do so.
    Similar opportunities were missed in the fields of molecular 
genetics and the development of the Internet, and now we wrestle with 
issues such as genetic screening, privacy, and intellectual property.
    I hope that we develop an approach to dealing with the coming 
challenges that allows us to achieve the vision of the future that 
Christine has described, in which nanotechnology benefits both humans 
and the natural environment.
    I look forward to hearing her thoughts on how we can achieve this. 
Thank you Mr. Chairman.

    Chairman Boehlert. Thank you very much, Mr. Hall. And we 
have one panel of very distinguished people who are serving as 
resources to this committee. And I very much appreciate it, and 
it is a tradition of the Committee just to introduce witnesses 
with their name and assume the whole world knows a lot about 
them. And we take for granted our witnesses, quite frankly. I 
have to confess that. These people that are witnesses are all 
very distinguished people in their professions, and they are 
part of the education of the Congress, so we deeply appreciate 
your availability and your guidance to us as we try to shape 
responsible public policy.
    Our witnesses today consist of Mr. Ray Kurzweil, Founder, 
Chairman, and CEO of Kurzweil Technologies, Inc., a software 
development firm. A pioneer in artificial intelligence, he is 
the author of ``The Age of Intelligent Machines'' and ``The Age 
of Spiritual Machines.'' He received the 1999 National Medal of 
Technology and in 2002, he was inducted into the National 
Inventors Hall of Fame for his 1976 invention of the Kurzweil 
Reading Machine, the first device to transform print into 
computer spoken words, enabling blind and visually impaired 
people to read printed materials. Since 1973, he has founded 
nine companies. Mr. Kurzweil, I thank you for being with us.
    Dr. Vicki Colvin is the Executive Director for the--for the 
Center for Biological and Environmental Nanotechnology and 
Associate Professor of Chemistry at Rice University. Research 
underway at the center focuses on nanomaterials' behavior in 
the environment and the body and considers risk assessment and 
safety factors. Dr. Colvin.
    Dr. Langdon Winner is Professor of Political Science in the 
Department of Science and Technology Studies at Rensselaer 
Polytechnic Institute in Troy, the great Empire State of New 
York. Pardon a little pride there. We just happen to have the 
national basketball champions in New York and I attribute to 
the Syracuse Orangemen. And we have the New York Yankees, which 
are in first place, where they belong. But we also have a 
wonderful resource.
    Mr. Sherman. Mr. Chairman, who are the national champions 
of basketball--of baseball?
    Chairman Boehlert. The national champions? That was last 
year.
    Mr. Sherman. Well, that would be the most recent year.
    Chairman Boehlert. Dr. Winner is a political theorist who 
focuses on social and political issues that surround modern 
technological change. And for the purpose of an introduction of 
our final witness, I am pleased to call on my partner, the 
distinguished gentleman from California, Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman and Ranking Member. I--
before I start, I just want to make a personal comment of the 
Chair that your comments and--your personal comments regarding 
the panel is well founded. And I appreciate the time that you 
take to make sure that the folks do know their background and 
their contributions and that your mom would be real proud of 
you.
    It is my pleasure, Mr. Chairman and Ranking Member, to 
introduce Christine Peterson is--she is a cofounder and 
President of Foresight Institute, a Silicon Valley based non-
profit that educates the public, the technical community, and 
the policy makers on nanotechnology and its long-term effects. 
Christine focuses on making nanotechnology understandable and 
on clarifying the difference between near-term commercial 
advances and the ``Next Industrial Revolution'' arriving in the 
next few decades. With Eric Drexler and Gayle Pergamit, she 
wrote ``Unbounding the Future: The Nanotechnology Revolution'', 
which sketches nanotechnology's potential environmental and 
medical benefits as well as possible abuses.
    Christine tells me that her work is motivated by a desire 
to help Earth's environment and traditionally human communities 
avoid harm, and instead benefit from expected dramatic advances 
in technology.
    I feel that we have a unique opportunity to consider the 
possible social, legal, ethical, and philosophical issues that 
might arise as the nanotechnology industry matures before they 
occur. And it is our duty to do so. Similar opportunities were 
missed in the fields of molecular genetics and the development 
of the Internet. And now we wrestle with these issues such as 
genetic engineering, genetic screening privacy, and 
intellectual property. I hope that we develop an approach to 
dealing with the coming challenges that allows us to achieve 
the vision of the future that Christine has described in which 
nanotechnology benefits both humans and the natural 
environment.
    I look forward to hearing her thoughts on how we can 
achieve this. Mr. Chairman, thank you for this opportunity.
    Chairman Boehlert. Thank you very much. And now for the 
panel, your record--your statement will appear in the record at 
this juncture in its entirety. We would ask that you try to 
summarize it, not because we want to have a brief session, but 
because we want to allow ample opportunity for questions. We 
will give you, as a guide, five or six or seven minutes. We are 
not going to be arbitrary. It always boggles my mind that we 
have experts like you come from afar to guide us and then we 
say, ``Tell us everything we need to know in 300 seconds or 
less.'' So we will be lenient with you. And to Mr. Honda, I 
would say my mother would be proud, you are right, and 
surprised as hell that I amounted to anything.
    Mr. Kurzweil, you are up first.

 STATEMENT OF MR. RAYMOND KURZWEIL, CHAIRMAN AND CEO, KURZWEIL 
                       TECHNOLOGIES, INC.

    Mr. Kurzweil. Thank you, Chairman Boehlert and 
distinguished Members of the House Science Committee. I greatly 
appreciate this opportunity to respond to this vital issue. 
Chairman Boehlert, you just mentioned that the truth of 
nanotechnology will be somewhere in between great benefit and 
great danger. I would say that we will ultimately see both 
great promise and some peril. I think with the right 
strategies, we can manage the peril.
    Our rapidly growing ability to manipulate matter and energy 
at ever smaller scales promises to transform virtually every 
sector of society, including health, medicine, manufacturing, 
electronics and computers, energy, travel, and defense. There 
will be increasing overlap between nanotechnology and other 
technologies and increasing influence, such as biotech and 
artificial intelligence. As with any other technological 
transformation, we will be faced with deeply intertwined 
promise and peril.
    For the past two decades, I have been studying technology 
trends. I have a team of researchers who assist me in gathering 
critical measures of technology in different areas. I have been 
developing mathematical models of how technology evolves. 
Technologies, especially those related to information, develop 
at an exponential pace, generally doubling in capability and 
price performance every year. And this goes beyond just 
computers or Moore's Law. It includes, really, any information-
based technology, and ultimately, nanotech will be like that. 
It includes communication, DNA sequencing, brain scanning, 
brain reverse engineering, the size and scope of human 
knowledge, and of particular relevance, the size of technology 
is inexorably shrinking.
    According to my models, both electronic and mechanical 
technologies are shrinking at a rate of 5.6 per linear 
dimension per decade, so at this rate, most of technology will 
be nanotechnology by the 2020's. The golden age of nanotech, 
therefore, is a couple of decades away. And this era will bring 
us the ability to essentially convert information into physical 
products. We are already placing devices with narrow 
intelligence into our bodies for diagnostic and therapeutic 
purposes. With the advent of nanotechnology, we will be able to 
keep our bodies and brains in a healthy optimal state more or 
less indefinitely. We will have technologies to reverse 
environmental pollution. Nanotechnology and related advanced 
technologies of the 2020's will bring us the opportunity to 
overcome age-old problems, including pollution, poverty, 
disease, and aging.
    We hear increasingly strident voices that object to the 
intermingling of the so-called natural world with the products 
of our technology. And this increasing intimacy of our human 
lives with our technology is not a new story. Had it not been 
for the technological advances of the past two centuries, most 
of us here today wouldn't be here today. Human life expectancy 
was 37 years in 1800. We are immeasurably better off as a 
result of technology, but there is still a lot of suffering in 
the world to overcome. We have a moral imperative, therefore, 
to continue the pursuit of knowledge and advanced technologies, 
such as nanotechnology.
    There is also an economic imperative. Nanotechnology is not 
a single field of study that we can simply relinquish as others 
have suggested. Nanotechnology is advancing on hundreds of 
fronts, and it is an extremely diverse activity. We can't 
relinquish its pursuit without essentially relinquishing all of 
technology.
    But technology has always been a double-edged sword. That 
will certainly be true of nanotechnology as you pointed out in 
your opening statement. We see that duality today in 
biotechnology. The same techniques that could save millions of 
lives from cancer may also empower a bioterrorist.
    A lot of attention has been paid to the problem of self-
replicating nanotechnology entities. You referred to it as 
``gray goo.'' I discuss in my written testimony steps we can 
take now and in the future to diminish these dangers, but the 
primary point I would like to make is that we are going to have 
no choice but to confront the challenge of guiding 
nanotechnology in a constructive direction. Any broad attempt 
to relinquish nanotechnology, as some have suggested, will only 
push it underground, which would interfere with the benefits, 
while actually making the dangers worse.
    As a test case, let me bring up an example. We can take a 
small measure of comfort from how we have dealt with one recent 
technological challenge. There exists today a new form of fully 
non-biological, self-replicating entity that didn't exist just 
a few decades ago, the computer or software virus. When this 
form of destructive intruder first appeared, strong concerns 
were voiced that as they became more sophisticated, software 
pathogens had the potential to destroy the computer network 
medium they live in yet the immune system that has evolved in 
response to this challenge has been largely effective. No one 
would suggest we do away with the Internet because of software 
viruses. Our response has been effective and successful, 
although there remain, and always will remain a concern, the 
danger remains at a nuisance level. Keep in mind, this success 
is in an industry in which there is no regulation, no 
certification for practitioners.
    The near-term applications of nanotechnology, such as 
nanoparticles, are far more limited in their benefits as well 
as far more benign in their potential dangers. The voices that 
are expressing concern about nanotechnology are the same voices 
that have expressed undue levels of concern about genetically 
modified organisms. The effects of anti-technology stance that 
has been reflected in the GMO controversy will not be helpful 
in constructively balancing the benefits and risks of 
nanoparticle technology and nanotechnology in general as we 
move forward.
    Thank you very much.
    [The prepared statement of Mr. Kurzweil follows:]

                 Prepared Statement of Raymond Kurzweil

                         Summary of Testimony:

    The size of technology is itself inexorably shrinking. According to 
my models, both electronic and mechanical technologies are shrinking at 
a rate of 5.6 per linear dimension per decade. At this rate, most of 
technology will be ``nanotechnology'' by the 2020s.
    We are immeasurably better off as a result of technology, but there 
is still a lot of suffering in the world to overcome. We have a moral 
imperative, therefore, to continue the pursuit of knowledge and 
advanced technologies, such as nanotechnology, that can continue to 
overcome human affliction. There is also an economic imperative to 
continue due to the pervasive acceleration of technology, including 
miniaturization, in the competitive economy.
    Nanotechnology is not a separate field of study that we can simply 
relinquish. We will have no choice but to confront the challenge of 
guiding nanotechnology in a constructive direction. There are 
strategies we can deploy, but there will need to be continual 
development of defensive strategies.
    We can take some level of comfort from our relative success in 
dealing with one new form of fully non-biological, self-replicating 
pathogen: the software virus.
    The most immediate danger is not self-replicating nanotechnology, 
but rather self-replicating biotechnology. We need to place a much 
higher priority on developing vitally needed defensive technologies 
such as antiviral medications. Keep in mind that a bioterrorist does 
not need to put his ``innovations'' through the FDA.
    Any broad attempt to relinquish nanotechnology will only push it 
underground, which would interfere with the benefits while actually 
making the dangers worse.
    Existing regulations on the safety of foods, drugs, and other 
materials in the environment are sufficient to deal with the near-term 
applications of nanotechnology, such as nanoparticles.

Full Verbal Testimony:

    In my brief verbal remarks, I only have time to summarize my 
Chairman Boehlert, distinguished members of the U.S. House of 
Representatives Committee on Science, and other distinguished guests, I 
appreciate this opportunity to respond to your questions and concerns 
on the vital issue of the societal implications of nanotechnology. Our 
rapidly growing ability to manipulate matter and energy at ever smaller 
scales promises to transform virtually every sector of society, 
including health and medicine, manufacturing, electronics and 
computers, energy, travel, and defense. There will be increasing 
overlap between nanotechnology and other technologies of increasing 
influence, such as biotechnology and artificial intelligence. As with 
any other technological transformation, we will be faced with deeply 
intertwined promise and peril.
    In my brief verbal remarks, I only have time to summarize my 
conclusions on this complex subject, and I am providing the Committee 
with an expanded written response that attempts to explain the 
reasoning behind my views.
    Eric Drexler's 1986 thesis developed the concept of building 
molecule-scale devices using molecular assemblers that would precisely 
guide chemical reactions. Without going through the history of the 
controversy surrounding feasibility, it is fair to say that the 
consensus today is that nano-assembly is indeed feasible, although the 
most dramatic capabilities are still a couple of decades away.
    The concept of nanotechnology today has been expanded to include 
essentially any technology where the key features are measured in a 
modest number of nanometers (under 100 by some definitions). By this 
standard, contemporary electronics has already passed this threshold.
    For the past two decades, I have studied technology trends, along 
with a team of researchers who have assisted me in gathering critical 
measures of technology in different areas, and I have been developing 
mathematical models of how technology evolves. Several conclusions from 
this study have a direct bearing on the issues before this hearing. 
Technologies, particularly those related to information, develop at an 
exponential pace, generally doubling in capability and price-
performance every year. This observation includes the power of 
computation, communication--both wired and wireless, DNA sequencing, 
brain scanning, brain reverse engineering, and the size and scope of 
human knowledge in general. Of particular relevance to this hearing, 
the size of technology is itself inexorably shrinking. According to my 
models, both electronic and mechanical technologies are shrinking at a 
rate of 5.6 per linear dimension per decade. At this rate, most of 
technology will be ``nanotechnology'' by the 2020s.
    The golden age of nanotechnology is, therefore, a couple of decades 
away. This era will bring us the ability to essentially convert 
software, i.e., information, directly into physical products. We will 
be able to produce virtually any product for pennies per pound. 
Computers will have greater computational capacity than the human 
brain, and we will be completing the reverse engineering of the human 
brain to reveal the software design of human intelligence. We are 
already placing devices with narrow intelligence in our bodies for 
diagnostic and therapeutic purposes. With the advent of nanotechnology, 
we will be able to keep our bodies and brains in a healthy, optimal 
state indefinitely. We will have technologies to reverse environmental 
pollution. Nanotechnology and related advanced technologies of the 
2020s will bring us the opportunity to overcome age-old problems, 
including pollution, poverty, disease, and aging.
    We hear increasingly strident voices that object to the 
intermingling of the so-called natural world with the products of our 
technology. The increasing intimacy of our human lives with our 
technology is not a new story, and I would remind the committee that 
had it not been for the technological advances of the past two 
centuries, most of us here today would not be here today. Human life 
expectancy was 37 years in 1800. Most humans at that time lived lives 
dominated by poverty, intense labor, disease, and misfortune. We are 
immeasurably better off as a result of technology, but there is still a 
lot of suffering in the world to overcome. We have a moral imperative, 
therefore, to continue the pursuit of knowledge and of advanced 
technologies that can continue to overcome human affliction.
    There is also an economic imperative to continue. Nanotechnology is 
not a single field of study that we can simply relinquish, as suggested 
by Bill Joy's essay, ``Why the Future Doesn't Need Us.'' Nanotechnology 
is advancing on hundreds of fronts, and is an extremely diverse 
activity. We cannot relinquish its pursuit without essentially 
relinquishing all of technology, which would require a Brave New World 
totalitarian scenario, which is inconsistent with the values of our 
society.
    Technology has always been a double-edged sword, and that is 
certainly true of nanotechnology. The same technology that promises to 
advance human health and wealth also has the potential for destructive 
applications. We can see that duality today in biotechnology. The same 
techniques that could save millions of lives from cancer and disease 
may also empower a bioterrorist to create a bioengineered pathogen.
    A lot of attention has been paid to the problem of self-replicating 
nanotechnology entities that could essentially form a nonbiological 
cancer that would threaten the planet. I discuss in my written 
testimony steps we can take now and in the future to ameliorate these 
dangers. However, the primary point I would like to make is that we 
will have no choice but to confront the challenge of guiding 
nanotechnology in a constructive direction. Any broad attempt to 
relinquish nanotechnology will only push it underground, which would 
interfere with the benefits while actually making the dangers worse.
    As a test case, we can take a small measure of comfort from how we 
have dealt with one recent technological challenge. There exists today 
a new form of fully nonbiological self-replicating entity that didn't 
exist just a few decades ago: the computer virus. When this form of 
destructive intruder first appeared, strong concerns were voiced that 
as they became more sophisticated, software pathogens had the potential 
to destroy the computer network medium they live in. Yet the ``immune 
system'' that has evolved in response to this challenge has been 
largely effective. Although destructive self-replicating software 
entities do cause damage from time to time, the injury is but a small 
fraction of the benefit we receive from the computers and communication 
links that harbor them. No one would suggest we do away with computers, 
local area networks, and the Internet because of software viruses.
    One might counter that computer viruses do not have the lethal 
potential of biological viruses or of destructive nanotechnology. This 
is not always the case: we rely on software to monitor patients in 
critical care units, to fly and land airplanes, to guide intelligent 
weapons in our current campaign in Iraq, and other ``mission critical'' 
tasks. To the extent that this is true, however, this observation only 
strengthens my argument. The fact that computer viruses are not usually 
deadly to humans only means that more people are willing to create and 
release them. It also means that our response to the danger is that 
much less intense. Conversely, when it comes to self-replicating 
entities that are potentially lethal on a large scale, our response on 
all levels will be vastly more serious, as we have seen since 9-11.
    I would describe our response to software pathogens as effective 
and successful. Although they remain (and always will remain) a 
concern, the danger remains at a nuisance level. Keep in mind that this 
success is in an industry in which there is no regulation, and no 
certification for practitioners. This largely unregulated industry is 
also enormously productive. One could argue that it has contributed 
more to our technological and economic progress than any other 
enterprise in human history.
    Some of the concerns that have been raised, such as Bill Joy's 
article, are effective because they paint a picture of future dangers 
as if they were released on today's unprepared world. The reality is 
that the sophistication and power of our defensive technologies and 
knowledge will grow along with the dangers.
    The challenge most immediately in front of us is not self-
replicating nanotechnology, but rather self-replicating biotechnology. 
The next two decades will be the golden age of biotechnology, whereas 
the comparable era for nanotechnology will follow in the 2020s and 
beyond. We are now in the early stages of a transforming technology 
based on the intersection of biology and information science. We are 
learning the ``software'' methods of life and disease processes. By 
reprogramming the information processes that lead to and encourage 
disease and aging, we will have the ability to overcome these 
afflictions. However, the same knowledge can also empower a terrorist 
to create a bioengineered pathogen.
    As we compare the success we have had in controlling engineered 
software viruses to the coming challenge of controlling engineered 
biological viruses, we are struck with one salient difference. As I 
noted, the software industry is almost completely unregulated. The same 
is obviously not the case for biotechnology. A bioterrorist does not 
need to put his ``innovations'' through the FDA. However, we do require 
the scientists developing the defensive technologies to follow the 
existing regulations, which slow down the innovation process at every 
step. Moreover, it is impossible, under existing regulations and 
ethical standards, to test defenses to bioterrorist agents on humans. 
There is already extensive discussion to modify these regulations to 
allow for animal models and simulations to replace infeasible human 
trials. This will be necessary, but I believe we will need to go beyond 
these steps to accelerate the development of vitally needed defensive 
technologies.
    With the human genome project, 3 to 5 percent of the budgets were 
devoted to the ethical, legal, and social implications (ELSI) of the 
technology. A similar commitment for nanotechnology would be 
appropriate and constructive.
    Near-term applications of nanotechnology are far more limited in 
their benefits as well as more benign in their potential dangers. These 
include developments in the materials area involving the addition of 
particles with multi-nanometer features to plastics, textiles, and 
other products. These have perhaps the greatest potential in the area 
of pharmaceutical development by allowing new strategies for highly 
targeted drugs that perform their intended function and reach the 
appropriate tissues, while minimizing side effects. This development is 
not qualitatively different than what we have been doing for decades in 
that many new materials involve constituent particles that are novel 
and of a similar physical scale. The emerging nanoparticle technology 
provides more precise control, but the idea of introducing new 
nonbiological materials into the environment is hardly a new 
phenomenon. We cannot say a priori that all nanoengineered particles 
are safe, nor would it be appropriate to deem them necessarily unsafe. 
Environmental tests thus far have not shown reasons for undue concern, 
and it is my view that existing regulations on the safety of foods, 
drugs, and other materials in the environment are sufficient to deal 
with these near-term applications.
    The voices that are expressing concern about nanotechnology are the 
same voices that have expressed undue levels of concern about 
genetically modified organisms. As with nanoparticles, GMOs are neither 
inherently safe nor unsafe, and reasonable levels of regulation for 
safety are appropriate. However, none of the dire warnings about GMOs 
have come to pass. Already, African nations, such as Zambia and 
Zimbabwe, have rejected vitally needed food aid under pressure from 
European anti-GMO activists. The reflexive anti-technology stance that 
has been reflected in the GMO controversy will not be helpful in 
balancing the benefits and risks of nanoparticle technology.
    In summary, I believe that existing regulatory mechanisms are 
sufficient to handle near-term applications of nanotechnology. As for 
the long-term, we need to appreciate that a myriad of nanoscale 
technologies are inevitable. The current examinations and dialogues on 
achieving the promise while ameliorating the peril are appropriate and 
will deserve sharply increased attention as we get closer to realizing 
these revolutionary technologies.

Written Testimony

    I am pleased to provide a more detailed written response to the 
issues raised by the Committee. In this written portion of my response, 
I address the following issues:

        <bullet> Models of Technology Trends: A discussion of why 
        nanotechnology and related advanced technologies are 
        inevitable. The underlying technologies are deeply integrated 
        into our society and are advancing on many diverse fronts.

        <bullet> A Small Sample of Examples of True Nanotechnology: A 
        few of the implications of nanotechnology two to three decades 
        from now.

        <bullet> The Economic Imperatives of the Law of Accelerating 
        Returns: The exponential advance of technology, including the 
        accelerating miniaturization of technology, is driven by 
        economic imperative, and, in turn, has a pervasive impact on 
        the economy.

        <bullet> The Deeply Intertwined Promise and Peril of 
        Nanotechnology and Related Advanced Technologies: Technology is 
        inherently a doubled-edged sword, and we will need to adopt 
        strategies to encourage the benefits while ameliorating the 
        risks. Relinquishing broad areas of technology, as has been 
        proposed, is not feasible and attempts to do so will only drive 
        technology development underground, which will exacerbate the 
        dangers.

Models of Technology Trends

    A diverse technology such as nanotechnology progresses on many 
fronts and is comprised of hundreds of small steps forward, each benign 
in itself. An examination of these trends shows that technology in 
which the key features are measured in a small number of nanometers is 
inevitable. I hereby provide some examples of my study of technology 
trends.
    The motivation for this study came from my interest in inventing. 
As an inventor in the 1970s, I came to realize that my inventions 
needed to make sense in terms of the enabling technologies and market 
forces that would exist when the invention was introduced, which would 
represent a very different world than when it was conceived. I began to 
develop models of how distinct technologies--electronics, 
communications, computer processors, memory, magnetic storage, and the 
size of technology--developed and how these changes rippled through 
markets and ultimately our social institutions. I realized that most 
inventions fail not because they never work, but because their timing 
is wrong. Inventing is a lot like surfing, you have to anticipate and 
catch the wave at just the right moment.
    In the 1980s, my interest in technology trends and implications 
took on a life of its own, and I began to use my models of technology 
trends to project and anticipate the technologies of future times, such 
as the year 2000, 2010, 2020, and beyond. This enabled me to invent 
with the capabilities of the future. In the late 1980s, I wrote my 
first book, The Age of Intelligent Machines, which ended with the 
specter of machine intelligence becoming indistinguishable from its 
human progenitors. This book included hundreds of predictions about the 
1990s and early 2000 years, and my track record of prediction has held 
up well.
    During the 1990s I gathered empirical data on the apparent 
acceleration of all information-related technologies and sought to 
refine the mathematical models underlying these observations. In The 
Age of Spiritual Machines (ASM), which I wrote in 1998, I introduced 
refined models of technology, and a theory I called ``the law of 
accelerating returns,'' which explained why technology evolves in an 
exponential fashion.

The Intuitive Linear View Versus the Historical Exponential View

    The future is widely misunderstood. Our forebears expected the 
future to be pretty much like their present, which had been pretty much 
like their past. Although exponential trends did exist a thousand years 
ago, they were at that very early stage where an exponential trend is 
so flat and so slow that it looks like no trend at all. So their lack 
of expectations was largely fulfilled. Today, in accordance with the 
common wisdom, everyone expects continuous technological progress and 
the social repercussions that follow. But the future will nonetheless 
be far more surprising than most observers realize because few have 
truly internalized the implications of the fact that the rate of change 
itself is accelerating.
    Most long-range forecasts of technical feasibility in future time 
periods dramatically underestimate the power of future developments 
because they are based on what I call the ``intuitive linear'' view of 
history rather than the ``historical exponential view.'' To express 
this another way, it is not the case that we will experience a hundred 
years of progress in the twenty-first century; rather we will witness 
on the order of twenty thousand years of progress (at today's rate of 
progress, that is).
    When people think of a future period, they intuitively assume that 
the current rate of progress will continue for future periods. Even for 
those who have been around long enough to experience how the pace 
increases over time, an unexamined intuition nonetheless provides the 
impression that progress changes at the rate that we have experienced 
recently. From the mathematician's perspective, a primary reason for 
this is that an exponential curve approximates a straight line when 
viewed for a brief duration. It is typical, therefore, that even 
sophisticated commentators, when considering the future, extrapolate 
the current pace of change over the next 10 years or 100 years to 
determine their expectations. This is why I call this way of looking at 
the future the ``intuitive linear'' view.
    But a serious assessment of the history of technology shows that 
technological change is exponential. In exponential growth, we find 
that a key measurement such as computational power is multiplied by a 
constant factor for each unit of time (e.g., doubling every year) 
rather than just being added to incrementally. Exponential growth is a 
feature of any evolutionary process, of which technology is a primary 
example. One can examine the data in different ways, on different time 
scales, and for a wide variety of technologies ranging from electronic 
to biological, as well as social implications ranging from the size of 
the economy to human life span, and the acceleration of progress and 
growth applies. Indeed, we find not just simple exponential growth, but 
``double'' exponential growth, meaning that the rate of exponential 
growth is itself growing exponentially. These observations do not rely 
merely on an assumption of the continuation of Moore's law (i.e., the 
exponential shrinking of transistor sizes on an integrated circuit), 
but is based on a rich model of diverse technological processes. What 
it clearly shows is that technology, particularly the pace of 
technological change, advances (at least) exponentially, not linearly, 
and has been doing so since the advent of technology, indeed since the 
advent of evolution on Earth.
    Many scientists and engineers have what my colleague Lucas Hendrich 
calls ``engineer's pessimism.'' Often an engineer or scientist who is 
so immersed in the difficulties and intricate details of a contemporary 
challenge fails to appreciate the ultimate long-term implications of 
their own work, and, in particular, the larger field of work that they 
operate in. Consider the biochemists in 1985 who were skeptical of the 
announcement of the goal of transcribing the entire genome in a mere 15 
years. These scientists had just spent an entire year transcribing a 
mere one ten-thousandth of the genome, so even with reasonable 
anticipated advances, it seemed to them like it would be hundreds of 
years, if not longer, before the entire genome could be sequenced. Or 
consider the skepticism expressed in the mid 1980s that the Internet 
would ever be a significant phenomenon, given that it included only 
tens of thousands of nodes. The fact that the number of nodes was 
doubling every year and there were, therefore, likely to be tens of 
millions of nodes ten years later was not appreciated by those who 
struggled with ``state-of-the-art'' technology in 1985, which permitted 
adding only a few thousand nodes throughout the world in a year.
    I emphasize this point because it is the most important failure 
that would-be prognosticators make in considering future trends. The 
vast majority of technology forecasts and forecasters ignore altogether 
this ``historical exponential view'' of technological progress. Indeed, 
almost everyone I meet has a linear view of the future. That is why 
people tend to over estimate what can be achieved in the short-term 
(because we tend to leave out necessary details), but underestimate 
what can be achieved in the long-term (because the exponential growth 
is ignored).

The Law of Accelerating Returns

    The ongoing acceleration of technology is the implication and 
inevitable result of what I call the ``law of accelerating returns,'' 
which describes the acceleration of the pace and the exponential growth 
of the products of an evolutionary process. This includes technology, 
particularly information-bearing technologies, such as computation. 
More specifically, the law of accelerating returns states the 
following:

        <bullet> Evolution applies positive feedback in that the more 
        capable methods resulting from one stage of evolutionary 
        progress are used to create the next stage. As a result, the 
        rate of progress of an evolutionary process increases 
        exponentially over time. Over time, the ``order'' of the 
        information embedded in the evolutionary process (i.e., the 
        measure of how well the information fits a purpose, which in 
        evolution is survival) increases.

        <bullet> A correlate of the above observation is that the 
        ``returns'' of an evolutionary process (e.g., the speed, cost-
        effectiveness, or overall ``power'' of a process) increase 
        exponentially over time.

        <bullet> In another positive feedback loop, as a particular 
        evolutionary process (e.g., computation) becomes more effective 
        (e.g., cost effective), greater resources are deployed towards 
        the further progress of that process. This results in a second 
        level of exponential growth (i.e., the rate of exponential 
        growth itself grows exponentially).

        <bullet> Biological evolution is one such evolutionary 
        process.

        <bullet> Technological evolution is another such evolutionary 
        process. Indeed, the emergence of the first technology-creating 
        species resulted in the new evolutionary process of technology. 
        Therefore, technological evolution is an out growth of--and a 
        continuation of--biological evolution.

        <bullet> A specific paradigm (a method or approach to solving 
        a problem, e.g., shrinking transistors on an integrated circuit 
        as an approach to making more powerful computers) provides 
        exponential growth until the method exhausts its potential. 
        When this happens, a paradigm shift (a fundamental change in 
        the approach) occurs, which enables exponential growth to 
        continue.

        <bullet> Each paradigm follows an ``S-curve,'' which consists 
        of slow growth (the early phase of exponential growth), 
        followed by rapid growth (the late, explosive phase of 
        exponential growth), followed by a leveling off as the 
        particular paradigm matures.

        <bullet> During this third or maturing phase in the life cycle 
        of a paradigm, pressure builds for the next paradigm shift.

        <bullet> When the paradigm shift occurs, the process begins a 
        new S-curve.

        <bullet> Thus the acceleration of the overall evolutionary 
        process proceeds as a sequence of S-curves, and the overall 
        exponential growth consists of this cascade of S-curves.

        <bullet> The resources underlying the exponential growth of an 
        evolutionary process are relatively unbounded.

        <bullet> One resource is the (ever-growing) order of the 
        evolutionary process itself. Each stage of evolution provides 
        more powerful tools for the next. In biological evolution, the 
        advent of DNA allowed more powerful and faster evolutionary 
        ``experiments.'' Later, setting the ``designs'' of animal body 
        plans during the Cambrian explosion allowed rapid evolutionary 
        development of other body organs, such as the brain. Or to take 
        a more recent example, the advent of computer-assisted design 
        tools allows rapid development of the next generation of 
        computers.

        <bullet> The other required resource is the ``chaos'' of the 
        environment in which the evolutionary process takes place and 
        which provides the options for further diversity. In biological 
        evolution, diversity enters the process in the form of 
        mutations and ever-changing environmental conditions, including 
        cosmological disasters (e.g., asteroids hitting the Earth). In 
        technological evolution, human ingenuity combined with ever 
        changing market conditions keep the process of innovation 
        going.

    If we apply these principles at the highest level of evolution on 
Earth, the first step, the creation of cells, introduced the paradigm 
of biology. The subsequent emergence of DNA provided a digital method 
to record the results of evolutionary experiments. Then, the evolution 
of a species that combined rational thought with an opposable appendage 
(the thumb) caused a fundamental paradigm shift from biology to 
technology. The upcoming primary paradigm shift will be from biological 
thinking to a hybrid combining biological and nonbiological thinking. 
This hybrid will include ``biologically inspired'' processes resulting 
from the reverse engineering of biological brains.
    If we examine the timing of these steps, we see that the process 
has continuously accelerated. The evolution of life forms required 
billions of years for the first steps (e.g., primitive cells); later on 
progress accelerated. During the Cambrian explosion, major paradigm 
shifts took only tens of millions of years. Later on, Humanoids 
developed over a period of millions of years, and Homo sapiens over a 
period of only hundreds of thousands of years.
    With the advent of a technology-creating species, the exponential 
pace became too fast for evolution through DNA-guided protein synthesis 
and moved on to human-created technology. Technology goes beyond mere 
tool making; it is a process of creating ever more powerful technology 
using the tools from the previous round of innovation, and is, thereby, 
an evolutionary process. The first technological steps--sharp edges, 
fire, the wheel--took tens of thousands of years. For people living in 
this era, there was little noticeable technological change in even a 
thousand years. By 1000 AD, progress was much faster and a paradigm 
shift required only a century or two. In the nineteenth century, we saw 
more technological change than in the nine centuries preceding it. Then 
in the first twenty years of the twentieth century, we saw more 
advancement than in all of the nineteenth century. Now, paradigm shifts 
occur in only a few years time. The World Wide Web did not exist in 
anything like its present form just a few years ago; it didn't exist at 
all a decade ago.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The paradigm shift rate (i.e., the overall rate of technical 
progress) is currently doubling (approximately) every decade; that is, 
paradigm shift times are halving every decade (and the rate of 
acceleration is itself growing exponentially). So, the technological 
progress in the twenty-first century will be equivalent to what would 
require (in the linear view) on the order of 200 centuries. In 
contrast, the twentieth century saw only about 20 years of progress 
(again at today's rate of progress) since we have been speeding up to 
current rates. So the twenty-first century will see about a thousand 
times greater technological change than its predecessor.

Moore's Law and Beyond

    There is a wide range of technologies that are subject to the law 
of accelerating returns. The exponential trend that has gained the 
greatest public recognition has become known as ``Moore's Law.'' Gordon 
Moore, one of the inventors of integrated circuits, and then Chairman 
of Intel, noted in the mid-1970s that we could squeeze twice as many 
transistors on an integrated circuit every 24 months. Given that the 
electrons have less distance to travel, the circuits also run twice as 
fast, providing an overall quadrupling of computational power.
    However, the exponential growth of computing is much broader than 
Moore's Law.
    If we plot the speed (in instructions per second) per $1000 (in 
constant dollars) of 49 famous calculators and computers spanning the 
entire twentieth century, we note that there were four completely 
different paradigms that provided exponential growth in the price-
performance of computing before the integrated circuits were invented. 
Therefore, Moore's Law was not the first, but the fifth paradigm to 
exponentially grow the power of computation. And it won't be the last. 
When Moore's Law reaches the end of its S-curve, now expected before 
2020, the exponential growth will continue with three-dimensional 
molecular computing, a prime example of the application of 
nanotechnology, which will constitute the sixth paradigm.
    When I suggested in my book The Age of Spiritual Machines, 
published in 1999, that three-dimensional molecular computing, 
particularly an approach based on using carbon nanotubes, would become 
the dominant computing hardware technology in the teen years of this 
century, that was considered a radical notion. There has been so much 
progress in the past four years, with literally dozens of major 
milestones having been achieved, that this expectation is now a 
mainstream view.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The exponential growth of computing is a marvelous quantitative 
example of the exponentially growing returns from an evolutionary 
process. We can express the exponential growth of computing in terms of 
an accelerating pace: it took 90 years to achieve the first MIPS 
(million instructions per second) per thousand dollars; now we add one 
MIPS per thousand dollars every day.
    Moore's Law narrowly refers to the number of transistors on an 
integrated circuit of fixed size, and sometimes has been expressed even 
more narrowly in terms of transistor feature size. But rather than 
feature size (which is only one contributing factor), or even number of 
transistors, I think the most appropriate measure to track is 
computational speed per unit cost. This takes into account many levels 
of ``cleverness'' (i.e., innovation, which is to say, technological 
evolution). In addition to all of the innovation in integrated 
circuits, there are multiple layers of innovation in computer design, 
e.g., pipelining, parallel processing, instruction look-ahead, 
instruction and memory caching, and many others.
    The human brain uses a very inefficient electrochemical digital-
controlled analog computational process. The bulk of the calculations 
are done in the interneuronal connections at a speed of only about 200 
calculations per second (in each connection), which is about ten 
million times slower than contemporary electronic circuits. But the 
brain gains its prodigious powers from its extremely parallel 
organization in three dimensions. There are many technologies in the 
wings that build circuitry in three dimensions. Nanotubes, an example 
of nanotechnology, which is already working in laboratories, build 
circuits from pentagonal arrays of carbon atoms. One cubic inch of 
nanotube circuitry would be a million times more powerful than the 
human brain. There are more than enough new computing technologies now 
being researched, including three-dimensional silicon chips, optical 
and silicon spin computing, crystalline computing, DNA computing, and 
quantum computing, to keep the law of accelerating returns as applied 
to computation going for a long time.
    As I discussed above, it is important to distinguish between the 
``S'' curve (an ``S'' stretched to the right, comprising very slow, 
virtually unnoticeable growth--followed by very rapid growth--followed 
by a flattening out as the process approaches an asymptote) that is 
characteristic of any specific technological paradigm and the 
continuing exponential growth that is characteristic of the ongoing 
evolutionary process of technology. Specific paradigms, such as Moore's 
Law, do ultimately reach levels at which exponential growth is no 
longer feasible. That is why Moore's Law is an S-curve. But the growth 
of computation is an ongoing exponential (at least until we 
``saturate'' the Universe with the intelligence of our human-machine 
civilization, but that will not be a limit in this coming century). In 
accordance with the law of accelerating returns, paradigm shift, also 
called innovation, turns the S-curve of any specific paradigm into a 
continuing exponential. A new paradigm (e.g., three-dimensional 
circuits) takes over when the old paradigm approaches its natural 
limit, which has already happened at least four times in the history of 
computation. This difference also distinguishes the tool making of non-
human species, in which the mastery of a tool-making (or using) skill 
by each animal is characterized by an abruptly ending S shaped learning 
curve, versus human-created technology, which has followed an 
exponential pattern of growth and acceleration since its inception.

DNA Sequencing, Memory, Communications, the Internet, and 
                    Miniaturization

    This ``law of accelerating returns'' applies to all of technology, 
indeed to any true evolutionary process, and can be measured with 
remarkable precision in information-based technologies. There are a 
great many examples of the exponential growth implied by the law of 
accelerating returns in technologies, as varied as DNA sequencing, 
communication speeds, brain scanning, electronics of all kinds, and 
even in the rapidly shrinking size of technology, which is directly 
relevant to the discussion at this hearing. The future nanotechnology 
age results not from the exponential explosion of computation alone, 
but rather from the interplay and myriad synergies that will result 
from manifold intertwined technological revolutions. Also, keep in mind 
that every point on the exponential growth curves underlying these 
panoply of technologies (see the graphs below) represents an intense 
human drama of innovation and competition. It is remarkable therefore 
that these chaotic processes result in such smooth and predictable 
exponential trends.
    As I noted above, when the human genome scan started fourteen years 
ago, critics pointed out that given the speed with which the genome 
could then be scanned, it would take thousands of years to finish the 
project. Yet the fifteen year project was nonetheless completed 
slightly ahead of schedule.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Of course, we expect to see exponential growth in electronic 
memories such as RAM.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    However, growth in magnetic memory is not primarily a matter of 
Moore's law, but includes advances in mechanical and electromagnetic 
systems.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Exponential growth in communications technology has been even more 
explosive than in computation and is no less significant in its 
implications. Again, this progression involves far more than just 
shrinking transistors on an integrated circuit, but includes 
accelerating advances in fiber optics, optical switching, 
electromagnetic technologies, and others.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Note that in the above chart we can actually see the progression of 
``S'' curves: the acceleration fostered by a new paradigm, followed by 
a leveling off as the paradigm runs out of steam, followed by renewed 
acceleration through paradigm shift.
    The following two charts show the overall growth of the Internet 
based on the number of hosts (server computers). These two charts plot 
the same data, but one is on an exponential axis and the other is 
linear. As I pointed out earlier, whereas technology progresses in the 
exponential domain, we experience it in the linear domain. So from the 
perspective of most observers, nothing was happening until the mid 
1990s when seemingly out of nowhere, the World Wide Web and e-mail 
exploded into view. But the emergence of the Internet into a worldwide 
phenomenon was readily predictable much earlier by examining the 
exponential trend data.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The most relevant trend to this hearing, and one that will have 
profound implications for the twenty-first century is the pervasive 
trend towards making things smaller, i.e., miniaturization. The salient 
implementation sizes of a broad range of technologies, both electronic 
and mechanical, are shrinking, also at a double-exponential rate. At 
present, we are shrinking technology by a factor of approximately 5.6 
per linear dimension per decade.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


A Small Sample of Examples of True Nanotechnology

    Ubiquitous nanotechnology is two to three decades away. A prime 
example of its application will be to deploy billions of ``nanobots'': 
small robots the size of human blood cells that can travel inside the 
human bloodstream. This notion is not as futuristic as it may sound in 
that there have already been successful animal experiments using this 
concept. There are already four major conferences on ``BioMEMS'' 
(Biological Micro Electronic Mechanical Systems) covering devices in 
the human blood stream.
    Consider several examples of nanobot technology, which, based on 
miniaturization and cost reduction trends, will be feasible within 30 
years. In addition to scanning the human brain to facilitate human 
brain reverse engineering, these nanobots will be able to perform a 
broad variety of diagnostic and therapeutic functions inside the 
bloodstream and human body. Robert Freitas, for example, has designed 
robotic replacements for human blood cells that perform hundreds or 
thousands of times more effectively than their biological counterparts. 
With Freitas' ``respirocytes,'' (robotic red blood cells), you could do 
an Olympic sprint for 15 minutes without taking a breath. His robotic 
macrophages will be far more effective than our white blood cells at 
combating pathogens. His DNA repair robot would be able to repair DNA 
transcription errors, and even implement needed DNA changes. Although 
Freitas' conceptual designs are two or three decades away, there has 
already been substantial progress on bloodstream-based devices. For 
example, one scientist has cured type I Diabetes in rats with a 
nanoengineered device that incorporates pancreatic Islet cells. The 
device has seven-nanometer pores that let insulin out, but block the 
antibodies which destroy these cells. There are many innovative 
projects of this type already under way.
    Clearly, nanobot technology has profound military applications, and 
any expectation that such uses will be ``relinquished'' are highly 
unrealistic. Already, DOD is developing ``smart dust,'' which are tiny 
robots the size of insects or even smaller. Although not quite 
nanotechnology, millions of these devices can be dropped into enemy 
territory to provide highly detailed surveillance. The potential 
application for even smaller, nanotechnology-based devices is even 
greater. Want to find Saddam Hussein or Osama bin Laden? Need to locate 
hidden weapons of mass destruction? Billions of essentially invisible 
spies could monitor every square inch of enemy territory, identify 
every person and every weapon, and even carry out missions to destroy 
enemy targets. The only way for an enemy to counteract such a force is, 
of course, with their own nanotechnology. The point is that 
nanotechnology-based weapons will obsolete weapons of larger size.
    In addition, nanobots will also be able to expand our experiences 
and our capabilities. Nanobot technology will provide fully immersive, 
totally convincing virtual reality in the following way. The nanobots 
take up positions in close physical proximity to every interneuronal 
connection coming from all of our senses (e.g., eyes, ears, skin). We 
already have the technology for electronic devices to communicate with 
neurons in both directions that requires no direct physical contact 
with the neurons. For example, scientists at the Max Planck Institute 
have developed ``neuron transistors'' that can detect the firing of a 
nearby neuron, or alternatively, can cause a nearby neuron to fire, or 
suppress it from firing. This amounts to two-way communication between 
neurons and the electronic-based neuron transistors. The Institute 
scientists demonstrated their invention by controlling the movement of 
a living leech from their computer. Again, the primary aspect of 
nanobot-based virtual reality that is not yet feasible is size and 
cost.
    When we want to experience real reality, the nanobots just stay in 
position (in the capillaries) and do nothing. If we want to enter 
virtual reality, they suppress all of the inputs coming from the real 
senses, and replace them with the signals that would be appropriate for 
the virtual environment. You (i.e., your brain) could decide to cause 
your muscles and limbs to move as you normally would, but the nanobots 
again intercept these interneuronal signals, suppress your real limbs 
from moving, and instead cause your virtual limbs to move and provide 
the appropriate movement and reorientation in the virtual environment.
    The Web will provide a panoply of virtual environments to explore. 
Some will be recreations of real places, others will be fanciful 
environments that have no ``real'' counterpart. Some indeed would be 
impossible in the physical world (perhaps, because they violate the 
laws of physics). We will be able to ``go'' to these virtual 
environments by ourselves, or we will meet other people there, both 
real people and simulated people. Of course, ultimately there won't be 
a clear distinction between the two.
    By 2030, going to a web site will mean entering a full-immersion 
virtual-reality environment. In addition to encompassing all of the 
senses, these shared environments can include emotional overlays as the 
nanobots will be capable of triggering the neurological correlates of 
emotions, sexual pleasure, and other derivatives of our sensory 
experience and mental reactions.
    In the same way that people today beam their lives from web cams in 
their bedrooms, ``experience beamers'' circa 2030 will beam their 
entire flow of sensory experiences, and if so desired, their emotions 
and other secondary reactions. We'll be able to plug in (by going to 
the appropriate web site) and experience other people's lives as in the 
plot concept of `Being John Malkovich.' Particularly interesting 
experiences can be archived and relived at any time.
    We won't need to wait until 2030 to experience shared virtual-
reality environments, at least for the visual and auditory senses. 
Full-immersion visual-auditory environments will be available by the 
end of this decade, with images written directly onto our retinas by 
our eyeglasses and contact lenses. All of the electronics for the 
computation, image reconstruction, and very high bandwidth wireless 
connection to the Internet will be embedded in our glasses and woven 
into our clothing, so computers as distinct objects will disappear.
    In my view, the most significant implication of the development of 
nanotechnology and related advanced technologies of the 21st century 
will be the merger of biological and nonbiological intelligence. First, 
it is important to point out that well before the end of the twenty-
first century, thinking on nonbiological substrates will dominate. 
Biological thinking is stuck at 10<SUP>26</SUP> calculations per second 
(for all biological human brains), and that figure will not appreciably 
change, even with bioengineering changes to our genome. Nonbiological 
intelligence, on the other hand, is growing at a double-exponential 
rate and will vastly exceed biological intelligence well before the 
middle of this century. However, in my view, this nonbiological 
intelligence should still be considered human as it is fully derivative 
of the human-machine civilization. The merger of these two worlds of 
intelligence is not merely a merger of biological and nonbiological 
thinking mediums, but more importantly one of method and organization 
of thinking.
    One of the key ways in which the two worlds can interact will be 
through nanobots. Nanobot technology will be able to expand our minds 
in virtually any imaginable way. Our brains today are relatively fixed 
in design. Although we do add patterns of interneuronal connections and 
neurotransmitter concentrations as a normal part of the learning 
process, the current overall capacity of the human brain is highly 
constrained, restricted to a mere hundred trillion connections. Brain 
implants based on massively distributed intelligent nanobots will 
ultimately expand our memories a trillion fold, and otherwise vastly 
improve all of our sensory, pattern recognition, and cognitive 
abilities. Since the nanobots are communicating with each other over a 
wireless local area network, they can create any set of new neural 
connections, can break existing connections (by suppressing neural 
firing), can create new hybrid biological-nonbiological networks, as 
well as add vast new nonbiological networks.
    Using nanobots as brain extenders is a significant improvement over 
the idea of surgically installed neural implants, which are beginning 
to be used today (e.g., ventral posterior nucleus, subthalmic nucleus, 
and ventral lateral thalamus neural implants to counteract Parkinson's 
Disease and tremors from other neurological disorders, cochlear 
implants, and others). Nanobots will be introduced without surgery, 
essentially just by injecting or even swallowing them. They can all be 
directed to leave, so the process is easily reversible. They are 
programmable, in that they can provide virtual reality one minute, and 
a variety of brain extensions the next. They can change their 
configuration, and clearly can alter their software. Perhaps most 
importantly, they are massively distributed and therefore can take up 
billions or trillions of positions throughout the brain, whereas a 
surgically introduced neural implant can only be placed in one or at 
most a few locations.

The Economic Imperatives of the Law of Accelerating Returns

    It is the economic imperative of a competitive marketplace that is 
driving technology forward and fueling the law of accelerating returns. 
In turn, the law of accelerating returns is transforming economic 
relationships.
    The primary force driving technology is economic imperative. We are 
moving towards nanoscale machines, as well as more intelligent 
machines, as the result of a myriad of small advances, each with their 
own particular economic justification.
    To use one small example of many from my own experience at one of 
my companies (Kurzweil Applied Intelligence), whenever we came up with 
a slightly more intelligent version of speech recognition, the new 
version invariably had greater value than the earlier generation and, 
as a result, sales increased. It is interesting to note that in the 
example of speech recognition software, the three primary surviving 
competitors stayed very close to each other in the intelligence of 
their software. A few other companies that failed to do so (e.g., 
Speech Systems) went out of business. At any point in time, we would be 
able to sell the version prior to the latest version for perhaps a 
quarter of the price of the current version. As for versions of our 
technology that were two generations old, we couldn't even give those 
away.
    There is a vital economic imperative to create smaller and more 
intelligent technology. Machines that can more precisely carry out 
their missions have enormous value. That is why they are being built. 
There are tens of thousands of projects that are advancing the various 
aspects of the law of accelerating returns in diverse incremental ways. 
Regardless of near-term business cycles, the support for ``high tech'' 
in the business community, and in particular for software advancement, 
has grown enormously. When I started my optical character recognition 
(OCR) and speech synthesis company (Kurzweil Computer Products, Inc.) 
in 1974, high-tech venture deals totaled approximately $10 million. 
Even during today's high tech recession, the figure is 100 times 
greater. We would have to repeal capitalism and every visage of 
economic competition to stop this progression.
    The economy (viewed either in total or per capita) has been growing 
exponentially throughout this century:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Note that the underlying exponential growth in the economy is a far 
more powerful force than periodic recessions. Even the ``Great 
Depression'' represents only a minor blip compared to the underlying 
pattern of growth. Most importantly, recessions, including the 
depression, represent only temporary deviations from the underlying 
curve. In each case, the economy ends up exactly where it would have 
been had the recession/depression never occurred.
    Productivity (economic output per worker) has also been growing 
exponentially. Even these statistics are greatly understated because 
they do not fully reflect significant improvements in the quality and 
features of products and services. It is not the case that ``a car is a 
car;'' there have been significant improvements in safety, reliability, 
and features. Certainly, $1000 of computation today is immeasurably 
more powerful than $1000 of computation ten years ago (by a factor of 
more than 1000). There are a myriad of such examples. Pharmaceutical 
drugs are increasingly effective. Products ordered in five minutes on 
the web and delivered to your door are worth more than products that 
you have to fetch yourself. Clothes custom-manufactured for your unique 
body scan are worth more than clothes you happen to find left on a 
store rack. These sorts of improvements are true for most product 
categories, and none of them are reflected in the productivity 
statistics.
    The statistical methods underlying the productivity measurements 
tend to factor out gains by essentially concluding that we still only 
get one dollar of products and services for a dollar despite the fact 
that we get much more for a dollar (e.g., compare a $1,000 computer 
today to one ten years ago). University of Chicago Professor Pete 
Klenow and University of Rochester Professor Mark Bils estimate that 
the value of existing goods has been increasing at 1.5 percent per year 
for the past 20 years because of qualitative improvements. This still 
does not account for the introduction of entirely new products and 
product categories (e.g., cell phones, pagers, pocket computers). The 
Bureau of Labor Statistics, which is responsible for the inflation 
statistics, uses a model that incorporates an estimate of quality 
growth at only 0.5 percent per year, reflecting a systematic 
underestimate of quality improvement and a resulting overestimate of 
inflation by at least 1 percent per year.
    Despite these weaknesses in the productivity statistical methods, 
the gains in productivity are now reaching the steep part of the 
exponential curve. Labor productivity grew at 1.6 percent per year 
until 1994, then rose at 2.4 percent per year, and is now growing even 
more rapidly. In the quarter ending July 30, 2000, labor productivity 
grew at 5.3 percent. Manufacturing productivity grew at 4.4 percent 
annually from 1995 to 1999, durables manufacturing at 6.5 percent per 
year.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The 1990s have seen the most powerful deflationary forces in 
history. This is why we are not seeing inflation. Yes, it's true that 
low unemployment, high asset values, economic growth, and other such 
factors are inflationary, but these factors are offset by the double-
exponential trends in the price-performance of all information-based 
technologies: computation, memory, communications, biotechnology, 
miniaturization, and even the overall rate of technical progress. These 
technologies deeply affect all industries. We are also undergoing 
massive disintermediation in the channels of distribution through the 
Web and other new communication technologies, as well as escalating 
efficiencies in operations and administration.
    All of the technology trend charts above represent massive 
deflation. There are many examples of the impact of these escalating 
efficiencies. BP Amoco's cost for finding oil is now less than $1 per 
barrel, down from nearly $10 in 1991. Processing an Internet 
transaction costs a bank one penny, compared to over $1 using a teller 
ten years ago. A Roland Berger/Deutsche Bank study estimates a cost 
savings of $1200 per North American car over the next five years. A 
more optimistic Morgan Stanley study estimates that Internet-based 
procurement will save Ford, GM, and DaimlerChrysler about $2700 per 
vehicle.
    It is important to point out that a key implication of 
nanotechnology is that it will bring the economics of software to 
hardware, i.e., to physical products. Software prices are deflating 
even more quickly than hardware.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Current economic policy is based on outdated models that include 
energy prices, commodity prices, and capital investment in plant and 
equipment as key driving factors, but do not adequately model the size 
of technology, bandwidth, MIPs, megabytes, intellectual property, 
knowledge, and other increasingly vital (and increasingly increasing) 
constituents that are driving the economy.
    Another indication of the law of accelerating returns in the 
exponential growth of human knowledge, including intellectual property. 
If we look at the development of intellectual property within the 
nanotechnology field, we see even more rapid growth.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    None of this means that cycles of recession will disappear 
immediately. Indeed there is a current economic slowdown and a 
technology-sector recession. The economy still has some of the 
underlying dynamics that historically have caused cycles of recession, 
specifically excessive commitments such as over-investment, excessive 
capital intensive projects and the overstocking of inventories. 
However, the rapid dissemination of information, sophisticated forms of 
online procurement, and increasingly transparent markets in all 
industries have diminished the impact of this cycle. So ``recessions'' 
are likely to have less direct impact on our standard of living. The 
underlying long-term growth rate will continue at a double exponential 
rate.
    Moreover, innovation and the rate of paradigm shift are not 
noticeably affected by the minor deviations caused by economic cycles. 
All of the technologies exhibiting exponential growth shown in the 
above charts are continuing without losing a beat through this economic 
slowdown.
    The overall growth of the economy reflects completely new forms and 
layers of wealth and value that did not previously exist, or least that 
did not previously constitute a significant portion of the economy (but 
do now): new forms of nanoparticle-based materials, genetic 
information, intellectual property, communication portals, web sites, 
bandwidth, software, data bases, and many other new technology-based 
categories.
    Another implication of the law of accelerating returns is 
exponential growth in education and learning. Over the past 120 years, 
we have increased our investment in K-12 education (per student and in 
constant dollars) by a factor of ten. We have a one hundred fold 
increase in the number of college students. Automation started by 
amplifying the power of our muscles, and in recent times has been 
amplifying the power of our minds. Thus, for the past two centuries, 
automation has been eliminating jobs at the bottom of the skill ladder 
while creating new (and better paying) jobs at the top of the skill 
ladder. So the ladder has been moving up, and thus we have been 
exponentially increasing investments in education at all levels.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


The Deeply Intertwined Promise and Peril of Nanotechnology and Related 
                    Advanced Technologies

    Technology has always been a double-edged sword, bringing us longer 
and healthier life spans, freedom from physical and mental drudgery, 
and many new creative possibilities on the one hand, while introducing 
new and salient dangers on the other. Technology empowers both our 
creative and destructive natures. Stalin's tanks and Hitler's trains 
used technology. We still live today with sufficient nuclear weapons 
(not all of which appear to be well accounted for) to end all mammalian 
life on the planet. Bioengineering is in the early stages of enormous 
strides in reversing disease and aging processes. However, the means 
and knowledge will soon exist in a routine college bioengineering lab 
(and already exists in more sophisticated labs) to create unfriendly 
pathogens more dangerous than nuclear weapons. As technology 
accelerates towards the full realization of biotechnology, 
nanotechnology and ``strong'' AI (artificial intelligence at human 
levels and beyond), we will see the same intertwined potentials: a 
feast of creativity resulting from human intelligence expanded many-
fold combined with many grave new dangers.
    Consider unrestrained nanobot replication. Nanobot technology 
requires billions or trillions of such intelligent devices to be 
useful. The most cost-effective way to scale up to such levels is 
through self-replication, essentially the same approach used in the 
biological world. And in the same way that biological self-replication 
gone awry (i.e., cancer) results in biological destruction, a defect in 
the mechanism curtailing nanobot self-replication would endanger all 
physical entities, biological or otherwise. I address below steps we 
can take to address this grave risk, but we cannot have complete 
assurance in any strategy that we devise today.
    Other primary concerns include ``who is controlling the nanobots?'' 
and ``who are the nanobots talking to?'' Organizations (e.g., 
governments, extremist groups) or just a clever individual could put 
trillions of undetectable nanobots in the water or food supply of an 
individual or of an entire population. These ``spy'' nanobots could 
then monitor, influence, and even control our thoughts and actions. In 
addition to introducing physical spy nanobots, existing nanobots could 
be influenced through software viruses and other software ``hacking'' 
techniques. When there is software running in our brains, issues of 
privacy and security will take on a new urgency.
    My own expectation is that the creative and constructive 
applications of this technology will dominate, as I believe they do 
today. However, I believe we need to invest more heavily in developing 
specific defensive technologies. As I address further below, we are at 
this stage today for biotechnology, and will reach the stage where we 
need to directly implement defensive technologies for nanotechnology 
during the late teen years of this century.
    If we imagine describing the dangers that exist today to people who 
lived a couple of hundred years ago, they would think it mad to take 
such risks. On the other hand, how many people in the year 2000 would 
really want to go back to the short, brutish, disease-filled, poverty-
stricken, disaster-prone lives that 99 percent of the human race 
struggled through a couple of centuries ago? We may romanticize the 
past, but up until fairly recently, most of humanity lived extremely 
fragile lives where one all-too-common misfortune could spell disaster. 
Substantial portions of our species still live in this precarious way, 
which is at least one reason to continue technological progress and the 
economic enhancement that accompanies it.
    People often go through three stages in examining the impact of 
future technology: awe and wonderment at its potential to overcome age 
old problems; then a sense of dread at a new set of grave dangers that 
accompany these new technologies; followed, finally and hopefully, by 
the realization that the only viable and responsible path is to set a 
careful course that can realize the promise while managing the peril.
    This congressional hearing was party inspired by Bill Joy's cover 
story for Wired magazine, Why The Future Doesn't Need Us. Bill Joy, co-
founder of Sun Microsystems and principal developer of the Java 
programming language, has recently taken up a personal mission to warn 
us of the impending dangers from the emergence of self-replicating 
technologies in the fields of genetics, nanotechnology, and robotics, 
which he aggregates under the label ``GNR.'' Although his warnings are 
not entirely new, they have attracted considerable attention because of 
Joy's credibility as one of our leading technologists. It is 
reminiscent of the attention that George Soros, the currency arbitrager 
and arch capitalist, received when he made vaguely critical comments 
about the excesses of unrestrained capitalism.
    Joy's concerns include genetically altered designer pathogens, 
followed by self-replicating entities created through nanotechnology. 
And if we manage to survive these first two perils, we will encounter 
robots whose intelligence will rival and ultimately exceed our own. 
Such robots may make great assistants, but who's to say that we can 
count on them to remain reliably friendly to mere humans?
    Although I am often cast as the technology optimist who counters 
Joy's pessimism, I do share his concerns regarding self-replicating 
technologies; indeed, I played a role in bringing these dangers to 
Bill's attention. In many of the dialogues and forums in which I have 
participated on this subject, I end up defending Joy's position with 
regard to the feasibility of these technologies and scenarios when they 
come under attack by commentators who I believe are being quite 
shortsighted in their skepticism. Even so, I do find fault with Joy's 
prescription: halting the advance of technology and the pursuit of 
knowledge in broad fields such as nanotechnology.
    In his essay, Bill Joy eloquently described the plagues of 
centuries past and how new self-replicating technologies, such as 
mutant bioengineered pathogens and ``nanobots'' run amok, may bring 
back long-forgotten pestilence. Indeed these are real dangers. It is 
also the case, which Joy acknowledges, that it has been technological 
advances, such as antibiotics and improved sanitation, which have freed 
us from the prevalence of such plagues. Suffering in the world 
continues and demands our steadfast attention. Should we tell the 
millions of people afflicted with cancer and other devastating 
conditions that we are canceling the development of all bioengineered 
treatments because there is a risk that these same technologies may 
someday be used for malevolent purposes? Having asked the rhetorical 
question, I realize that there is a movement to do exactly that, but I 
think most people would agree that such broad-based relinquishment is 
not the answer.
    The continued opportunity to alleviate human distress is one 
important motivation for continuing technological advancement. Also 
compelling are the already apparent economic gains I discussed above 
that will continue to hasten in the decades ahead. The continued 
acceleration of many intertwined technologies are roads paved with gold 
(I use the plural here because technology is clearly not a single 
path). In a competitive environment, it is an economic imperative to go 
down these roads. Relinquishing technological advancement would be 
economic suicide for individuals, companies, and nations.

The Relinquishment Issue

    This brings us to the issue of relinquishment, which is Bill Joy's 
most controversial recommendation and personal commitment. I do feel 
that relinquishment at the right level is part of a responsible and 
constructive response to these genuine perils. The issue, however, is 
exactly this: at what level are we to relinquish technology?
    Ted Kaczynski would have us renounce all of it. This, in my view, 
is neither desirable nor feasible, and the futility of such a position 
is only underscored by the senselessness of Kaczynski's deplorable 
tactics. There are other voices, less reckless than Kaczynski, who are 
nonetheless arguing for broad-based relinquishment of technology. Bill 
McKibben, the environmentalist who was one of the first to warn against 
global warming, takes the position that ``environmentalists must now 
grapple squarely with the idea of a world that has enough wealth and 
enough technological capability, and should not pursue more.'' In my 
view, this position ignores the extensive suffering that remains in the 
human world, which we will be in a position to alleviate through 
continued technological progress.
    Another level would be to forego certain fields--nanotechnology, 
for example--that might be regarded as too dangerous. But such sweeping 
strokes of relinquishment are equally untenable. As I pointed out 
above, nanotechnology is simply the inevitable end result of the 
persistent trend towards miniaturization that pervades all of 
technology. It is far from a single centralized effort, but is being 
pursued by a myriad of projects with many diverse goals.
    One observer wrote:

        ``A further reason why industrial society cannot be reformed. 
        . .is that modern technology is a unified system in which all 
        parts are dependent on one another. You can't get rid of the 
        ``bad'' parts of technology and retain only the ``good'' parts. 
        Take modern medicine, for example. Progress in medical science 
        depends on progress in chemistry, physics, biology, computer 
        science and other fields. Advanced medical treatments require 
        expensive, high-tech equipment that can be made available only 
        by a technologically progressive, economically rich society. 
        Clearly you can't have much progress in medicine without the 
        whole technological system and everything that goes with it.''

    The observer I am quoting is, again, Ted Kaczynski. Although one 
will properly resist Kaczynski as an authority, I believe he is correct 
on the deeply entangled nature of the benefits and risks. However, 
Kaczynski and I clearly part company on our overall assessment on the 
relative balance between the two. Bill Joy and I have dialogued on this 
issue both publicly and privately, and we both believe that technology 
will and should progress, and that we need to be actively concerned 
with the dark side. If Bill and I disagree, it's on the granularity of 
relinquishment that is both feasible and desirable.
    Abandonment of broad areas of technology will only push them 
underground where development would continue unimpeded by ethics and 
regulation. In such a situation, it would be the less-stable, less-
responsible practitioners (e.g., terrorists) who would have all the 
expertise.
    I do think that relinquishment at the right level needs to be part 
of our ethical response to the dangers of 21st century technologies. 
One constructive example of this is the proposed ethical guideline by 
the Foresight Institute, founded by nanotechnology pioneer Eric 
Drexler, that nanotechnologists agree to relinquish the development of 
physical entities that can self-replicate in a natural environment. 
Another is a ban on self-replicating physical entities that contain 
their own codes for self-replication. In what nanotechnologist Ralph 
Merkle calls the ``broadcast architecture,'' such entities would have 
to obtain such codes from a centralized secure server, which would 
guard against undesirable replication. I discuss these guidelines 
further below.
    The broadcast architecture is impossible in the biological world, 
which represents at least one way in which nanotechnology can be made 
safer than biotechnology. In other ways, nanotech is potentially more 
dangerous because nanobots can be physically stronger than protein-
based entities and more intelligent. It will eventually be possible to 
combine the two by having nanotechnology provide the codes within 
biological entities (replacing DNA), in which case biological entities 
can use the much safer broadcast architecture. I comment further on the 
strengths and weaknesses of the broadcast architecture below.
    As responsible technologies, our ethics should include such ``fine-
grained'' relinquishment, among other professional ethical guidelines. 
Other protections will need to include oversight by regulatory bodies, 
the development of technology-specific ``immune'' responses, as well as 
computer assisted surveillance by law enforcement organizations. Many 
people are not aware that our intelligence agencies already use 
advanced technologies such as automated word spotting to monitor a 
substantial flow of telephone conversations. As we go forward, 
balancing our cherished rights of privacy with our need to be protected 
from the malicious use of powerful 21st century technologies will be 
one of many profound challenges. This is one reason that such issues as 
an encryption ``trap door'' (in which law enforcement authorities would 
have access to otherwise secure information) and the FBI ``Carnivore'' 
email-snooping system have been controversial, although these 
controversies have abated since 9-11-2001.
    As a test case, we can take a small measure of comfort from how we 
have dealt with one recent technological challenge. There exists today 
a new form of fully nonbiological self replicating entity that didn't 
exist just a few decades ago: the computer virus. When this form of 
destructive intruder first appeared, strong concerns were voiced that 
as they became more sophisticated, software pathogens had the potential 
to destroy the computer network medium they live in. Yet the ``immune 
system'' that has evolved in response to this challenge has been 
largely effective. Although destructive self-replicating software 
entities do cause damage from time to time, the injury is but a small 
fraction of the benefit we receive from the computers and communication 
links that harbor them. No one would suggest we do away with computers, 
local area networks, and the Internet because of software viruses.
    One might counter that computer viruses do not have the lethal 
potential of biological viruses or of destructive nanotechnology. This 
is not always the case; we rely on software to monitor patients in 
critical care units, to fly and land airplanes, to guide intelligent 
weapons in our current campaign in Iraq, and other ``mission-critical'' 
tasks. To the extent that this is true, however, this observation only 
strengthens my argument. The fact that computer viruses are not usually 
deadly to humans only means that more people are willing to create and 
release them. It also means that our response to the danger is that 
much less intense. Conversely, when it comes to self- replicating 
entities that are potentially lethal on a large scale, our response on 
all levels will be vastly more serious, as we have seen since 9-11.
    I would describe our response to software pathogens as effective 
and successful. Although they remain (and always will remain) a 
concern, the danger remains at a nuisance level. Keep in mind that this 
success is in an industry in which there is no regulation, and no 
certification for practitioners. This largely unregulated industry is 
also enormously productive. One could argue that it has contributed 
more to our technological and economic progress than any other 
enterprise in human history. I discuss the issue of regulation further 
below.

Development of Defensive Technologies and the Impact of Regulation

    Joy's treatise is effective because he paints a picture of future 
dangers as if they were released on today's unprepared world. The 
reality is that the sophistication and power of our defensive 
technologies and knowledge will grow along with the dangers. When we 
have ``gray goo'' (unrestrained nanobot replication), we will also have 
``blue goo'' (``police'' nanobots that combat the ``bad'' nanobots). 
The story of the 21st century has not yet been written, so we cannot 
say with assurance that we will successfully avoid all misuse. But the 
surest way to prevent the development of the defensive technologies 
would be to relinquish the pursuit of knowledge in broad areas. We have 
been able to largely control harmful software virus replication because 
the requisite knowledge is widely available to responsible 
practitioners. Attempts to restrict this knowledge would have created a 
far less stable situation. Responses to new challenges would have been 
far slower, and it is likely that the balance would have shifted 
towards the more destructive applications (e.g., software viruses).
    The challenge most immediately in front of us is not self-
replicating nanotechnology, but rather self-replicating biotechnology. 
The next two decades will be the golden age of biotechnology, whereas 
the comparable era for nanotechnology will follow in the 2020s and 
beyond. We are now in the early stages of a transforming technology 
based on the intersection of biology and information science. We are 
learning the ``software'' methods of life and disease processes. By 
reprogramming the information processes that lead to and encourage 
disease and aging, we will have the ability to overcome these 
afflictions. However, the same knowledge can also empower a terrorist 
to create a bioengineered pathogen.
    As we compare the success we have had in controlling engineered 
software viruses to the coming challenge of controlling engineered 
biological viruses, we are struck with one salient difference. As I 
noted above, the software industry is almost completely unregulated. 
The same is obviously not the case for biotechnology. A bioterrorist 
does not need to put his ``innovations'' through the FDA. However, we 
do require the scientists developing the defensive technologies to 
follow the existing regulations, which slow down the innovation process 
at every step. Moreover, it is impossible, under existing regulations 
and ethical standards, to test defenses to bioterrorist agents. There 
is already extensive discussion to modify these regulations to allow 
for animal models and simulations to replace infeasible human trials. 
This will be necessary, but I believe we will need to go beyond these 
steps to accelerate the development of vitally needed defensive 
technologies.
    For reasons I have articulated above, stopping these technologies 
is not feasible, and pursuit of such broad forms of relinquishment will 
only distract us from the vital task in front of us. In terms of public 
policy, the task at hand is to rapidly develop the defensive steps 
needed, which include ethical standards, legal standards, and defensive 
technologies. It is quite clearly a race. As I noted, in the software 
field, the defensive technologies have remained a step ahead of the 
offensive ones. With the extensive regulation in the medical field 
slowing down innovation at each stage, we cannot have the same 
confidence with regard to the abuse of biotechnology.
    In the current environment, when one person dies in gene therapy 
trials, there are congressional investigations and all gene therapy 
research comes to a temporary halt. There is a legitimate need to make 
biomedical research as safe as possible, but our balancing of risks is 
completely off. The millions of people who desperately need the 
advances to be made available by gene therapy and other breakthrough 
biotechnology advances appear to carry little political weight against 
a handful of well-publicized casualties from the inevitable risks of 
progress.
    This equation will become even more stark when we consider the 
emerging dangers of bioengineered pathogens. What is needed is a change 
in public attitude in terms of tolerance for needed risk.
    Hastening defensive technologies is absolutely vital to our 
security. We need to streamline regulatory procedures to achieve this. 
However, we also need to greatly increase our investment explicitly in 
the defensive technologies. In the biotechnology field, this means the 
rapid development of antiviral medications. We will not have time to 
develop specific countermeasures for each new challenge that comes 
along. We are close to developing more generalized antiviral 
technologies, and these need to be accelerated.
    I have addressed here the issue of biotechnology because that is 
the threshold and challenge that we now face. The comparable situation 
will exist for nanotechnology once replication of nano-engineered 
entities has been achieved. As that threshold comes closer, we will 
then need to invest specifically in the development of defensive 
technologies, including the creation of a nanotechnology-based immune 
system. Bill Joy and other observers have pointed out that such an 
immune system would itself be a danger because of the potential of 
``autoimmune'' reactions (i.e., the immune system using its powers to 
attack the world it is supposed to be defending).
    However, this observation is not a compelling reason to avoid the 
creation of an immune system. No one would argue that humans would be 
better off without an immune system because of the possibility of auto 
immune diseases. Although the immune system can itself be a danger, 
humans would not last more than a few weeks (barring extraordinary 
efforts at isolation) without one. The development of a technological 
immune system for nanotechnology will happen even without explicit 
efforts to create one. We have effectively done this with regard to 
software viruses. We created a software virus immune system not through 
a formal grand design project, but rather through our incremental 
responses to each new challenge. We can expect the same thing will 
happen as challenges from nanotechnology based dangers emerge. The 
point for public policy will be to specifically invest in these 
defensive technologies.
    It is premature today to develop specific defensive 
nanotechnologies since we can only have a general idea of what we are 
trying to defend against. It would be similar to the engineering world 
creating defenses against software viruses before the first one had 
been created. However, there is already fruitful dialogue and 
discussion on anticipating this issue, and significantly expanded 
investment in these efforts is to be encouraged.
    As I mentioned above, the Foresight Institute, for example, has 
devised a set of ethical standards and strategies for assuring the 
development of safe nanotechnology. These guidelines include:

        <bullet> ``Artificial replicators must not be capable of 
        replication in a natural, uncontrolled environment.''

        <bullet> ``Evolution within the context of a self-replicating 
        manufacturing system is discouraged.''

        <bullet> ``MNT (molecular nanotechnology) designs should 
        specifically limit proliferation and provide traceability of 
        any replicating systems.''

        <bullet> ``Distribution of molecular manufacturing development 
        capability should be restricted whenever possible, to 
        responsible actors that have agreed to the guidelines. No such 
        restriction need apply to end products of the development 
        process.''

    Other strategies that the Foresight Institute has proposed include:

        <bullet> Replication should require materials not found in the 
        natural environment.

        <bullet> Manufacturing (replication) should be separated from 
        the functionality of end products. Manufacturing devices can 
        create end products, but cannot replicate themselves, and end 
        products should have no replication capabilities.

        <bullet> Replication should require replication codes that are 
        encrypted, and time limited. The broadcast architecture 
        mentioned earlier is an example of this recommendation.

    These guidelines and strategies are likely to be effective with 
regarding to preventing accidental release of dangerous self- 
replicating nanotechnology entities. The situation with regard to 
intentional design and release of such entities is more complex and 
more challenging. We can anticipate approaches that would have the 
potential to defeat each of these layers of protections by a 
sufficiently determined and destructive opponent.
    Take, for example, the broadcast architecture. When properly 
designed, each entity is unable to replicate without first obtaining 
replication codes. These codes are not passed on from one replication 
generation to the next. However, a modification to such a design could 
bypass the destruction of the replication codes and thereby pass them 
on to the next generation. To overcome that possibility, it has been 
recommended that the memory for the replication codes be limited to 
only a subset of the full replication code so that there is 
insufficient memory to pass the codes along. However, this guideline 
could be defeated by expanding the size of the replication code memory 
to incorporate the entire code. Another protection that has been 
suggested is to encrypt the codes and to build in protections such as 
time expiration limitations in the decryption systems. However, we can 
see the ease with which protections against unauthorized replications 
of intellectual property such as music files has been defeated. Once 
replication codes and protective layers are stripped away, the 
information can be replicated without these restrictions.
    My point is not that protection is impossible. Rather, we need to 
realize that any level of protection will only work to a certain level 
of sophistication. The ``meta'' lesson here is that we will need to 
continue to advance the defensive technologies, and keep them one or 
more steps ahead of the destructive technologies. We have seen 
analogies to this in many areas, including technologies for national 
defense, as well as our largely successful efforts to combat software 
viruses, that I alluded to above.
    What we can do today with regard to the critical challenge of self-
replication in nanotechnology is to continue the type of effective 
study that the Foresight Institute has initiated. With the human genome 
project, three to five percent of the budgets were devoted to the 
ethical, legal, and social implications (ELSI) of the technology. A 
similar commitment for nanotechnology would be appropriate and 
constructive.
    Technology will remain a double-edged sword, and the story of the 
21st century has not yet been written. It represents vast power to be 
used for all humankind's purposes. We have no choice but to work hard 
to apply these quickening technologies to advance our human values, 
despite what often appears to be a lack of consensus on what those 
values should be.

                     Biography for Raymond Kurzweil

    Ray Kurzweil was the principal developer of the first omni-font 
optical character recognition, the first print-to-speech reading 
machine for the blind, the first CCD flat-bed scanner, the first text-
to-speech synthesizer, the first music synthesizer capable of 
recreating the grand piano and other orchestral instruments, and the 
first commercially marketed large-vocabulary speech recognition. Ray 
has successfully founded and developed nine businesses in OCR, music 
synthesis, speech recognition, reading technology, virtual reality, 
financial investment, medical simulation, and cybernetic art. A11 of 
these technologies continue today as market leaders. Ray's web site, 
KurzweilAI.net, is a leading resource on artificial intelligence.
    Ray Kurzweil was inducted in 2002 into the National Inventors Hall 
of Fame, established by the U.S. Patent Office. He received the 
$500,000 Lemelson-MIT Prize (view the video), the Nation's largest 
award in invention and innovation. He also received the 1999 National 
Medal of Technology, the Nation's highest honor in technology, from 
President Clinton in a White House ceremony. He has also received 
scores of other national and international awards, including the 1994 
Dickson Prize (Carnegie Mellon University's top science prize), 
Engineer of the Year from Design News, Inventor of the Year from MIT, 
and the Grace Murray Hopper Award from the Association for Computing 
Machinery. He has received eleven honorary Doctorates and honors from 
three U.S. presidents.
    He has received seven national and international film awards. His 
book, The Age of Intelligent Machines, was named Best Computer Science 
Book of 1990. His current best-selling book, The Age of Spiritual 
Machines, When Computers Exceed Human Intelligence, has been published 
in nine languages and achieved the #1 best selling book on Amazon.com 
in the categories of ``Science'' and ``Artificial Intelligence.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Dr. Kurzweil. Dr. 
Colvin.

 STATEMENT OF DR. VICKI L. COLVIN, EXECUTIVE DIRECTOR, CENTER 
  FOR BIOLOGICAL AND ENVIRONMENTAL NANOTECHNOLOGY, ASSOCIATE 
            PROFESSOR OF CHEMISTRY, RICE UNIVERSITY

    Dr. Colvin. Good morning, Chairman Boehlert, Ranking Member 
Hall, and Members of the House Science Committee. I will 
highlight the essential points of my written testimony with a 
modified structure. It is briefer in this oral statement.
    The novel ``Prey'' describes a chilling scenario in which 
nanorobots begin preying on living creatures and reproducing. 
This is science fiction, not science fact. However, the public 
relations nightmare it could spawn is just as frightening to 
me, a nanotechnology researcher, as nanobots might be to some 
lay people. The good news is that it is not too late to ensure 
that nanotechnology develops responsibly and with strong public 
support.
    New developments in technology, as you pointed out in your 
opening statement, usually start out with potential benefits to 
the economy, human health and quality of life being touted. In 
our center, we refer to that as the ``wow index''. At present, 
nanotechnology has a very high wow index. Whether it is smart 
clothing with computers woven into its fabric or drug delivery 
pumps you can turn on with a flashlight, nanotechnology is 
wowing everyone. However, every new technology brings with it a 
set of concerns that, if handled poorly, can turn ``wow'' into 
``yuck'' and ultimately into bankrupt as the genetically 
modified foods industry discovered.
    This fate is not inevitable. The founders of the Human 
Genome Project, instead of bearing potential controversies, 
have embraced them. They have committed at least three percent 
of their annual research budget to societal implications. I 
think it is because of the substantial debate this research has 
sparked that public opposition to this work has been minimal. 
These examples teach us that early and open exploration of the 
unintended impacts of new technology can derail the wow-to-yuck 
trajectory.
    What are the societal and ethical issues for 
nanotechnology? No one has a crystal ball to predict the 
future. In spite of this, nanotechnology's yuck factor is 
rising due in part to the fiction of invisible nanorobots. 
Nanobots distract us from the less exciting but more real 
issues that are likely to rise in the area of environmental 
impact.
    As a chemist, I know all too well how unforeseen 
consequences can destroy industries. From asbestos to DDT, 
society has paid a high price for not evaluating human health 
and ecosystem impacts before industries develop. The real 
losers are the businesses that enthusiastically embrace these 
new materials only to face expensive liability and clean-up 
claims later.
    It may seem premature to consider these issues now for 
nanotechnology, however if you have used a sunscreen in the 
last year, your skin probably came into contact with nanoscale 
ceramics. Is this a cause for concern? No one knows. Nanoscale 
solids can interact with biological systems in unexpected ways. 
For example, you could wear a silver bracelet with no ill 
effects, however, if you actually eat nanoscale silver, which I 
wouldn't advise but some people do, you will turn yourself 
quite blue. Unintended exposure to nanoscale solids could have 
even more dire consequences, we just don't know very much about 
this problem. If we fail to answer these questions early, 
public acceptance of nanotechnology could be in jeopardy and 
the entire industry derailed.
    It is critical to consider environmental impact as an 
essential component, especially for nanotechnology in the broad 
category of societal impact. At the center I direct, we 
consider the environmental consequences of engineered 
nanomaterials, but we can't do this alone. We need partners. 
Despite their rhetoric, there is little money and interest in 
societal impact research. Your help here is essential. You can 
use this legislation to strongly highlight the value that you, 
the policy makers, place on societal impact research. This 
value is not instinctively shared by researchers or their 
funding agencies. We justify our financial support to both you 
and the public by stressing the wow of what we do. Research 
that uncovers problems or postulates negative consequences is 
not widely pursued or rewarded.
    Also, the NNI bill should recognize that societal impact 
research is very hard to do. It requires teams that predict the 
future and then decide what those futures might mean. The first 
step, technology forecasting, must be done by nanotechnologists 
that are closely involved with applications development. The 
second step requires both social and environmental scientists 
to evaluate the consequences. Only when both of these people--
pieces come together can societal impact work have a meaningful 
impact on nanotechnology development. Such a large and complex 
collaborative effort is best managed, I believe, in a center 
environment.
    In order to monitor the progress of societal impact 
research, especially in light of some of the barriers it faces, 
it would be essential to quantify its funding and its outputs. 
The advisory panel proposed in this legislation will be 
instrumental here in classifying which of the many NNI research 
efforts address truly societal impact. They can distinguish, 
for example, between projects aimed at developing new 
environmental applications from those aimed at evaluating 
environmental implications. Ultimately, how nanotechnology 
develops will depend on how its research monies are allocated. 
Do for nanotechnology what the Human Genome Project founders 
have done for sequencing genes. Invest five percent of the 
total research dollars in nanotechnology toward societal, 
ethical, and environmental impact studies. This is a small 
price to pay to ensure that nanotechnology develops responsibly 
and with strong public support.
    Thank you for the opportunity to speak. I will be happy to 
answer questions.
    [The prepared statement of Dr. Colvin follows:]

                 Prepared Statement of Vicki L. Colvin

    Good morning Chairman Boehlert, Ranking Member Hall, and Members of 
the House Science Committee. Thank you for holding this important 
hearing to consider the societal and ethical impacts of nanotechnology.
    Michael Crichton's novel Prey describes a chilling scenario in 
which swarms of nano-robots--equipped with memory, solar power 
generators, and powerful software--begin preying on living creatures 
and reproducing. This may be gripping science fiction; it is not 
science fact. It does, however, highlight a reaction that could bring 
the growing nanotechnology industry to its knees: fear. The perception 
that nanotechnology will cause environmental devastation or human 
disease could itself turn the dream of a trillion-dollar industry into 
a nightmare of public backlash. This negative response is possible even 
if the environmental and health threats never materialize. To 
nanotechnology researchers like myself, that prospect is all too real, 
and just as frightening as anything a sci-fi writer can imagine.
    The good news is that its not too late to ensure that 
nanotechnology develops responsibly and with strong public support. The 
Center for Biological and Environmental Nanotechnology at Rice 
University is working toward that goal, and we believe that legislation 
such as the Nanotechnology Research and Development Act of 2003 is 
central in avoiding this nightmare scenario.

The Wow Index

    New developments in technology usually start out with strong public 
support, as the potential benefits to the economy, human health or 
quality of life are touted. At our center we call this the ``wow 
index.'' Genetic engineering promised a revolution in medical care, 
including the ability to cure or prevent diseases with a genetic basis 
such as Huntington's disease, hemophilia, cystic fibrosis and some 
breast cancers. Manipulation of the genome also promised a revolution 
in how food is produced, by engineering crops with increased yields and 
longer shelf-lives.
    At present, nanotechnology has a very high wow index. For the past 
decade, nanotechnologists have basked in the glow of positive public 
opinion. We've wowed the public with our ability to manipulate matter 
at the atomic level and with grand visions of how we might use this 
ability. All this ``good news'' has created a growing perception among 
business and government leaders that nanotechnology is a powerful 
platform for 21st century technologies. The good news has given 
nanotechnology a strong start with extraordinary levels of focused 
government funding, which is starting to reap tangible benefits to 
society.

The Yuck Index

    However, every new technology brings with it a set of societal and 
ethical concerns that can rapidly turn ``wow'' into ``yuck.'' The 
genetic manipulation of crops grown for human consumption spawned a 
host of ethical concerns about the advisability of tinkering with the 
natural order. The public backlash against genetically modified 
organisms (GMOs), which detractors labeled ``Frankenfoods,'' crippled 
the industry and ultimately cost billions in lost future revenues.
    The campaign against GMOs was successful despite the lack of sound 
scientific data demonstrating a threat to society. In fact, I argue 
that the lack of sufficient public scientific data on GMOs, whether 
positive or negative, was a controlling factor in the industry's fall 
from favor. The failure of the industry to produce and share 
information with public stakeholders left it ill-equipped to respond to 
GMO detractors. This industry went, in essence, from ``wow'' to 
``yuck'' to ``bankrupt.'' There is a powerful lesson here for 
nanotechnology.
    In contrast, the Human Genome Project provides a good model for how 
an emerging technology can defuse potential controversy by addressing 
it in the public sphere. Mapping of the human genome carries with it 
many of the same potential concerns as do other fields of genetic 
research. The increased availability of genetic information raises the 
potential for loss of privacy, misuse by the police and insurance 
companies, and discrimination by employers. The founders of the Human 
Genome Project did not try to bury these legitimate concerns by 
limiting public discourse to the benefits of this new knowledge. 
Instead, they wisely welcomed and actively encouraged the debate from 
the outset by setting aside five percent of the annual budget for a 
program to define and address the ethical, legal and other societal 
implications of the project.
    I sincerely hope that we can learn from this example: early and 
open discussions of the societal and ethical impacts of new 
technologies improve their staying power, save taxpayers money, and 
benefit our society. In effect, early research into unintended 
consequences redirects the wow-to-yuck trajectory.

Societal, Ethical and Environmental Issues in Nanotechnology

    I'd now like to turn to the question of what `societal and ethical' 
issues mean within the specific context of nanotechnology. No one has a 
crystal ball to predict exactly how nanotechnology will change our 
lives. Unfortunately, due to in part to unrealistic scenarios like the 
one in Prey, nanotechnology's yuck index is rising as people take as 
fact the fiction of `invisible nanorobots;' this issue is a distraction 
from the real and perhaps more mundane issues that this new technology 
area is facing, particularly in the area of environmental impact.
    Nanotechnologies in their diverse forms all share one feature: 
their reliance on nanoscale materials. In short, nanotechnologies 
require `stuff.' This stuff may be a familiar material such as silicon 
or gold that exhibits unique and very valuable properties when it is 
``nanosized.'' Like any material, whether polymers or silicon chips, 
nanomaterials require energy to manufacture and generate waste to 
dispose of. It will prove to be expensive to ignore these issues until 
a mature industry is developed; for example, a growing fraction of the 
cost of a Pentium chip is not in the raw materials but in the energy 
and waste disposal costs. Ultimately the industry and society will 
benefit if we plan now to create a nanomanufacturing industry that 
minimizes waste production and energy use.
    Nanomaterials themselves may also have unintended environmental 
consequences. As a chemist I know all too well how unforeseen health 
effects can destroy industries based on complex materials. From 
asbestos to DDT we have, as a society, paid an enormous price for not 
evaluating toxicological and ecosystem impacts before industries 
develop. The real losers here are not environmentalists; instead they 
are the businesses who enthusiastically embrace new materials, only to 
face a decade later debilitating liability claims from employees, 
consumers and governments. And in the case of nanotechnology, the 
ultimate losers may be the American taxpayers who invested over one 
billion dollars in nanomaterials research without any hard data on 
their toxicological and environmental effects.
    This might seem like a distant issue with no effects on you or your 
constituents. However, if you have used a sunscreen in the last year it 
is possible that your skin came in contact with nanoscale ceramics. Is 
this a cause for concern? No one knows. It is remarkable that I must 
answer this way for a field with the funding levels and cachet of 
nanotechnology. Still, there are some general principles which help us 
think through the issue. Nanomaterials are valuable in many 
technologies because they interact quite differently with the body than 
larger materials. For example, you can wear a silver bracelet with no 
ill effects but if you eat too much nanoscale silver, as some people 
have in the belief it has various health benefits, you will turn 
yourself blue. Finely divided solids have access to areas of the body 
and interact with biological systems in completely unexpected ways, 
which is exactly why they are so powerful in medical applications. The 
converse of this is that unintended exposures--of research workers, 
factory workers, and the general public--to nanoscale solids could have 
more dire consequences than turning skin blue. Or they could turn out 
to be benign. We just don't know. If we fail to answer these questions 
early, public acceptance of nanotechnologies could be in jeopardy, and 
the entire industry derailed.

Avoiding the Wow-to-Yuck Trajectory for Nanotechnology

    As one of six Nanoscale Science and Engineering Centers funded by 
the National Science Foundation, CBEN has a mandate to clear major 
roadblocks to nanotechnology commercialization. We have identified 
public acceptance as one of these possible roadblocks, and believe that 
we must look beyond the good news about nanotechnology and precisely 
characterize the unintended consequences of nanotechnology. We seek to 
avoid the path traveled by the GMO industry by encouraging the industry 
to answer the tough questions about societal and environmental impacts 
while it is still developing.
    We need partners in this endeavor. Based on the recent National 
Research Council report and our own experience, there is little money 
and interest in the societal, ethical and environmental impact of 
nanotechnology, despite the rhetoric. Your help here is essential.
    The central problem is simply one of human nature: people will 
instinctively focus on the positive `wow' potential of nanotechnology. 
It is a belief in these positive outcomes that motivates researchers, 
students and most importantly funding agencies. It is not surprising 
that there has been little interest from nanotechnologists in studying 
negative implications. At EPA last year, for example, their call for 
proposals on nanotechnology applications received over a hundred 
responses while the nanotechnology environmental impact requests, which 
had much smaller project awards, received only a handful. There is also 
little incentive for funding agencies to expend their precious 
resources on this area. For example, when asked to appear before 
committees like this to justify their existence, I would doubt that 
federal agencies choose to highlight their research into the possible 
downsides of the technologies they develop.
    There are concrete steps you can take to counteract this inevitable 
bias. Through legislation such as this, the National Nanotechnology 
Initiative can make impact studies a priority and, most critically, 
articulate the arguments for this focus. Policy-makers such as 
yourselves can look past the `Wow' messages from funding agencies and 
continually emphasize the need for technical progress to be placed in a 
social context. Additionally, we must turn to our educational process 
as well. At CBEN we have found the `wow-to-yuck' message very 
successful at conveying to students and researchers alike how ignorance 
of the long-term costs of nanotechnology could cripple the field.
    Societal, ethical and environmental impact studies are also hard 
because they must envision a future technological reality. How can the 
social scientists and environmental engineers best equipped to complete 
this research choose which possible futuristic nanotechnology or 
nanomaterial to study? They could look to concrete data, such as the 
grand challenges of the NNI, to evaluate what specific technological 
goals have been articulated. Even better, they could partner with 
subject-matter experts early on. In this way they could study in real-
time an evolving technology, and provide feedback to the researchers 
and students responsible for its development. For societal impact 
studies to be credible and effective, we must demand the active 
participation of nanotechnologists in the work. This would be best 
achieved by affiliating social scientists with major national 
nanotechnology centers, so as to provide investigators with a broad 
array of people and research to choose from.
    While words can go a long ways, ultimately how nanotechnology 
develops will be critically sensitive to how its research monies are 
allocated. I agree with the National Research Council report that 
suggested that societal, environmental and ethical studies of 
nanotechnology are underfunded. For example, EPA's investment in 
nanotechnology, five million dollars per year, has been focused on 
nanotechnologies for environmental applications; only last year was 
$500,000 set aside for environmental impact work. NSF also funds basic 
research in nanoscale environmental issues, but CBEN's limited efforts 
are the only example I am aware of that consider specifically the 
environmental impact of engineered nanoparticles. If I had to guess, I 
would estimate that of the nearly one billion dollars slated to go to 
nanotechnology this year not even one percent is directed specifically 
towards studying the societal, ethical and environmental impact of 
nanotechnology. A tangible symbol of your commitment to this kind of 
research would be to set a target research funding for the area; the 
three to five percent rule used by the Department of Energy in the 
Human Genome Project would be a good starting point.
    As a young nanotechnologist, in twenty or thirty years I want to 
see nanotechnology changing people's lives, all for the better. I 
believe that this can only come to pass by honest, early and sincere 
exploration of all the risks and benefits of this transformative new 
area. We have a unique opportunity to guide a nascent industry in the 
right direction from the outset. The time is now.
    Thank you for bringing this issue into the spotlight. I welcome 
questions regarding my testimony.

                     Biography for Vicki L. Colvin

    Dr. Vicki Colvin has been on the faculty at Rice since the fall of 
1996. As a physical chemist interested in complex materials problems, 
her group includes a diverse range of synthetic chemists, physical 
chemists and applied physicists. Specific research areas include 
template chemistry, meso- and macroporous solids, nanocrystalline 
oxides, photonic band gap materials and confined glasses.
    Prior to her start at Rice, she was a member of the technical staff 
at Bell Labs where she developed new materials for holographic data 
storage. She received her Ph.D. in 1994 at U.C.-Berkeley under the 
direction of Dr. Paul Alivisatos. Her undergraduate degree, a B.S. in 
chemistry and physics, was completed in 1988 at Stanford University.
    This year she has been named an Alfred P. Sloan research fellow and 
a Beckman Young Investigator. Previous awards include a Research 
Innovation Award (Research Corporation), Phi Beta Kappa Teaching Prize, 
NSF-YI award, a Dreyfus New Faculty Award and the ACS Victor K. LaMer 
Prize. She is the author of over 25 refereed publications, 3 patents 
and one book chapter.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Dr. Colvin. I would 
appreciate, on behalf of the Committee, when you return to 
Rice, that great institution, if you extend our best wishes to 
Dr. Neil Lane----
    Dr. Colvin. I sure will.
    Chairman Boehlert [continuing]. The immediate past director 
of the National Science Foundation and a very distinguished 
American. And now from the great Empire State, home of the 
Syracuse Orangemen, national basketball champions, I bring 
you--well, I have to do it, you know. I bring you Dr. Langdon 
Winner. Dr. Winner.

    STATEMENT OF DR. LANGDON WINNER, PROFESSOR OF POLITICAL 
    SCIENCE, DEPARTMENT OF SCIENCE AND TECHNOLOGY STUDIES, 
                RENSSELAER POLYTECHNIC INSTITUTE

    Dr. Winner. Mr. Chairman, distinguished Members, I want to 
thank you for inviting me to testify this morning. Is this 
working? There we go. Thanks.
    It is clear that nanotechnology is an emerging field of 
research with an enormous power to alter our way of life in 
decades to come. If one looks at previous episodes of 
technological transformation, it becomes clear how crucial it 
is to ask who gets to define what the transformation will 
involve. Typically what happens is the promoters of the new 
technology, those with the most to gain in the short run, are 
the ones who speak first and most loudly. The boosters predict 
a wide range of practical benefits, new products, services, 
efficiencies, improvements of all kinds. Later, as people in 
society at large take notice, they ponder predictions of a 
world transformed and begin to raise questions about the 
benefits and drawbacks, the range of social, economic, 
political, and environmental outcomes involved. And eventually, 
this constituency may ask for a voice in making decisions about 
where, how, and to what extent the emerging technology will be 
applied.
    Now enthusiasts like to think that their technologies will 
enter the world rather smoothly. Emerson's famous dictum, 
``Build a better mousetrap and the world will beat a path to 
your door,'' is one that many technologists still prefer. What 
actually happens, however, is far more messy and complicated. 
The acceptance of any technology requires the building of a 
broad, social coalition that agrees to support its introduction 
and use. So the test of whether or not a technology is 
acceptable is ultimately whether enough people agree that 
``yes, these new methods make sense.''
    Alas, too often those who try to shepherd new technologies 
into being adopt strategies that cripple processes through 
which consensus, coalition, and balanced choices might arise. 
This strategy can backfire, producing unhappy surprises at the 
end of the development process. Instead of building a broad 
national and international base that supports one's innovation, 
one finds distrust and resistance.
    An example of technological backfire is evident in the 
crisis that now surrounds biotechnology. Here, the social 
coalitions of support, neglected or even scorned as biotech 
development moved forward, have now evaporated in key areas of 
application. For reasons they find entirely sensible, for 
example, nations in the European Union now refuse to buy 
genetically modified foods from the United States. What this 
suggests is the failure to provide open, thorough, honest 
attention to the broader social, political, and cultural 
contexts that influence acceptance or rejection of emerging 
technologies can lead to disaster. Late in the process, it does 
little good to tell those who are unwilling that they are 
simply being irrational. To paraphrase yet again, Mr. Chairman, 
the great American philosopher, Yogi Berra: If people don't 
want to adopt your better mousetrap, nobody is going to stop 
them.
    I will move quickly over the kinds of concerns that are 
often raised these days about nanotechnology. I will have to 
admit that I know too little to judge the likelihood of the 
various scenarios, both the optimistic and pessimistic ones. 
And indeed, I doubt that anyone at present has the required 
knowledge to judge these matters. That makes it all the more 
urgent to face the final question that the Committee posed to 
me in the Chairman's letter: How can research on the societal 
and ethical concerns be integrated into the research and 
development process? Clearly, there is a need to initiate 
systematic studies of the social and ethical dimensions of 
nanotechnology. We need broad-ranging, detailed, intellectually 
rigorous inquiries conducted by persons who have no financial 
or institutional stake that might skew the questions asked or 
the answers proposed.
    Studies of this kind could be launched in a number of ways 
including funding truly cross-disciplinary programs in 
universities and research centers, asking them to scope out the 
issues and policy alternatives. But I would not advise you 
simply to pass the Nanoethicist Full Employment Act, sponsoring 
the creation of a new profession. For it seems to me that 
something more is needed. Over many decades, there has been the 
tendency in government-funded research to exclude the 
participation of those who are the ultimate stakeholders, the 
general public. Citizens pay the bills for the work unfolding. 
They, their children, and grandchildren will be the ones to 
experience the ultimate outcomes, good or bad. Why not include 
the public in deliberations about nanotechnology early on in 
the process rather than after the products reach the market?
    In that light, I believe Congress should seek to create 
ways in which small panels of ordinary, disinterested citizens, 
selected in much the same way that we now choose juries in 
cases of law, be assembled to examine important societal issues 
about nanotechnology. These panels should study relevant 
documents, hear expert testimony from those doing the research, 
listen to arguments about technical applications and 
consequences from a variety of standpoints, deliberate on what 
they have been hearing, write reports offering policy advice.
    There is now, in fact, in the National Science Foundation, 
a research program that funds experimental citizens panels of 
the sort I have described. I would suggest that Congress build 
upon these very fruitful experiments and specify, perhaps in 
the current legislation, citizens panels as one additional way 
to inform public debate about the societal and ethical 
dimensions of nanotechnology.
    Mr. Chairman, these days we often hear how important it is 
to be innovative in emerging technical fields. Here is a way 
that Congress could be truly innovative, creating new ways for 
citizen stakeholders to join in the study and evaluation of new 
technologies.
    Thank you for considering these ideas and suggestions.
    [The prepared statement of Dr. Winner follows:]

                  Prepared Statement of Langdon Winner

    I want to thank the Committee on Science for inviting me to testify 
this morning. I will do my best to respond directly to the specific 
issues you have asked me to consider.

        ``What factors influence the successful adoption of new 
        technologies into society? What questions should be asked 
        during the research and development phase to help minimize the 
        potentially disruptive impact of transformational technology 
        developments?''

    Nanotechnology is an emerging technology with enormous potential to 
alter our way of life in decades ahead. It is by no means the first 
emerging technology to generate sweeping changes in society and the 
environment, nor will it be the last.
    If one looks at previous episodes of technological transformation, 
it becomes clear how crucial it is to ask: Who gets to define what the 
transformation will involve? Typically, what happens is that the 
promoters of a new technology, those with the most to gain in the short 
run, are the ones who speak first and most loudly. The boosters predict 
a wide range of practical benefits--new products, services, 
efficiencies, improvements of all kinds. Indeed, they usually proclaim 
that there is a revolution just around the corner, one that will alter 
society for the better, making us wealthier, wiser, more democratic, 
and stronger in community bonds.
    Often the promoters try a clever ploy, announcing that the changes 
on the horizon are ``inevitable,'' beyond anyone's power to guide or 
significantly alter. In advertisements, World's Fairs exhibitions, and 
public relations campaigns, proclamations of inevitability have long 
been standard themes.
    In contrast, those who have concerns about how the technology may 
develop and what its ultimate outcomes will be tend to speak later and 
more hesitantly. As people in society at large take notice, they ponder 
predictions of a world transformed and begin to raise questions about 
the benefits and drawbacks, the range of social, economic, political, 
and environmental consequences involved. Eventually, this broader 
constituency may ask for a voice in making decisions about where, how 
and to what extent the emerging technology will be applied.
    It is fairly common for those who voice concerns about the social, 
economic, and environmental consequences of technological change to be 
denounced as irrational, unscientific and even anti-technology. Thus, 
Rachel Carson's modest report in The Silent Spring about the 
environmental destruction caused by the use of chemical pesticides 
brought heated denials from the chemical industry and attacks on Ms. 
Carson's scientific credentials (even though she was a noted scientist) 
and flagrant efforts to destroy her reputation. Of course, we now think 
of Rachel Carson as a hero, one able to focus our society's awareness 
of environmental problems and solutions. But as she raised her voice, 
calling our attention to the consequences of spreading poisons through 
the environment, she was derided as ill-informed, an enemy of progress.
    Recurring episodes of this kind show why it is important to open 
the study and discussion about emerging technologies to the light of 
day, and to do this sooner, rather than later, in the process of 
planning, development and application.
    The claim that a particular development is ``inevitable'' is 
particularly unhelpful in this regard. It suggests that people who have 
recently become aware of potentially significant changes to their way 
of life have no legitimate role in the negotiations. After all, who 
would be so foolish as to make suggestions when faced with the 
``inevitable''? As the motto of the 1933 World's Fair in Chicago 
informed visitors, ``Science Finds--Industry Applies--Man Conforms.''
    But, in fact, technological change is never foreordained, the 
future never foreclosed. Real choices need to be identified, studied, 
and acted upon despite recurring efforts to say, ``Sorry, you're too 
late. Your participation won't be needed, thanks.''
    Indeed, it seems increasingly clear that open deliberations about 
technological choices are crucial to the eventual acceptance or 
rejection of emerging technologies. The boosters like to think that 
their technologies will enter the world rather smoothly. Emerson's 
famous dictum, ``Build a better mousetrap and the world will beat a 
path to your door,'' is an idea many technologists still prefer. What 
actually happens, however, is far more messy and complicated. The 
acceptance of any technology requires the building of a broad social 
coalition that agrees to support its introduction and use. Often there 
are alternative devices and systems, new ones and older ones, jockeying 
for this support. The test of whether or not a technology is acceptable 
is ultimately whether enough people agree that ``yes, the new methods 
make sense.''
    Alas, all too often those who try to shepherd new technologies into 
being adopt strategies that cripple the processes through which 
consensus, coalition, and balanced choices might arise. This strategy 
can backfire, producing unhappy surprises at the end of the development 
process. Instead of building a broad national and international base 
that supports one's innovation, one finds distrust and stiff 
resistance.
    This was certainly the case in the development of nuclear power in 
the United States. For many years plans were made by talented but 
inward-looking elites in government, business and the military who 
thought they knew best what the public would want. They regaled the 
populace with lovely propaganda about ``the friendly atom'' and 
``electricity too cheap to meter,'' but avoided going public about 
serious problems that the insiders knew about--the real costs of the 
plant, safety issues involved in their design, and the problem of 
nuclear waste disposal.
    When these deeper problems finally did surface powerfully in the 
1970s and 1980s, the social coalition that proponents of nuclear power 
hoped would support them suddenly collapsed. The building of nuclear 
power plants in the U.S. was halted, possibly forever.
    Another episode of technological backfire, one perhaps more 
relevant to the rise of nanotechnology, is evident in the crisis that 
now surrounds biotechnology. Once again, the social coalition of 
support, neglected or even scorned as biotech development moved ahead, 
has now evaporated in key areas of application. For reasons they find 
entirely sensible, nations in the European Union now refuse to buy 
genetically modified foods from the U.S. In a similar way, faced with 
severe famine, Zambia has refused to accept GMO corn, even as a 
charitable gift.
    What this suggests is that the failure to provide open, thorough 
and honest attention to the broader social, political and cultural 
contexts that influence the acceptance or rejection of emerging 
technologies can lead to disaster. Late in the process, it does little 
good to tell those who are unwilling that they're being irrational or 
that there is something woefully defective in their culture (not ours). 
To paraphrase the great American philosopher, Yogi Berra: If people 
don't want to adopt your better mousetrap, nobody's going to stop them.
    I hope that the legislation you are considering, especially its 
provisions that support research on social and ethical implications of 
nanotechnology, will help create new practices and institutions in 
which all the important questions will be rigorously explored. I cannot 
predict whether or not broadly based, effective social coalitions will 
form around nanotech projects. I do know that it is increasingly risky 
to ignore or exclude the great multiplicity of groups and interests 
that would like to have a voice in defining what these technologies are 
and what they mean. In fact, wise policy would try to stimulate 
understanding of the implications of the technology on a broad scale, 
fostering widespread study and discussion open to everyone.

        The Committee has asked, ``What are the current concerns about 
        existing and potential applications of nanotechnology science 
        and engineering?''

    Nearly two decades after the publication of Eric Drexler's Engines 
of Creation, a number of concerns about nanotechnology are finally 
attracting wide attention.
    Some observers predict that particular materials produced by 
molecular nanotechnology (MNT) will turn out to be environmentally 
destructive.
    Some worry that products of MNT could, in some configuration of 
events, prove hazardous to human health.
    A recurring nightmare is that promised inventions in self-
replicating systems might escape the boundaries originally established 
for them and begin to wreak havoc. As novelist Michael Crichton 
recently commented, ``Imagine a mass of tiny computers, each smaller 
than a speck of dust, programmed to fly in a cloud over a country like 
Iraq and send back pictures. Imagine the computers begin to evolve and 
the aggregate cloud becomes a death dealing swarm that threatens 
mankind--a mechanical plague.''
    Others hear about ambitious proposals to employ nanotechnology and 
other ``convergent'' technologies to create (decades from now) a race 
of posthumans. Those not yet persuaded that this is ``inevitable'' 
wonder whether it's a good idea to seek to divide the human species in 
this manner and whether public funds should be spent on such ghoulish 
research.
    Another persistent concern is that the rise of this field will not, 
as promised, be of general social benefit, but will simply amplify 
trends long under way--the concentration of wealth and power in the 
hands of the few and a widening gap between haves and have-nots in the 
U.S. and around the globe. Historically speaking, predictions the 
latest and greatest technology will equalize wealth and opportunity 
have usually proven false, a fact that never deters boosters of the 
``next big thing'' from promising that this time (!) the economic and 
social developments will be universally shared.
    Faced with the various possibilities described in writings about 
this new field of research, I must admit that I know too little to 
judge the likelihood of various scenarios, both optimistic and 
pessimistic. Indeed, I doubt that anyone has this knowledge at present. 
Rather than play Cassandra (or Norman Vincent Peale), I would simply 
note three overriding questions that ought to be considered as our 
society decides which proposals for nanotechnology research are worth 
sponsoring.

        (1) Should we continue long-standing efforts to conquer and 
        dominate nature rather than seek harmony with natural 
        structures and processes?

    During the past two centuries, the desire to conquer nature has 
often seemed synonymous with progress. Dam the rivers, drain the 
swamps, harvest the forests, and bring all plants and animals under 
human control--such counsel seemed eminently sensible. More recently, 
however, as some unhappy consequences of this ham-fisted approach have 
surfaced, many scientists, engineers, designers, and entrepreneurs have 
affirmed that seeking harmony with nature is a more promising 
technological and economic approach.
    Unfortunately, this recognition seems to have escaped the 
enthusiasts of nanotechnology for whom the prospect of conquering 
nature right down to the last molecule and atom seems positively 
invigorating. It appears that God's creation is, alas, not all that it 
should be. Fortunately, it can now be refashioned by a new generation 
of godlike spirits who live in Cambridge, Palo Alto, the Research 
Triangle, and other concentrations of high tech brilliance. Thus, the 
peculiar values of the American middle class, so exquisitely realized 
in Happy Meals, SUVs, $200 Nike sneakers, and botox wrinkle treatments, 
will now be read into the smallest crevasses of the material universe. 
This is something to look forward to.
    All of it occurs at a time in which it should be clear that 
strategies for dominating nature through brute force have failed 
repeatedly. For example, the creation of larger, technically more 
sophisticated fishing boats with better and better ways to track and 
catch fish has brought astonishing returns. Although it was a difficult 
battle and took many years to complete, we have finally conquered the 
Atlantic cod. The poor creature has not raised the white flag. It is 
simply disappearing from the nets and from the nation's supply of 
healthy protein.
    I understand the obsession with dominating nature and the desire 
for power and wealth it reflects. These tendencies are a dreary, but 
recurring presence in modern life. Nevertheless, it is still worth 
inquiring: Why should American taxpayers be asked to subsidize ever 
more systematic assaults on natural realm? If they knew the kinds of 
projects sometimes proposed in this domain, how would they feel about 
them?
    At present we see a wide range of scientific and technological 
strategies that try to work closely with nature rather than impose 
imperial dominance. It is interesting that these programs--ones that 
stress ``natural capitalism,'' ``green design'' ``biomimicry,'' and 
``sustainable economy''--point to a new industrial revolution, but one 
quite different from the revolution described by proponents of 
nanotechnology. Is it possible that the rush to nanotech will come into 
conflict effort to create a socially harmonious, ecological sustainable 
future? That prospect seems entirely likely.

        (2) Should we actively promote a path development in which 
        technical means become the driving force that shapes social 
        ends?

    The unfolding of nanotechnology may become yet another instance of 
a familiar phenomenon in which powerful techniques emerge from the lab 
and then go looking for uses. This pattern defies common sense 
understandings of the proper relationship between human ends and 
technical means.
    In the common sense sequence, one begins by asking: What are our 
needs? What fundamental purposes define our inquiries? After the basic 
social ends have been clarified, compared, debated, and evaluated, we 
then move on to make choices among existing means, including newly 
developed technical devices.
    As one reads reports coming from scientists and policy makers 
interested in nanotechnology and converging technologies in several 
areas of scientific and technological development, one does not see the 
common sense ends/means thinking at work. In writings on 
nanotechnology, there seems little willingness to ask: What are 
society's basic needs at present? What basic goals define our sense of 
well-being going forward?
    What we find instead is a kind of opportunistic means-to-ends 
logic. Researchers and institutions interested in doing molecular and 
atomic scale engineering scan the horizon to see what opportunities 
might be identified as justifications for public funding and private 
investment.
    Thus, enterprising nanotechnologists notice applications that might 
deliver medical doses tailored to specific cells.
    Looking at the sheer size of the Department of Defense budget, 
nanotech promoters begin imagining ways in which the technology might 
provide new weapons and other devices to the military. Yes, there's 
always a lot of money in that.
    Others catch on to this lucrative game and say, well, perhaps 
research on a range of nanotech applications could help the elderly or 
people with disabilities.
    In sum, what we see here are tools that evolve quickly in response 
to a variety of internal research priorities and then go 
opportunistically looking for things to do. And, of course, one can 
always find something.
    I am pleased that Congress is prepared to offer support for study 
of the societal and ethical dimensions of an important new field of 
scientific and technical research. But I fear that the manner in which 
the work is done will reproduce the kind of backwards logic that has 
shaped far too much of American technological development in recent 
decades. It is a logic that justifies the creation of a wide range of 
flashy new gadgets but cannot be bothered to examine the most urgent 
facts about the human condition in our time.

        (3) Is it wise to experiment with technological applications 
        likely to produce irreversible effects?

    As a general matter, technologies should be judged superior if the 
consequences of their use are reversible. Some common projections about 
the outcomes of nanotechnology point to effects that could never be 
recalled from the environment or from the species with which nano-
systems interact. As we scope out the possibilities here, we need to 
ask: Would particular paths of research and development risk opening 
Pandora's box? If so, how can present policies help eliminate that 
menace?

        The final question the Committee has asked me to address is 
        probably the one most important for the specifics of the 
        legislation. ``How can research on the societal and ethical 
        concerns relating to nanotechnology be integrated into the 
        research and development process?''

    A growing number of scientists, scholars, university 
administrators, and social activists express a vital interest in this 
topic. Clearly, there is need to initiate systematic studies of the 
social and ethical dimensions of nanotechnology. We need broad-ranging, 
detailed, intellectually rigorous inquiries conducted by persons who 
have no financial or institutional stake that might skew the questions 
raised or constrain the answers proposed.
    Studies of this kind could be launched in a number of ways, 
including funding truly cross-disciplinary programs in universities to 
scope out key issues and policy alternatives. But I would not advise 
you to pass a Nanoethicist Full Employment Act, sponsoring the creation 
of a new profession. Although the new academic research in this area 
would be of some value, there is also a tendency for those who conduct 
research about the ethical dimensions of emerging technology to 
gravitate toward the more comfortable, even trivial questions involved, 
avoiding issues that might become a focus of conflict. The professional 
field of bioethics, for example, (which might become, alas, a model for 
nanoethics) has a great deal to say about many fascinating things, but 
people in this profession rarely say ``no.''
    Indeed, there is a tendency for career-conscious social scientists 
and humanists to become a little too cozy with researchers in science 
and engineering, telling them exactly what they want to hear (or what 
scholars think the scientists want to hear). Evidence of this trait 
appears in what are often trivial exercises in which potentially 
momentous social upheavals are greeted with arcane, highly scholastic 
rationalizations. How many theorists of ``intellectual property'' can 
dance on the head of a pin?
    One way to avoid the drift toward moral and political triviality is 
to encourage social scientists and philosophers to present their 
findings in forums in which people from business, the laboratories, 
environmental organizations, churches, and other groups can join the 
discussion. It is time to reject the idea there are only a few 
designated stakeholders that are qualified to evaluate possibilities, 
manage the risks, and guide technology toward beneficial outcomes.
    Examples of technology policy steered by narrowly interested 
technical elites can be found in America's systems of medicine. For 
several decades, research and development have produced ever more 
exotic, high tech treatments that help propel costs of health care to 
dizzying levels. Following this path, according to the Word Health 
Organization, the U.S. ranks only 24th the quality of medical care 
actually delivered to its populace.
    For many decades, there has been a tendency in government funded 
research and development to exclude the participation of those who are 
the ultimate stakeholders--the general public. Citizens pay the bills 
for the work unfolding; they and their children and grandchildren will 
be the ones to experience the ultimate outcomes, good or bad.
    Why not include the public in deliberations about nanotechnology 
early on in the process rather than after the products reach the 
market?
    In that light, I believe Congress should seek to create ways in 
which small panels of ordinary, disinterested citizens, selected in 
much the way that we now choose juries in cases of law, be assembled to 
examine important societal issues about nanotechnology. The panels 
would study relevant documents, hear expert testimony from those doing 
the research, listen to arguments about technical applications and 
consequences presented by various sides, deliberate on their findings, 
and write reports offering policy advice.
    It is possible that the news media would find these citizens panels 
a fascinating topic to cover. The active engagement of everyday folks 
in the shaping of public understanding of emerging issues and 
controversies in this area could make extremely valuable contributions 
to the articulation of issues, problems and possible solutions.
    To begin, one might ask citizens panels to explore two highly 
relevant questions.
    Will proposed paths for the military application of nanotechnology 
make us safer or not?
    Would projected uses of nanotechnology in industry tend to create 
jobs or eliminate them?
    There is now a lively research program within the National Science 
Foundation--Social Dimensions of Engineering, Science, & Technology--
that funds experimental citizens panels of the sort I am describing. I 
would suggest that Congress build upon these fruitful experiments and 
specify (perhaps in the present legislation) citizens panels as one way 
to inform public debate about the societal and ethical dimensions of 
nanotechnology.
    These days we often hear how important it is to be innovative in 
emerging technical fields. Here is a way that Congress could be truly 
innovative--creating ways for citizen stakeholders to join in the study 
and evaluation of new technologies.
    Thank you for considering these ideas and suggestions.

                      Biography for Langdon Winner

    Langdon Winner is a political theorist who focuses upon social and 
political issues that surround modern technological change. He is the 
author of Autonomous Technology, a study of the idea of ``technology-
out-of-control'' in modern social thought, The Whale and The Reactor: A 
Search for Limits in an Age of High Technology, and editor of Democracy 
in a Technological Society.
    Praised by The Wall Street Journal as ``The leading academic on the 
politics of technology,'' Mr. Winner was born and raised in San Luis 
Obispo, California. He received his B.A., M.A. and Ph.D. in political 
science from the University of California at Berkeley. He is Professor 
of Political Science in the Department of Science and Technology 
Studies at Rensselaer Polytechnic Institute in Troy, New York. He has 
also taught at The New School for Social Research, M.I.T., College of 
the Atlantic, the University of California at Santa Cruz, and the 
University of Leiden in the Netherlands, and has lectured widely 
throughout the United States and Europe. In 1991-1992 he was visiting 
research fellow at the Center for Technology and Culture at the 
University of Oslo, Norway. During the spring semester of 2001, he will 
be Hixon-Riggs Visiting Professor of Science, Technology and Society at 
Harvey Mudd College in Claremont, California.
    Mr. Winner is past president of the Society for Philosophy and 
Technology. A sometime rock critic, he was contributing editor at 
Rolling Stone in the late 1960s and early 1970s and has contributed 
articles on rock and roll to The New Grove Dictionary of Music and 
Musicians and The Encyclopaedia Britannica. At present he is doing 
research and writing on a book about the politics of design in the 
contexts of engineering, architecture and political theory. Another 
book, a collection of essays on technology and human experience, is 
also underway.
    Mr. Winner's views on social, political and environmental issues 
appear regularly in Tech Knowledge Revue, published in the on-line 
journal ``NetFuture.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you, Dr. Winner. Ms. Peterson.

   STATEMENT OF MS. CHRISTINE PETERSON, PRESIDENT, FORESIGHT 
                           INSTITUTE

    Ms. Peterson. Thank you, Mr. Chairman, and thank you to the 
entire Committee for taking on this very challenging topic.
    There is a lot of confusion about nanotechnology. The term 
is used in two main--two different ways, primarily. The first 
is almost any technology a lot smaller than microtechnology. 
This is--this would include nanoparticles. This is happening 
today. There are issues here, and these are the issues that, 
for example, Dr. Colvin addresses. The second is a longer-term 
application. Nanotechnology is the ability to work at the 
molecular level to create large structures with fundamentally 
new molecular organization. This is more the type of 
nanotechnology that Mr. Kurzweil was addressing. Number one 
should be studied. Dr. Colvin's group and many others are 
available to do that, but the impact compared to number two 
will be--in comparison, will be relatively modest.
    I am focusing now on the advanced nanotechnology. This is--
it is basically a new way of thinking about physical matter. 
Today, you can have atomic precision at the molecular level. 
That is chemistry. Or you can have large complex structures. 
You can't have both at the same time. The goal is to get both 
at the same time so that you can have products of any size 
designed down to the atomic level.
    How do you get there? First, this is an extremely ambitious 
goal. This is, as Mr. Kurzweil said, we are looking, perhaps, a 
couple decades out. You do it using systems of molecular 
machines. This is how living systems work. This new way of 
doing technology is inspired by living systems. You can picture 
how these systems would work as something like factories 
operating at the nanometer level including, for example, 
nanoscale conveyor belts and robotic arms bringing molecular 
parts together precisely, bonding them to form products with 
every atom in a precise design location. Again, very difficult, 
very challenging, tremendous momentum in this direction.
    I am about to show you a couple of pictures. These are not 
artist conceptions. These are actual designs, which we believe 
either could be built as designed or something very like them.
    [Diagram.]
    This is a cutaway view. You are seeing the inside as well 
of a differential gear. You have differential gears in your 
cars, I am told, but this one is at the molecular level. You 
can see the individual atoms. Again, a design. We can't build 
this now, but we believe someday it could be done.
    [Diagram.]
    Another design, this is the tip of a robotic arm, a 
positioning device operating at the nanoscale.
    What are the benefits of this level of technology? Mr. 
Kurzweil pointed at them. Medical; tremendous benefits here: 
being able to rearrange, restructure tissue at the molecular 
level could restore health regardless of a disease's cause. At 
the environmental--in the environmental area, which is the one 
that excites me, being able to build products with zero 
chemical pollution and being able to do environmental 
restoration at the molecular level is very exciting. The--we 
should be able to raise sustainable living standards, because 
this form of manufacturing is, in principle, very inexpensive, 
as living systems show us. And finally, the strong, lightweight 
materials that could be made this way may give us much lower 
cost access to space and space resources.
    Is there a downside? There definitely is a downside. There 
is a potential for accidents with any powerful technology. 
Already, because there has been so much attention to this, and 
our organization certainly has been looking at this for 15 
years or so, we already have safety rules drafted. They are on 
the Web. They are ready for critiquing. There is a private 
sector role here in cooperating and developing these safety 
rules.
    This is a disruptive technology. There could be economic 
impacts, job transitions. We are going to need some education 
to help people make the change. There will be problems with 
lack of access to this technology, conceivably. These basic 
parts, gears, bearings, very simple--perhaps very simple 
motors, it is not clear you want these patented. Think of them 
as being the alphabet that you build on rather than something 
that you want to tie up, perhaps, in patents. Something to 
consider and look at.
    The most challenging problem would be deliberate abuse and 
terrorism with this. One way around that would be rather than 
developing it in a secret program, would be open international 
R&D with broad participation and a parallel arms control 
effort. Some would argue that perhaps we shouldn't develop this 
technology. I don't think it is optional. It is clearly coming. 
Many countries and companies are on the pathway. To me, this 
looks inexorable.
    What do we do about this? This is still controversial. 
Molecular manufacturing is controversial. The technical 
community has not yet done a serious feasibility study of this. 
We urgently need a basic feasibility review in which proponents 
and critics of the technology can make their technical case to 
a group of unbiased physicists. And that would be my one 
suggestion is to add something like that to the legislation.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Peterson follows:]

                Prepared Statement of Christine Peterson

    First, I'd like to thank the Committee on Science for taking on the 
task of addressing the societal implications of nanotechnology. This 
challenging topic may emerge as the most difficult issue facing policy-
makers over the coming decades.
    Humanity's drive to improve our control of the physical world is 
intrinsic to our species and has been in progress for millennia. A vast 
international economic and military momentum pushes us toward the 
ultimate goal of nanotechnology: complete control of the physical 
structure of matter, all the way down to the atomic level.

Confusion about nanotechnology

    Before attempting to address societal issues, we need to clarify 
which stage of nanotechnology is being examined. Today the word is used 
in two very different ways:

        <bullet> Near-term nanotechnology: Industry today uses the 
        term to cover almost any technology significantly smaller than 
        microtechnology, e.g., nanoparticles. These new products will 
        have positive and negative health and environmental effects 
        which should be studied, but their societal effects--both 
        positive and negative--will be modest compared to later stages 
        of the technology.

        <bullet> Advanced nanotechnology: Technology enabling broad 
        control at the level of individual atoms: ``The essence of 
        nanotechnology is the ability to work at the molecular level. . 
        .to create large structures with fundamentally new molecular 
        organization.'' (ref 1) It is this stage of nanotechnology 
        which will have major societal impact, and the remainder of 
        this testimony will focus here.

Molecular manufacturing: the long-term goal

    Advanced nanotechnology, known as molecular manufacturing, will 
give the ability to construct a wide range of large objects 
inexpensively and with atomic precision. It will take us beyond 
materials and devices to complex systems of molecular machines, 
inspired by--but in some ways superior to--those found in nature.
    Molecular manufacturing systems can be envisioned as factories 
operating at the nanometer level, including nanoscale conveyor belts 
and robotic arms bringing molecular parts together precisely, bonding 
them to form products with every atom in a precise, designed location 
(ref 2).
    It is important not to minimize the technical challenge of such a 
complex systems engineering project. Indeed, new tools must be 
developed before beginning a direct attack on the problem. Nonetheless, 
ongoing research is building the needed technology base, and will 
eventually place enormous payoffs within reach.
    These prospects have been known since the first technical 
publication on the topic in 1981 (ref 3), and substantial thought has 
been devoted to potential societal implications of molecular 
manufacturing. Foresight Institute was founded in 1986 to maximize the 
societal benefits and minimize the problems expected from advanced 
nanotechnology.

Potential benefits of molecular manufacturing

    Gaining molecular-level control over the structure of matter will 
bring a wide variety of positive applications (ref 4):

        <bullet> Medical uses: Molecular machine systems will be able 
        to sense and rearrange patterns of molecules in the human body, 
        providing the tools needed to bring about a state of health, 
        regardless of a disease's cause (ref 5).

        <bullet> Environmental applications: Using molecular 
        manufacturing techniques, it will be possible to construct our 
        products with zero chemical pollution, recycling leftover 
        molecules. Environmental restoration could be carried out at 
        the molecular level, detecting and inactivating unwanted 
        chemicals (ref 6).

        <bullet> Raising sustainable living standards: Molecular 
        manufacturing will be able to cleanly and inexpensively produce 
        high-quality products using common materials (especially 
        carbon, which is in excess in the atmosphere in the form of 
        carbon dioxide) and solar energy (ref 6).

        <bullet> Low cost to access to space: The strong, lightweight 
        materials enabled by molecular manufacturing will greatly lower 
        the cost of access to space and space resources, making their 
        active use affordable for the first time.

    These benefits should be attainable though the combined results of 
(1) a well-funded R&D program, (2) private sector efforts to bring down 
costs, and (3) public policy aimed at addressing the issues listed 
below.

Potential negative effects of molecular manufacturing

    Powerful technologies bring problems as well as benefits, and 
advanced nanotechnologies are expected to bring problems of several 
sorts:

        <bullet> Accidents: Any powerful technology--from fire to 
        biotech--must be controlled to avoid accidents. In the case of 
        molecular manufacturing, rearranging matter at the molecular 
        level can either improve or destroy a system. Molecular machine 
        systems able to build complex objects could build copies of 
        themselves, possibly overdoing this activity from a human point 
        of view, as bacteria do.

          An approach to the problem: This issue has been examined and 
        a set of safety rules has been drafted for review; these are 
        expected to evolve as we gain more knowledge about safety 
        issues (ref 7). Implementation will require the cooperation of 
        the private sector, and early endorsement of safety guidelines 
        could ease public concerns about the technology.

        <bullet> Economic disruption: Technological change continually 
        disrupts employment patterns, but molecular manufacturing is 
        expected to accelerate this significantly: once certain 
        specific points of development in this technology are reached, 
        very rapid change can take place.

          An approach to the problem: Increase workforce flexibility 
        through education and training.

        <bullet> Lack of access: Excessive or incorrect patenting of 
        fundamental machine parts at the nanoscale may reduce 
        commercial competition and make molecular manufacturing 
        products too expensive for many to benefit.

          An approach to the problem: Increase private sector 
        competition by discouraging patenting of basic molecular 
        machine parts needed by all companies doing molecular 
        manufacturing. Consider using ``open source''-style 
        intellectual property protection for publicly-funded R&D so 
        that this work is available to all (ref 8).

        <bullet> Deliberate abuse/terrorism: Of the potential problems 
        molecular manufacturing may bring, this is regarded as the most 
        serious and most challenging to address. Three main areas of 
        concern have been identified: (1) very rapid construction of 
        conventional weapons, making traditional arms control more 
        difficult, (2) totalitarian control of civilian populations by 
        surveillance using nanoscale sensors, and (3) new weapons made 
        possible by the technology, which can be thought of as 
        ``smart'' chemical weapons.

          An approach to the problem: Encourage an open, international 
        R&D program with broad cooperation by the democracies, 
        including a parallel arms control verification project (ref 6). 
        Improve today's chemical weapons arms control procedures.

Reducing risks from molecular manufacturing

    Individuals and organizations with legitimate concerns regarding 
advanced nanotechnology have suggested delays in development, even 
moratoria or bans. While these reactions are understandable, this 
approach was examined over a decade ago and rejected as infeasible (ref 
4). Today, both public and private spending on nanotechnology is 
broadly international. Expected economic and military advantages are 
driving a technology race already underway. If law-abiding nations 
choose to delay nanotechnology development, they will relinquish the 
lead to others.
    Non-U.S. locations have at least three advantages in the 
nanotechnology race: (1) labor costs for scientists and technologists 
are usually lower, (2) intellectual property rules are sometimes 
ignored, and (3) the former ``brain drain'' of technical talent to the 
U.S. is slowing and in some cases reversing. The U.S. and other 
democracies have no natural monopoly in developing this technology, and 
failure to develop it would amount to unilateral disarmament.
    In developing a powerful technology, delay may seem to add safety, 
but the opposite could be the case for molecular manufacturing. A 
targeted R&D project today aimed at this goal would need to be large 
and, therefore, visible and relatively easy to monitor. As time passes, 
the nanoscale infrastructure improves worldwide, enabling faster 
development everywhere, including places that are hard to monitor. The 
safest course may be to create a fast-moving, well-funded, highly-
focused project located where it can be closely watched by all 
interested parties. Estimates are that such a project could reach its 
goal in 10-15 years.

Specific ethical considerations

    A study of ethical implications of advanced nanotechnology would 
need to address at least these factors:

        <bullet> The different kinds of nanotechnology and their 
        likely windows of impact.

        <bullet> A wide spectrum of different scenarios, including 
        ones in which a significant molecular manufacturing R&D project 
        is already in progress elsewhere.

        <bullet> The potential consequences of ``saying no'' to the 
        technology, as well as those of saying yes. These may be 
        unevenly distributed; for example, those in poor countries 
        might be hurt more by a delay--especially of environmental 
        applications--than those in the U.S.

        <bullet> In most cases, society does not ``say no'' or ``yes'' 
        to a technology, but instead moves forward with appropriate 
        controls. Ethical issues arise in defining the dimensions and 
        consequences of such controls.

        <bullet> To date the dialog around nanotechnology has been 
        polarized, with only one viewpoint--near-term nanotechnology--
        being included in policy-making. A meaningful discussion of 
        ethics and consequences requires us to ensure that a wide 
        variety of opinions are represented in any downstream policy 
        body or Presidential Commission on nanotechnology.

Bottleneck: Lack of feasibility review

    While the basics of molecular manufacturing have been in the 
literature for over a decade, controversy still continues about the 
technical feasibility of this goal.

    We urgently need a basic feasibility review in which molecular 
manufacturing's proponents and critics can present their technical 
cases to a group of unbiased physicists for analysis.

    If we are in fact on the pathway to building molecular machine 
systems, with all the benefits and problems that implies, policy-makers 
need to know now in order to respond appropriately as this opportunity 
approaches.
    The United States has a history of technological success in large 
systems engineering projects--it has been one of our primary strengths. 
But nanotechnology research is already worldwide, and there is no 
guarantee that the U.S., an ally, or other democracy will be the first 
to reach molecular manufacturing, and failure to do so would be 
militarily disastrous.
    Such an ambitious R&D project requires, first, a decision to pursue 
the goal, and then substantial funding. Both of these are currently 
blocked by the lack of consensus on the technical feasibility of 
molecular manufacturing. Until this issue has been put to rest, neither 
a funded molecular manufacturing R&D project nor effective study of 
societal implications can be carried out.

References:

1. ``National Nanotechnology Initiative: The Initiative and its 
Implementation Plan'' http://www.nsf.gov/home/crssprgm/nano/nni2.htm
2. Nanosystems: Molecular Machinery, Manufacturing, and Computation by 
K. Eric Drexler (Wiley, 1992).
3. ``Molecular engineering: An approach to the development of general 
capabilities for molecular manipulation,'' K.E. Drexler (1981), PNAS 
78:5275-5278. http://www.imm.org/PNAS.html
4. Engines of Creation by K. Eric Drexler (Anchor Press/Doubleday, 
1986), http://www.foresight.org/EOC
5. Nanomedicine, Volume 1: Basic Capabilities by Robert Freitas 
(Landes Bioscience, 1999), http://www.nanomedicine.com/NMI.htm
6. Unbounding the Future: The Nanotechnology Revolution by K. Eric 
Drexler and Chris Peterson with Gayle Pergamit (Morrow, 1992), http://
www.foresight.org/UTF/Unbound<INF>-</INF>LBW
7. ``Foresight Guidelines on Molecular Nanotechnology,'' http://
www.foresight.org/guidelines/current.html
8. ``Open Sourcing Nanotechnology Research and Development: Issues and 
Opportunities'' Bryan Bruns (2001), Nanotechnology 12(3):198-201, 
http://stacks.iop.org/0957-4484/12/198. Updated version: http://
www.foresight.org/Conferences/MNT8/Papers/Bruns

                    Biography for Christine Peterson

    Christine Peterson writes, lectures, and briefs the media on coming 
powerful technologies, especially nanotechnology. She is co-founder and 
President of Foresight Institute, a nonprofit which educates the 
public, technical community, and policy-makers on nanotechnology and 
its long-term effects.
    She directs the Foresight Conferences on Molecular Nanotechnology, 
organizes the Foresight Institute Feynman Prizes, and chairs the 
Foresight Gatherings.
    She lectures on nanotechnology to a wide variety of audiences, 
focusing on making this complex field understandable, and on clarifying 
the difference between near-term commercial advances and the ``Next 
Industrial Revolution'' arriving in the next few decades.
    Her work is motivated by a desire to help Earth's environment and 
traditional human communities avoid harm and instead benefit from 
expected dramatic advances in technology. This goal of spreading 
benefits led to an interest in new varieties of intellectual property 
including open source software, a term she is credited with 
originating.
    With Eric Drexler and Gayle Pergamit, she wrote Unbounding the 
Future: the Nanotechnology Revolution (Morrow, 1991), which sketches 
nanotechnology's potential environmental and medical benefits as well 
as possible abuses.
    Christine holds a Bachelor's degree in chemistry from MIT.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               Discussion

    Chairman Boehlert. Thank you very much. Thank all of you. 
Let me ask the entire panel. We will go in the order of your 
presentation. What do each of you think is the most serious, 
legitimate concern about nanotechnology? Keep in mind, we are a 
society where there are some people who still think putting 
fluoride in water is a plot to undermine the youth of America. 
But what do you think is the most serious, legitimate concern 
about nanotechnology, and how would you construct a research 
program to investigate it? Mr. Kurzweil.
    Mr. Kurzweil. Christine Peterson mentioned that there is a 
near-term and a long-term. They are really two different 
fields, and the era we are on now is nanoparticles. These are a 
bit more limited in their benefits but still will be measured 
in billions of dollars. They are more benign in their dangers. 
They do reflect a new type of safety concern in that these 
particles are small enough to get inside our tissues, cross the 
blood/brain barrier. Of course, it is not the first time that 
new materials, even at that scale, can get inside the human 
body.
    I think we need some strengthening of existing regulation 
to look at this new concept. But I would say the existing 
scheme of regulation we have on environment and health should 
be sufficient, but it does need to deal with these new types of 
materials that we will be coming into contact with.
    The real controversy in nanotechnology has to do with self-
replication. I mean, self-replication is the source of the 
greatest danger in the world. Atomic weapons have to do with 
self-replication. Disease is self-replicating pathogens. Cancer 
is self-replicating cells, and the biggest concern we--and 
biotechnology, we are concerned with bioengineered pathogens. 
That actually is the biggest concern in near-term technology, 
although it is outside the view we are talking about. And the 
biggest, most controversial concern about nanotechnology is 
when we have the advent of self-replication.
    Now why would we have self-replication? It is really 
necessary in order to scale up from these tiny, atomic sized 
devices to something that is physically large. You are going to 
need some self-replication to get the scale to make this 
technology viable. Well, self-replication gone awry is a 
cancer, and if you get a cancer of non-biological materials, it 
could be very threatening. I proposed here, in my written 
testimony, some ways that we can deal with that. Christine 
Peterson's organization, the Foresight Institute, has spent 
over a decade developing ethical standards that I think will 
be--and also technological strategies that will be effective at 
preventing accidental release of self-replicating 
nanotechnology.
    The concern with intentional abuse is much more serious, 
and there I would point us to the success we have had in 
software viruses, which is another self-replicating pathogen. 
And there is really no single strategy. Come up with a strategy 
and then someone can defeat it, and then we have to defeat the 
new, more sophisticated offense. We have to stay a step ahead. 
I would say the biggest advice--the most important advice I 
would give is we--society needs to put far greater resources 
into actually developing the defensive technologies and--
because we are not on--right now on the threshold of self-
replicating nanotechnology. We are on the threshold of self-
replicating biotechnology.
    Chairman Boehlert. Okay.
    Mr. Kurzweil. And a terrorist, a bioterrorist does not need 
to put his innovation through the FDA, whereas the scientists 
we are relying on to defend us are--do have--are slowed down by 
the regulatory process at every step. And it is hard to even 
imagine how you could put a biodefense through the FDA, because 
it would be unethical to test these on humans. I think how we 
deal with bioengineering actually will be a good test case for 
nanoengineering.
    Chairman Boehlert. Dr. Colvin, do you have some thoughts on 
that?
    Dr. Colvin. Yeah, I am glad you asked that question. 
Clearly from my testimony, I believe that when you think about 
societal impact, you are going to have to play a game of 
technology forecasting. I believe that if we had infinite 
resources in this body, perhaps we could do everything, but we 
need to make some very tough choices about where we focus 
societal impact, what kind of term you look at. I believe that 
the near-term issues with environmental health and safety are 
significant. The knowledge base is not there, and if those are 
not handled well, we will call into question the ability of 
these longer-term goals to survive. We all know in 
biotechnology how problems in one area can taint the entire 
discipline. So I believe these near-term effects are 
significant, and I disagree that substantial resources are 
going into the issue--the question, so I see that as the issue.
    And just--on the self-replicating machines, the technology 
forecasting is essential here. How do you know what 
nanotechnology will do? I look to the guidelines of the 
National Nanotechnology Initiative, which set forth very 
specific technological challenges, not one of which includes 
self-replicating robots or machines. It is a very controversial 
topic. The majority of academic nanotechnology researchers feel 
that there are substantial problems with that particular future 
being envisioned. I would never say nothing is ever possible, 
but in light of the very near-term consequences that we are 
currently looking at, it makes more sense to focus the research 
dollars on those topics at this point.
    Chairman Boehlert. Thank you very much. Dr. Winner.
    Dr. Winner. Yes, I would point to a general issue that 
covers a number of problems that people have talked about, 
which is the possibility of irreversible harm. As a general 
matter, I think technology should be Judge Superior if the 
consequences of their use are reversible. And this suggests we 
need a kind of research strategy here that would enable us to 
do the kinds of applications and experiments in a controlled, 
bounded way rather than simply releasing them into the world 
and then see what happens.
    In that regard, I would object to Mr. Kurzweil's comparison 
analogy between computer viruses and, let us say, self-
replicating machines in the environment. The computer viruses 
exist within certain kinds of systems, but we are proposing to 
take the new materials and new processes of nanotechnology and 
release them in ways that would ultimately enter our bodies and 
the biosphere. So I think we are going to need some very clever 
and careful ways of testing on a limited scale the way these 
things work, to try them out in a way that if problems arise, 
then you won't be stuck with a Pandora's box.
    Chairman Boehlert. Thank you very much. Ms. Peterson.
    Ms. Peterson. First, I would like to say, excuse me, I 
agree with Dr. Colvin that more funding is needed for these 
near-term effects of current nanotechnology. I don't--I would 
certainly not argue that enough is going there, so let us try 
to get that up.
    Chairman Boehlert. Well, just let me observe. You know, the 
National Academy of Science pointed out that the National 
Science Foundation explicitly included societal implications in 
its solicitations for nanotechnology research during fiscal 
year 2001. Few proposals were submitted and none were funded. 
And one of the things you are suggesting is that we fence off a 
certain amount of money, maybe five percent, and mandate that 
that go for this type of study.
    Dr. Colvin. Yes, I think that you have hit on an essential 
issue.
    Chairman Boehlert. All right. Thank you. I know the red 
light is there, but I want the panel to have the opportunity to 
answer this one question, and then I will go to Mr. Honda. 
Would you finish, Ms. Peterson?
    Ms. Peterson. Yes, so--and I would also agree with Dr. 
Colvin that the molecular manufacturing scenario is highly 
controversial. However, I can tell you that I have been 
tracking this for over 20 years, and I--there has not been any 
substantive technical argument against this. Believe me, I am 
looking. If I ever find one, I could go do something else, 
okay. So I would reemphasize, I think we need to do a 
feasibility study of the type that I suggested. And the reason 
is that the fear and the hope regarding this long-term 
nanotechnology is spilling over onto the near-term 
nanotechnology, and that is going to be a problem for near-term 
possibilities. So if we can allay those fears, the near-term 
nanotechnology will also benefit.
    Thank you.
    Chairman Boehlert. Thank you very much. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And I think that this--
the line of questioning discussion is very important, and I 
would support something like setting aside funding for--
specific to that activity.
    You mentioned--we are talking about advisory committees and 
external and internal advisory committees. Could you share with 
us how you think we can make the input of an advisory committee 
stick or make it important? I mean, a lot of times we get input 
and it gets lost in the wash. Would you share with us some of 
the ideas you may have? Dr.--Ms. Peterson, you have thought 
about this for some time. Maybe you have some ideas, and then 
we will hear the rest of the panel.
    Ms. Peterson. In this area, I think nanotechnology is an--
is basically an engineering field. The goal is to achieve 
certain technical results. And I think one thing that has been 
missing, perhaps, in the way we have been coming at it as a 
nation has been a focus on engineering teamwork and putting 
together specific projects with very clear technical goals. And 
I know the NNI is moving in that direction, but I think we need 
to move much more. So I think if there could be an advisory 
committee that puts together very clear technical goals that 
could be fed somehow into the legislation, that might be 
helpful.
    Dr. Winner. I would be careful to place these questions 
solely in the hands of scientific and engineering elites. We 
did that with nuclear power where the essential questions took 
decades to surface, questions about the cost of the plants, 
questions about the safety of the plants, questions about 
nuclear waste disposal. When these questions erupted powerfully 
in the 1970's and 1980's, the social coalition of support for 
nuclear power collapsed. And what I fear is that if we say, 
well, the main voices that matter here are the scientists, the 
engineers, the entrepreneurs and so forth, we are not going to 
include society as a whole. We are not going to include the 
public in the process and which eventually ordinary folks are 
going to have to decide whether this is a technology--or these 
are technologies they can support or not. I would say open up 
the process more broadly and early on.
    Dr. Colvin. As far as the question about the advisory 
panel, I believe that in the particular case of societal impact 
is--the point I tried to make is that you are swimming upstream 
in many ways to get both scientists and engineers and even 
social scientists and funding agencies engaged. So I believe 
the advisory panel will serve an important role in looking over 
how that research is going. I would suggest that they be 
charged, certainly, with the process of classifying research 
projects.
    It can be a little tricky to decide if somebody is looking 
at a brand new way of desalinating water, if that is an 
application or an environmental implication. In my mind, that 
is a technology development, not a health and safety issue. So 
those kinds of issues, I think, are something an advisory panel 
can do. I agree completely that we need to broaden the base. 
Advisory panels must include social and environmental 
scientists, but they absolutely also must include science and 
technologists.
    I believe that in the area, scientists and engineers have 
changed a lot since the '70's. This is really a great moment to 
train, especially our younger generation of scientists and 
engineers, to think much more broadly about applications. And I 
think that they are ready to do that. They are ready to 
recognize they have to engage the public and a much broader 
context for their work. And I believe the advisory panel will 
be a snapshot of a group of people with diverse backgrounds. 
And hopefully those are the types of profiles we will see also 
when the research grant is funded.
    Mr. Kurzweil. I agree with Dr. Colvin that you need to have 
both ethicists and representatives of the public interest as 
well as scientists. Representatives of the public really can't 
deal with the issues unless the scientific implications are 
understood, and these generally involve difficult scientific 
and engineering issues. I think it would be reasonable to have 
any proposal be required to address potential dangers, 
environmental impacts, impacts on health, as we sometimes do 
with environmental impact, but to specifically address these 
emerging safety issues as these technologies get more powerful.
    And just to respond to something that Dr. Winner said 
earlier, it is nobody's proposal to release into the natural 
environment self-replicating entities that are not biological. 
I mean, that is specifically the sort of cornerstone of the 
ethical guidelines that the industry has come up with. And a 
lot of the specific technical strategies are designed to 
prevent that from happening.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. The distinguished Chairman of the 
Subcommittee on Research, Mr. Smith of Michigan.
    Mr. Smith of Michigan. Mr. Chairman, thank you. I am glad 
to see many of the panelists sort of relate some of the 
problems that we have had in biotechnology and the slowdown of 
that research because of rhetoric that may be more based on 
emotion than scientific fact. And certainly, Mr. Winner, we 
want to bring in a broader evaluation to make sure that we 
don't stall the good research that can be accomplished through 
nanotechnology. And we still have that problem hanging out 
there with biotechnology that, in many areas, we have slowed 
down.
    Help me understand a little bit some of what you see just 
sort of in your vision of some of the potential for 
nanotechnology, and just go down the role. And what are some of 
the possibilities out there, starting with you, Mr. Kurzweil?
    Mr. Kurzweil. Well, probably the most exciting is to build 
small devices that can go inside the human body, actually 
travel inside the bloodstream and perform therapeutic and 
diagnostic functions. Now that might sound futuristic, but we 
are actually doing that today. There are four major conferences 
on something called BioMEMS, Biological Microelectronic 
Mechanical Systems, and that is not quite nanotechnology, but 
these are tiny devices that go inside the bloodstream. One 
scientist actually cured type I diabetes with a nanoengineered 
device that has seven nanometer pores that lets insulin out, 
blocks antibodies, and actually cured type I diabetes in rats. 
And this same mechanism--there is no reason to believe this 
same mechanism wouldn't work in humans.
    Ultimately, when we can design devices that are very small, 
we can go and scout out pathogens, destroy cancer. One 
scientist, Rob Freitas, has designed replacements for portions 
of our bloodstream that would overcome blood diseases and 
greatly extend human health and longevity.
    Mr. Smith of Michigan. Well, save some for Dr. Colvin.
    Dr. Colvin. Did you mean by possibilities our--the 
wonderful things that can happen or kind of a more of a 
discussion of some of the negative, you know, the implications 
that are----
    Mr. Smith of Michigan. Well, I think that is important, 
too.
    Dr. Colvin. Yeah.
    Mr. Smith of Michigan. And Mr. Chairman, you know, maybe we 
need some of--skeptics along with the scientific----
    Dr. Colvin. Okay. All right. I will add what----
    Mr. Smith of Michigan. I don't want you to take the role of 
a total----
    Dr. Colvin. Right, because I--much of what we do in my 
center is actually biomedical research using nanoparticles. And 
I would echo the previous comment and that already are small 
particles actually made from the bottom up now are multi-
functional, can hunt down cancer cells and kill them if you 
shine light on them from the outside. That is something that 
Dr. Jennifer West, in our center, has pioneered. So it is 
really amazing what small particles can do inside of our 
bodies. They can--because of their extremely small size, they 
are much, much smaller than a red blood cell, their access to 
biological environments is amazing. And we can leverage that in 
generating entirely new ways for treating disease. And that is 
actually already happening.
    The flip side of that is that because of their rather 
unfettered access all over our body, the body can interact with 
them in unusual ways, and that is already becoming part and 
parcel of our medical research. So what that means to me is 
that we are in a situation, especially when we find the wide 
use of nanoscale particles, particularly in cosmetic 
applications, in a situation where consumers are exposed to 
them unintentionally every day. And that is a situation where 
we have to, I think, step back and say, ``Are the benefits of a 
cosmetic application necessarily worth, perhaps, some of the 
issues we may face with their access to the body and long-term 
effects?''
    Unfortunately, very little is known. The societal impact 
research from NSF is limited to only social scientists. No 
environmental impact research, with the exception of the small 
amount of--that we do, comes from societal impact. So my 
warning to you is with societal impact, that will be 
interpreted as social science, so if the environmental part is 
something you want to stress, you are going to need to say 
that.
    Dr. Winner. Yeah, Mr. Smith, one thing that interests me 
about the way this research is being justified is that we have, 
in my view, powerful tools that are going out looking for uses. 
So you have a list of all of the things that nanotech might do. 
I think, perhaps, a more fruitful approach for a national 
budget would be to say, ``What are the Nation's greatest needs? 
What are our greatest problems? How might research address 
those issues?'' Nanotechnology, right now, is, I guess, in the 
hundreds of millions of dollars in research. One can see this 
being ramped up, you know, powerfully in decades to come.
    And we have this, what I would call a kind of opportunistic 
logic of technical choice. ``Let us try this. Let us try that. 
Let us do what these entrepreneurs want or these researchers 
want.'' One thing that bothers me about this is the kind of 
opportunistic logic that reverses what we normally expect is 
the relationship between ends and means, where we first clarify 
our ends, saying, ``These are our basic priorities. Here is 
what American society needs.'' And then we go out looking for 
means that might satisfy those ends. In nanotechnology, as I 
hear it consistently defined, what we have is a process in 
which the tools go out looking opportunistically for things to 
do. That bothers me. I think it should bother you.
    Ms. Peterson. Regarding the potential benefits, we have 
covered the medical ones. I will just touch on three more. 
Environmental benefits, the potential of being able to make our 
products with zero chemical pollution and do environmental 
restoration all the way down to the molecular level. The second 
one would be how are we going to bring living standards up in 
the poor countries without having environmental difficulties? 
And that has been a tension for a long time. The goal here 
would be if we can make our products cleanly and inexpensively, 
we might be able to accomplish that difficult goal. And third, 
we have seen not too long ago the disastrous consequences of 
materials problems in our space program. With nanotechnology, 
we should have much stronger, lightweight materials and perhaps 
finally make space resources and space activities affordable 
and safe.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. Mr. Miller.
    Mr. Miller. Thank you. We had an earlier hearing on 
nanotechnology. And the gist of it was that we were not really 
ahead, perhaps behind several other nations that were involved 
in nanotechnology research. I can't recall the list: the EU, 
obviously, I recall China, I think Israel, perhaps Korea, maybe 
India. But in any case, we did not have the--kind of the lead 
in the--in research in this area that we have had in other 
great advances in the last generation. What is going on in the 
other nations doing nanotech research on these issues? Are they 
pausing over ethical concerns or pausing over safety issues, 
environmental hazards? Are they setting up citizen panels? What 
are they doing? Anything?
    Mr. Kurzweil. I don't think the ethical concerns are 
slowing down nanotechnology yet. Some of the activist groups 
that have gone after genetically modified foods are now turning 
their attention on this issue, but so far, it is really in the 
discussion stage. Most of the research is in diverse areas, and 
is experimental. It is not really being slowed down a bit. It 
is a very diverse activity.
    Another exciting area, which is really going on around the 
world, is in electronics, developing three-dimensional 
molecular circuits, which can then continue the exponential 
growth of computing beyond the flat integrated circuits 
governed by Moore's Law. And that actually--most of that 
research has been here with some in Europe and Israel, but we 
have a lead in that particular technology.
    Dr. Colvin. Last year, I participated in a workshop in 
Italy on societal impacts of nanotechnology with many 
international participants. What was clear to me is that the 
European funding agencies take particularly the near-term 
consequences quite seriously. They come from a culture where 
basically concerns about genetically modified organisms or some 
of the mistrusts between scientists and the public is quite 
severe. So they are actually in the stage this year of ramping 
up significant funding. I don't know the exact numbers, I could 
provide them, to get put particularly into the issues of 
environmental and health impacts.
    And in fact, in England, this has received--noted the 
highest levels of the government because of the activities of 
some of these non-governmental organizations. So they have been 
quite effective, particularly in Europe, of drawing attention 
to this issue. And I believe our European colleagues will be 
paying very close attention. And there is much more substantial 
discussion, for example, of regulation in Europe than there is 
here.
    Dr. Winner. I can't speak to the question of, you know, 
whether the United States is ahead or behind in specific areas. 
But your question suggests to me that in a global economy and 
global science and technology, with--these kinds of societal 
and ethical issues we are talking about today really need to be 
addressed globally as well, internationally. And I think one 
thing that people that are interested in this area should begin 
to explore is the creation of new institutions, trans-national 
institutions in which these kinds of research, deliberation, 
debate, and attention to issues could be pitched for attention.
    Ms. Peterson. I think we can expect to see these issues of 
societal implications being addressed. As Dr. Colvin said, in 
Europe, they are probably ahead of us. Here, we are ramping up, 
but there is substantial activity in Asia in nanotechnology and 
Japan and in China and in other countries. And I would be 
surprised, myself, to see an organized effort there. Maybe the 
other panelists can comment on that, but I think it is--in 
Asia, it is full steam ahead, and I think it is worth keeping 
an eye, for example, on China, where the number--the last 
number I saw for China was 300 million U.S. dollars equivalent. 
And keep in mind that the cost of scientists there is much 
lower. And so when you look at that number, you have to put in 
the multiplier effect, and so we may see tremendous advances 
coming out of China over the decades to come. And we could be 
surprised.
    Mr. Miller. Very surprised at how much the technology comes 
out of China?
    Ms. Peterson. Yes, China could, yeah.
    Mr. Miller. But if we were the only nation in the world--
well, there may be some race at the bottom in their--in concern 
for safety and ethical----
    Ms. Peterson. I think yes. I think if there is 
nanotechnology research being done in countries that, perhaps, 
don't have our level of safety concerns, we might want to keep 
an eye on that.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired. Actually, you have two seconds left.
    Mr. Miller. I will yield back the balance of my time.
    Chairman Boehlert. Thank you very much. The distinguished 
Chairman of the Subcommittee on Space, Mr. Rohrabacher.
    Mr. Rohrabacher. Am I the only one who is skeptical of the 
social sciences here? I don't know. I get to be the proverbial 
skunk at the lawn party.
    Chairman Boehlert. You are not out of character.
    Mr. Rohrabacher. I mean, this sounds like to me you are 
putting all of the sociology and literature majors in charge of 
defining the goals of the engineering and, you know, science 
majors. I don't know what your experience in college was, but 
you know, I wasn't the one who wanted to trust the sociology 
majors with those type of decisions. Is that what I am getting 
here?
    Dr. Colvin. Do you want me to take--yeah, I will jump on 
that one.
    Mr. Rohrabacher. Okay. Please do.
    Dr. Colvin. Yeah, I think--so as a member of the 
nanotechnology community as scientists and engineers, it is 
strange to say, ``Okay, we are going to--social scientists will 
receive substantial funding to evaluate our technologies.'' I 
think that we are all very open and believe that only an 
economist, for example, or an anthropologist could really 
figure out how, if you give very small palm pilots to, you 
know, third world countries how that might disrupt their 
culture. That is not something I can do.
    But where we really find significant issues is when those 
same groups do their technology forecasting. So if they make an 
assumption that they are going to study some technology, that 
is what I believe you have to leave to the nanotechnology 
establishment is to decide what are the real issues? What are 
the technologies that exist? What are the specific things we 
are working towards? So that when we get partnerships with our 
social scientists and environmental scientists, they focus on 
the issues that actually are--matter to the groups that are the 
most closely related to the work. So I agree with your 
perspective, to some extent. But I believe the consequences 
research can't be done by nanotechnologists.
    Mr. Rohrabacher. I think what we are talking about here 
is----
    Dr. Colvin. Right.
    Mr. Rohrabacher [continuing]. Injecting bureaucracy into 
the sciences. I mean, you know, my experience is that you have 
got--you know, bureaucracy is the most effective method ever 
devised of turning, you know, pure energy into solid waste. 
And----
    Dr. Colvin. Well----
    Mr. Kurzweil. If I could interject one thought, which I 
think builds on something Dr. Colvin said, if you look at how 
things have gone with GMOs that has not gone well, and it is 
not apparently a scientific issue. It is a political and 
cultural issue. It is certainly a deeply cultural issue in 
Europe, and so it requires people with that kind of background. 
If we want to avoid----
    Mr. Rohrabacher. Are we assuming the nuts aren't going to 
be the ones on the panel?
    Mr. Kurzweil. Well, if we want to avoid that kind of 
disruption and have the benefits of these technologies go 
smoothly, avoid the peril, and avoid, you know, being 
sidetracked by these kinds of political and cultural issues, 
then we need people with that background to help us guide the 
technology.
    Mr. Rohrabacher. Let me be a--the skeptic again and--with 
what you are saying that--I mean, I really appreciate your 
engineering skills, and here we are. I mean, the--here is the 
non-scientist over here talking to the scientist about how you 
organize a structure, social structure, so that you can get 
your job done. I will tell you that it--when you are--if you 
set up these panels, you are going to have more quagmires 
rather than fewer quagmires, because you will have been 
giving--you will give a forum to the very nuts that you are 
trying to overcome in Europe and etcetera, especially when 
people talk about global panels, for Pete's sake.
    Mr. Kurzweil. But it may be better a panel and a lot of 
public discussion than the kind of complete breakdown of GMOs 
that we have seen in Europe.
    Mr. Rohrabacher. Well, maybe a--I will have to say that I 
certainly respect your opinion on the way engineering works and 
the way your scientific research works. I don't necessarily 
think that that is where we get our advice on how to create the 
social system that will permit your science to work best. I 
don't know if that made any sense at all, but that is--I said 
something in there.
    Mr. Kurzweil. It made a great deal of sense to me.
    Mr. Rohrabacher. All right. Let me just----
    Mr. Honda. Could we have one quick comment from Mr. Winner?
    Mr. Rohrabacher. Oh, yeah. Please.
    Dr. Winner. Yeah. Scientists can tell you the knowledge 
required to make these things work. Engineers can tell you how 
to make them work in practice. What neither of those groups 
really can do, except to perform their own roles as citizens as 
well, is what these technologies will mean to people when they 
enter the world of practice when they enter the environment. 
You talk about sort of multiple quagmires. In my view, that is 
probably inevitable to occur. And what you want to have happen 
is the most open, rational, critical, many-sided debate 
possible so that society can sort through not only how things 
work, but what they mean to us.
    Mr. Rohrabacher. I am just afraid that you are talking 
about setting up a situation where scientists in the physical 
hard sciences are going to be doing their work, coming up with 
terrific things like nanotechnology, and so these sociologists 
say, ``Well, it has got to go through this buffer, this filter 
first before it can get to the public.'' You know, people have 
claimed to believe--claimed to have, you know, a fundamental 
knowledge of what the public interest is, you know, be very 
suspicious of giving them power, because they really think they 
know, and they might not.
    Dr. Winner. Well, that is why I have suggested we try, in 
this kind of work, to establish a voice for ordinary folks, 
citizens panels, who can look at the evidence, listen to the 
different points of view, and then offer their own ideas about 
what this is all about.
    Mr. Kurzweil. I would distinguish between dialogue and 
debate on the one hand and regulation on the other. And I think 
you are concerned about undue bureaucracy and regulation, which 
I share. But a lot of open debates and dialogue, even if some 
of it is not well grounded is ultimately going to be helpful to 
get some of the issues out so they can be addressed.
    Mr. Rohrabacher. Okay. Thank you.
    Chairman Boehlert. Thank you very much. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. I want to apologize, 
because I have got hours of things I want to talk about and 
only five minutes. So I am going to raise a bunch of questions 
and ask you folks to respond in writing, but I am going to do 
something else and that is invite you, or whichever of you 
might be free, to lunch. And perhaps a few of my colleagues 
will join us when they find out I am buying. I want to respond 
to the distinguished Chair of the Space Subcommittee that long 
before his Subcommittee authorized the programs that took us 
into space, the poets made us want to go there. And it is good 
to have the societal elements or, as he would abbreviate the 
term ``nuts'', talking to the scientists at an early stage in 
this process rather than wait until toward the end.
    I commend the panel for focusing on the fact that one of 
the things nanotechnology may bring us is new orders of 
intelligence, whether that is through genetic engineering, 
perhaps at the nanotechnology level, or non-organic 
nanotechnology, or some combination. First I would point out 
that intelligence is the most explosive thing in the universe. 
There are those who think that fusion is the most explosive 
thing, except you realize intelligence gave us that fusion. 
Less than a decade--there was less than a decade between when 
Einstein wrote to Roosevelt of the possibilities of nuclear 
explosions and when we had to develop a nuclear, 
nonproliferation regime. And now we are engaged in regime 
change as part of that regime.
    You know, Secretary Rumsfeld is in the armed services room 
briefing many of our colleagues on what is going on. Arguably, 
he should be briefing them in this room since his entire 
enterprise is described as a technology control project, that 
is making sure that the wrong people aren't doing the wrong 
kinds of science. So those who believe that only fools want to 
explore the idea of controlling and guiding science, you should 
talk to our men and women in uniform who are guiding the Iraqis 
to less science in some small aspect of their national life.
    About 100,000 years ago, we saw the last increase in 
intelligence when Cro-Magnon greeted Neanderthal. Perhaps the 
first thing a Neanderthal said upon looking at Cro-Magnon is, 
``Is that us?'' And I don't know. And we may be looking at new 
entities and wondering whether the next intelligence is our 
prodigy or our competitor or a bit of both. The--you have 
pointed out that we are going to see massive increases in the 
spread of knowledge and technology, and I am confident that 
humans will be better at curing those things that can be cured 
by intelligence. If SARS emerges 20 years from now, you science 
folks will give us a cure in weeks instead of years.
    But there are problems caused by intelligence, like the 
fact that we can bombard nuclear atoms--or rather uranium 
atoms. And those problems will probably also increase, since 
their cause, human intelligence, increases. I want to commend 
Dr. Colvin for her pointing out that perhaps we ought to spend 
five percent of the budget on sociological research. I am sure 
Ms. Peterson was facetious when she suggested that that go 
exclusively to an impartial panel of physicists. And I think 
that Dr. Wiener--I think----
    Dr. Winner. Winner.
    Mr. Sherman. Oh, am I pronouncing your name right? Winner. 
Winner. I forgot my reading glasses.
    Chairman Boehlert. That is a New Yorker.
    Mr. Sherman. Well, I believe that if you build a better 
mousetrap, the world will beat a path to your door, even if 
that world is a world of mice. And I think that as this 
technology develops, many paths will be beat to many doors. The 
question is whether the five percent of the budget that we hope 
to put into societal research will bear fruit. Mr. Kurzweil, I 
believe you have written that it is roughly 30 years between 
now and when we get a non-biological intelligence that 
surpasses human intelligence and have suggested that that 
occurs by reverse engineering the human brain. Since I am out 
of time, I am going to ask each panelist how many years they 
think it will take any of the branches of nanotechnology to 
give us an intelligence that surpasses any known human 
intelligence. Just shout out a number of years, and make sure 
it is longer than anyone will hold you to account for, because 
we will forget your answer in less than a decade.
    Mr. Kurzweil. Well, 26 years.
    Dr. Colvin. 45.
    Dr. Winner. Actually, I hope never. One of the concerns 
about nanotechnology and science and engineering on this scale 
is that it is plowing onward to create a successor species to 
the human being. I think when word gets out about this to the 
general public, they will be profoundly distressed. And why 
should public money be spent, I would wonder, to produce an 
eventual race of post-humans? Perhaps this needs wider public 
debate.
    Mr. Sherman. That is pretty much how we spent the last five 
minutes. Ms. Peterson.
    Mr. Kurzweil. If I could just suggest, since it came into 
the discussion, we already have people walking around who have 
computers in their brains who have Parkinson's disease or 
hearing disabilities or a dozen different neural implants. We 
have artificial augmentations or replacements of almost every 
body system, so the ultimate implication of these technologies 
will not be a successor species but really an enhancement of 
our human species. I would define the human species as that 
species that inherently seeks to extend our own horizons. We 
didn't stay on the ground. We didn't stay on the planet, and we 
are not staying with the limitations of our biology.
    Mr. Sherman. I hope you are free for lunch. Ms. Peterson.
    Ms. Peterson. Well, I will say 25 to 30 years and express 
my surprise that this question would come up here and also say 
that these kinds of things are labeled science fiction. I--my 
work is often labeled science fiction, but I point out that if 
you look ahead 30 years and what you see sounds like science 
fiction, you might be wrong. But if it doesn't sound like 
science fiction, you are definitely wrong.
    Chairman Boehlert. Thank you very much. The gentleman's 
time is expired. Let me note, once again, that Mr. Sherman has 
offered to buy lunch. And following this hearing, those who 
want to beat a path to his door are invited to do so.
    Mr. Wu. Mr. Sherman, that was to the entire audience, was 
it not?
    Mr. Sherman. Except for those from Oregon.
    Chairman Boehlert. The Chair is pleased to recognize the 
Vice-Chairman of the Full Committee, Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. Some of the 
questions that I was going to ask have already been asked, and 
I want to thank you for coming here today. I think this is sort 
of the beginning of what ultimately will be a big national 
debate. Coming from an agricultural area and also serving on 
the Ag Committee, I am concerned with what has happened in the 
whole debate about genetically modified organisms. And 
sometimes I think you can help as scientists to put this in 
some historical context. The GMO's best example is we have been 
modifying the genetics of plants for a very, very long time. I 
mean, we didn't just wake up one day and find tomatoes. 
Actually, the American Indian bred up the tomato plant that we 
know today. The same is true with what we now know as corn.
    So this has been going on for a very long time, but all of 
a sudden, in the last 20 years, there is at least an element of 
the scientific community that has decided that we can't take 
any risks. There is no risk that we should take. And I like to 
remind scientists and my colleagues that it is not the statue 
of security that sits in New York Harbor. And our ancestors did 
not get to the great river, the Mississippi, and say, ``You 
know, that is a pretty wide river. I guess we are going to have 
to turn around and go back.'' You know, there is something 
about being an American, and the same is true with space 
flight. You know, if we would have done the analysis and say, 
``You know, if we start putting people in space, some people 
are going to die. I guess we can't do that.''
    You know, I think we have to put all of this in some kind 
of context. The bottom line is we are going to move forward, it 
seems to me, with nanotechnology. That is going to happen. Now 
our European friends may, you know, sweat and curse and say we 
are being imperialistic or whatever, but it is going to go 
forward. The question is, can we do it in a moral way. I think 
there is a moral question here, and I think we have to begin to 
deal with that. But I want to come back to what I think is the 
fundamental question about genetically modified organisms. And 
that is that the people who developed them did a fabulous job 
of selling them to our farmers. They did a miserable job of 
selling the benefits to the consumers. And I wonder if any of 
you want to comment on that.
    Dr. Colvin. I will take that one. I have looked really 
closely at the GMO situation. I think that that is an excellent 
example of why public education is so important. It is clear 
that, as a scientist, I can not, and I don't think it is my 
place, to judge the risk benefit of any technology I develop. 
That is actually the policy makers' and the public's place. But 
it is up to me to provide the hard data, and so that is what I 
work towards. But I agree completely. As we enter into the 
nanotechnology realm, we have to point out when we have 
proponents saying, ``Oh, my gosh, something might cause 
cancer,'' to point out very clearly that we already know that 
we can cure certain types of cancer in animals with 
nanotechnology. I think it is--you present to the public the 
benefits, they will make the right decision, especially in this 
country.
    Mr. Kurzweil. I am just--I would agree with your concern, 
but it disturbs me to see countries like Zambia and Zimbabwe 
reject vitally needed food aid under pressure from European 
anti-GMO activists. And I think we have a real consensus on 
this committee, despite some of the different perspectives that 
we come from, on substantial forums and analysis and debate and 
dialogue and review of these issues by interdisciplinary groups 
of people and real funding to do that, not bureaucracy and 
regulation, but open dialogue and exploration to really avoid 
some of the irrational and emotional reactions that have 
stymied GMO.
    Dr. Winner. Yeah, technologies are not only material 
inventions; they are also social constructions. I have tried to 
argue that the final stage in the matters of sort of social 
exceptions comes when the people themselves who are going to 
use these things say, ``Yes, we like it. We can build this into 
our lives.'' Very often in recent times, people have said, 
``No, we don't want this.'' Right. They do it for reasons that 
seem significant to them, well grounded to them. We may look 
and say, ``Oh, you are being irrational. You have a defective 
culture. Why don't you see the things the way we do?'' And I 
think that attitude is going to be going forward extremely 
destructive.
    What we need to do is to look more closely at the sources 
of doubt and resistance and say, ``Well, what is on these 
people's minds?'' Very often, the way people view risk, for 
example, in society, has to do with the way of life in which 
they are deeply involved. And they see technologies entering 
in, posing a threat to their livelihood, posing a threat to 
their system of meanings, including the religions that they 
have, and saying, ``Well, wait. We are being rushed off in a 
direction that we are not comfortable with.'' And I think faced 
with that kind of message to say, ``Well, just look at the 
science and all of your problems will be solved,'' is not going 
to be actually a very workable approach.
    Ms. Peterson. I think----
    Mr. Smith of Michigan [presiding]. Very briefly, and then 
we will move on to Mr. Bell.
    Ms. Peterson. Just to agree, I think rather than take the 
societal implications money and put it all into, perhaps, 
academic social science research, what I am hearing, I think, 
and what I agree with is broad public discussion reaching out, 
actually, to the people themselves. Because I think as Dr. 
Colvin pointed out, at least the American people, I think, if 
they are--if they feel informed, tend to reach to the right 
decisions. Also--another thing that would help would be for the 
research itself to be both open and international.
    Mr. Smith of Michigan. Just--it seems to me, before we move 
to Dr. Bell, that there are always going to be those groups, 
though, that embrace the precautionary principle defined as 
zero risk that are always going to be out there questioning the 
advancement and any research that is less understood. And Mr. 
Bell, and I assume that you are going to really direct tough 
questions to Dr. Colvin. Is--am I correct that you are working 
in his district?
    Mr. Bell. Just a bunch of softballs, Mr. Chairman. Thank 
you. I--Mr. Chairman, I want to begin by saying I think this 
hearing demonstrates why it is so important that we be having 
this debate now rather than later. As Dr. Winner properly--
appropriately points out and accurately points out in terms of 
nuclear energy, many of the problems were raised after the 
fact. We have seen the same thing with stem cell research. We 
know that there are going to be societal and ethical questions 
raised. It makes all of the sense in the world to be proactive 
and be addressing those questions here on the front end rather 
than on the back end to see if the questions can be addressed.
    And yes, I am very glad to have Dr. Colvin here. I don't 
think that I have succeeded at a single Science Committee 
hearing in not mentioning Rice University. And today will be no 
exception. The shameless self-exploration will continue, and 
she is also joined by Dr. Kristen Kulinowski, and I have been 
working with Rice to learn as much about this particular 
subject.
    Mr. Smith of Michigan. And your time is----
    Mr. Bell. I will stop. If we can listen to Mr. Rohrabacher 
that long, you can certainly listen to me this long. I think 
that the Center for Biological and Environmental Nanotechnology 
at Rice is somewhat unique in that it is the only NSF funded 
center studying the environmental and health impacts of 
nanotech. And it is unique in that it claims to characterize 
the unintended consequences of nanotech, particularly in the 
environmental area, but it is also looking at some of the 
societal questions. And Dr. Colvin, I wanted to ask you, of 
course, you point out the need for increased funding, but I 
would also like you to touch on the review, how you would like 
to see proposals reviewed for these impact studies. And Dr. 
Winner, I am going to give you a chance----
    Dr. Colvin. Right.
    Mr. Bell [continuing]. To touch on that as well.
    Dr. Colvin. That is a real concern. I think that when you 
say societal impact, there is a--generally, that is going to 
mean social scientists. That is the code word, so the 
modification of that to include other topics will be important. 
As I say, I see two pieces to any societal impact research 
proposal. One is technology forecasting. What are you going to 
assume? Are you going to assume that there is going to be smart 
clothing that can merge with your body, detect its temperature, 
and maybe whisper in your ear people's names when they--you see 
somebody and you can't remember their name? It is possible that 
that could happen. Wouldn't that be great? Are you going to 
basically red team that?
    Mr. Bell. That would be a big seller here.
    Dr. Colvin. Yeah, I figured. Are you going to red team 
that? Are you going to red team self-replicating swarms of, you 
know, potentially bioterrorists or other kinds of weapons that 
have the ability to sense and interact with their environment. 
I think that if you look at those two scenarios, they are both 
really interesting. Which one is actually going to happen? And 
the people best suited to evaluate that part of the proposal 
will be nanotechnology researchers, people very entrenched in 
the field who know what the capabilities currently are and know 
where the various disparate areas are going. So every proposal 
should have a review, which is consistent of a nanotechnology 
group.
    However, there are the societal and ethical consequences, 
and hopefully environmental. And those should be reviewed by 
subject experts there. By relying only on one or the other, I 
believe that you will really weaken societal impact research 
overall. So you really need both components, especially the 
technology forecasting component is an essential recognition 
that that is a very important thing that only, I believe, 
nanotechnologists are able to peer review successfully.
    Mr. Bell. One thing that concerns me when we have these----
    Dr. Colvin. Um-hum.
    Mr. Bell [continuing]. Debates about societal and ethical 
concerns in regard to science is that sometimes they seem to be 
based more on misinformation than real information. I want to 
give you a chance to comment on some of Dr. Winner's 
statements----
    Dr. Colvin. Um-hum.
    Mr. Bell [continuing]. Earlier as far as a post-species and 
those types of things that obviously when put out there are 
going to scare a lot of people. Is that, as far as you 
understand it, the goal of people involved in nanotech 
research?
    Dr. Colvin. You know, I don't have a crystal ball. I wish I 
did to know where we were going to be in 30 years. And the 
further out you try to go, the more difficult it will be to get 
accurate predictions about technology. I believe--you know, my 
personal opinion, especially as a chemist, is that many of the 
self-replicating concepts and the ways that people propose to 
build them are untenable, so I believe we are not going to see 
that. And I believe that those concerns, especially about human 
intelligence taking over the world, I would certainly side with 
Mr. Kurzweil on that. I believe it will be incorporated into 
part of who we are. But those are very, very far out things 
that are so far in the distant future, it is difficult to study 
them with any great level of accuracy, because it could be many 
different possibilities.
    The near-term effects, which really are going to affect the 
trajectory of what--where those futures might be, are going to 
be, perhaps, more mundane, but just as important to developing 
a culture and a public awareness and acceptance of this area. 
So for that reason, I really believe it is important that we 
look very closely at, particularly, health impact, because that 
is the one we see now, but to do that in preparation for what 
might happen in the future. But technology forecasting is a 
dangerous game, so I kind of feel uncomfortable, as a 
scientist, going there, but I do think that you can go too far 
out, and that has the disadvantage of being very unlikely, 
perhaps, technologically, and also, of course, public education 
and interaction issues become----
    Mr. Smith of Michigan. The gentleman's time has expired, 
but we will do a second round, if----
    Mr. Bell. Can I ask one more question, Mr. Chairman----
    Mr. Smith of Michigan. Certainly.
    Mr. Bell [continuing]. Of Dr. Winner, because you talked 
about focusing on what the research could mean or what they 
will mean, and don't you think the focus should be on what it 
could mean, because it--she brings up--Dr. Colvin brings up the 
health impact. Energy is another area where a lot of research 
is going forward, two areas of huge concern throughout the 
Nation. And if we are able to make advances on those, I think 
most people here would be behind that. So when you say ``will 
mean'', do you mean ``could mean'' or what do you mean by that?
    Dr. Winner. Well, I do mean ``could''. As I listen to this 
conversation, one thing that strikes me is that in evaluating 
these ethical and societal consequences, outcomes, that I think 
one serious mistake would be to adopt one single strategy, let 
us say, to hire the social scientists and the philosophers and 
get them studying. I think we need, probably, at least two or 
three different strategies here that would, perhaps, involve 
different kinds of people in long-term assessments.
    I regret to say that one thing that I have seen happen more 
than once is that you have a very cozy relationship between the 
researchers and the people who are supposedly doing the ethical 
evaluations. The people doing the, let us say, bioethics, don't 
want to offend the people that they are working with. So what 
happens is you get only the most trivial kinds of issues, 
typically, raised. And in this field of research we are 
entering into, they are the most momentous issues that are--
that society is going to need to address, and we need to find 
strategies that will bring those into the open for good, 
critical evaluation.
    Mr. Smith of Michigan. The gentleman from Oregon, Mr. Wu.
    Mr. Wu. Thank you. Well, for my friends from California, 
one of whom is still here, Mr. Sherman may think that the last 
time human recognition of superior intelligence was when 
Neanderthal ran into Cro-Magnon 100,000 years ago. But when I 
ran into Mr. Sherman on Pennsylvania Avenue last week, I 
immediately recognized him of superior intelligence.
    With respect to the comments made by the other gentleman 
from California, Mr. Rohrabacher, with whom I share many 
concerns, I think there are quagmires in their quagmires. And 
sometimes, you just charge through a quagmire. Sometimes you go 
around a quagmire. Sometimes you build a bridge over a 
quagmire. Sometimes you fly over a quagmire. And sometimes, a 
quagmire doesn't exist. If you spend too much time worrying 
about the quagmire at the edge of it, you do have some 
legitimate concerns of the type that Mr. Rohrabacher expressed. 
However I think it is important to, as best we can, look at 
some of these quagmires in advance so that sometimes we don't 
go charging into one and find that it is a little bit over our 
heads or that, you know, we might have some problems with it 
that we might not otherwise have anticipated.
    Having said that, I want to return to just one very simple 
question for Mr. Kurzweil, because I was in the back of the 
room when I heard you first describe the further out challenge, 
and I am glad to see that you have a background in software. 
That is where I come from, too, except I did software legal 
work, and I could never understand how software really ran on a 
chip or how it interacted with a substrate and so on. And the 
thing that I am having a little--you know, I heard you mention 
this, and--how would nanotechnology become self-replicating? 
Just how would that work? And what makes it any easier for a 
nanotech machine to self-replicate when it seems pretty 
difficult to have a self-replicating full-sized machine? What--
can you go into this a little bit for me?
    Mr. Kurzweil. Well, we have an example of a self-
replicating machine, which are biological systems and 
biological cells. These are, in fact, nanoscale----
    Mr. Wu. Oh, yes, but that is not the question asked, 
because the problem with biological examples is we have not 
thus far successfully replicated them except--unless you want 
to call farming.
    Mr. Kurzweil. Well, we are actually pretty close to 
creating completely synthetic organisms. But I think the goal 
is not to have self-replication of non-biological entities 
happen naturally. But if you are going to start with building 
devices at the atomic level, and you want to actually create a 
product that, say, can interact with humans, it has to have 
some scale. Somewhere in the manufacturing process, there has 
got to be a scaling up process. We have that in the human body. 
We have ribosomes that are little machines that actually 
assemble protein machines. So there is a form of self-
replication going on with one device building another and doing 
that in parallel. We will have to have some comparable examples 
to that, if we are going to actually engineer things at the 
atomic level, because there are many trillions of molecules in 
a device that we can actually interact with. And how to do that 
safely so that the self-replication doesn't go awry, which is 
really the course--source of all problems we have with disease, 
for example, is a key----
    Mr. Wu. The reason why I am asking this question is that if 
we are on the verge of self-replicating machines, then that is 
something that we want to put a red team on and something we 
want to pay a lot of attention to. It is my impression, and 
correct me if I am wrong, but we understand some things about 
ribosomes, but there are certain proteins that are not that 
complicated where we don't understand how they fold into a form 
that works. And so I am trying to get a sense from you about 
whether the self-replicating machinery that I don't think we 
have seen in full scale. I mean----
    Mr. Kurzweil. Well, you are correct. We don't----
    Mr. Wu [continuing]. Since we haven't seen that, are we 
really on the edge of nanotechnology that is self-replicating?
    Mr. Kurzweil. We are not on the verge of--I think we have 
commented that that is a number of generations away. We haven't 
solved the protein-folding problem yet. A new generation of 
supercomputers that are emerging, it is expected we will get to 
be able to actually simulate protein folding for the first 
time. But we get from here to some of these very futuristic 
scenarios that Dr. Colvin alluded to being difficult to 
anticipate not in one step, but through a series of generations 
of technology where each one is more conservative. Right now, 
we are developing nanoparticles and we are--and Department of 
Defense is developing smart dust, which are insect-sized 
devices. And we are shrinking technology. So through five, six, 
ten different generations of technology, we will get from here 
to devices that can scale up the way we see in the biological 
world.
    But it is important to note that these generations are 
getting faster and faster. It used to be a generation of 
technology was equal to a human generation. Now it is maybe 
two, three, four years. And 10 years from now, it is going to 
be one or two years. So it won't be that long before we get 
through five or six generations. So I think scientists have to 
begin to overcome their reluctance to look more than one or two 
generations ahead, because the generations are so short.
    Mr. Smith of Michigan. The gentleman's time has expired----
    Mr. Wu. Thank you, Mr. Kurzweil.
    Mr. Smith of Michigan [continuing]. But Mr. Wu, we will do 
a second round, if you wish.
    Mr. Wu. I will just join Mr. Sherman at lunch.
    Mr. Smith of Michigan. Ms. Peterson, you wanted to give a 
quick reaction to Mr. Wu's question.
    Ms. Peterson. Yes, it is a great question. And I think it 
is an important one to deal with. It turns out we don't need to 
solve the protein folding problem before we make these 
nanoscale machines, and here is why. Proteins are--have been 
evolved over a long time to do what they do, but they haven't 
been evolved for predictability. There is no connection there 
at all. In fact, they are--they tend to be just on the edge of 
stability. When we design our own machines at the nanoscale, we 
can design specifically for predictability and buildability. So 
it is a--it is conceivably--in some ways, it is actually a 
simpler problem.
    Mr. Wu. I just want to add one comment to that. I didn't 
mean to imply that protein--that we need to solve the protein 
issue. It is just that Mr. Kurzweil seemed to imply that we 
were understanding this biology pretty well. My question really 
went to if you can't build a big self-replicating machine, what 
makes you think you can build a small self-replicating machine 
and how would that really work? That is the important question.
    Mr. Smith of Michigan. Very briefly, Ms. Peterson.
    Ms. Peterson. Just--I will try to do it in one sentence. 
One thing that helps a lot at the nanoscale is that you are 
working with molecules that are actually atomically perfect. At 
a small enough scale, atoms are either in the right place or 
the wrong place. When you build a big machine, things aren't 
that perfect. Things aren't atomically perfect, the pieces that 
you are working with. So there are some ways that it is--and it 
is a very challenging problem, don't get me wrong. But there 
are some ways that it is easier, actually.
    Mr. Smith of Michigan. With semicolons, that was a good one 
sentence. I think, Ms. Peterson, then maybe you and Mr. 
Kurzweil, what right now currently is existing now and what do 
you see is the potential for private sector investment and 
interest in nanotechnology? First you, Ms. Peterson.
    Ms. Peterson. There is tremendous private sector interest 
and involvement in near-term nanotechnology. I don't have the 
exact numbers, but there is plenty of money out there for 
products that can get to market in the next, say, three to five 
years and have a substantial sale. So it is absolutely huge, 
and not just in the United States, certainly in Europe and 
Japan and around the world. So--however, in the longer-term, if 
it is not fundable today by venture capital, people, at least 
out in Silicon Valley, say, ``Go get a grant.'' So the 
expectation is that government does all of the funding right up 
until it is time to go to market, pretty much. That is the 
current feeling out there.
    Mr. Smith of Michigan. And your comments, Dr. Kurzweil.
    Mr. Kurzweil. There is a mini boom right now in venture 
capital for nanotechnology, but actually, aside from 
nanoparticles, which isn't really consistent with the original 
conception of molecular engineering but is nanoscale, most of 
the activity isn't really quite nanotechnology, it is something 
called MEMS, Microelectronic Mechanical Systems. But these are 
devices a little bit bigger than nanotechnology, but as I 
mentioned, as a pervasive trend toward miniaturization.
    But the prospect for these MEMS scale devices is very 
exciting. We have mentioned the medical applications. I will 
mention another, which is energy. The Administration has a goal 
of the hydrogen economy, and one of the best ways to do that is 
to actually use MEMS, tiny little devices that are essentially 
microscopic fuel cells, and then you can power things inside 
the body or scale them up. I know one company, innovative fuel 
cell technology that is actually building MEMS based fuel cells 
that can power portable electronics for weeks rather than 
hours. And it is inherently safe, because you build up 
thousands or hundreds of thousands or millions of little cells, 
each of which have protection built into them. So it has a 
number of safety features comparable to biological systems.
    Mr. Smith of Michigan. Dr. Colvin, are you and Dr. Smalley 
seeing that kind of interest and participation at Rice?
    Dr. Colvin. You mean from the----
    Mr. Smith of Michigan. Private sector.
    Dr. Colvin [continuing]. Industry? Oh, yeah. I think that 
there is--it is clear in, I would call, nano-manufacturing from 
the bottom up, which is specialty chemical industries or 
pharmaceutical industries or it can be coming more interested 
in producing nanoparticles. I would say that those are not just 
a little, you know, mundane element. They will be core elements 
to more complex structures, but there is a great deal of 
interest, both in established corporations, surprisingly 
enough, as well as venture capital. So we will see.
    Mr. Smith of Michigan. Well, my question--let me ask a 
question on safeguards. I mean, with biotechnology, we probably 
have the best--by far, the best safeguards in the regulatory 
process in biotechnology with the FDA, with USDA, and with EPA 
all interacting to try to assure that anything that we develop 
in the arena of biotechnology outside of pharmaceuticals is 
going to have a very strict review. Any thoughts or suggestions 
on the similar kind of structure in terms of review and 
oversight with nanotechnology? Whoever wants to answer.
    Mr. Kurzweil. I would put in--it is not in direct answer to 
your question, but I do have a concern about the regulatory 
process we have in biotechnology, which I alluded to earlier. 
When it comes to intentional abuse of these technologies, 
irresponsible practitioners, bio--would-be bioterrorists, don't 
have to follow those regulations. And we are not putting enough 
resources as a society, enough money into developing the 
defense of technologies. And we--I used, really, the software 
virus as an analogy. We have kept one step ahead of the 
destructive applications. If we want to be as successful in 
biotech and ultimately nanotech, we are going to have to put 
explicit resources. We are very close, actually, to anti-viral 
drugs. We are not going to be able to invent an antidote for 
each new bio-peril that comes along. We are going to have to 
have some general broad tools, which we don't have today. We 
are not investing enough into it, and we have to figure out 
some ways to streamline the regulatory process. We can't take 
eight years to get FDA approval on a protection from 
bioengineered pathogens.
    Mr. Smith of Michigan. Any other comments?
    Dr. Colvin. Yeah, I will comment. I think that the 
regulation question is a really important one. It is, perhaps, 
beyond the privy of the NNI legislation, but----
    Mr. Smith of Michigan. Mr. Sherman----
    Dr. Colvin [continuing]. EPA and--as well as NIEHS, the 
National Institute for Environmental Health Sciences, are both 
organizations that would be in the line for thinking about 
potential, with respect to materials, regulation issues. But it 
is very clear we need to study these materials first and 
regulate second. And the studies haven't happened, so----
    Mr. Smith of Michigan. Thank you. Dr. Winner.
    Dr. Winner. Well, my only comment here would be how did all 
of these priorities reach such a level on the national agenda? 
You know, I hear from schoolteachers the schools are falling 
apart, their budgets are being cut. There is a crisis in all 
state governments with funding basic social needs. You know, 
the--our society has tremendous problems, tremendous issues 
that it faces. And yet we are looking at hundreds of millions, 
perhaps multiple billions of dollars to, as Ms. Peterson points 
out, not only investigate a new area of scientific research, 
but in effect, heavily subsidize one new industrial enterprise 
after another. My question would be, you know, well who decided 
that? Maybe the answer is the Executive Branch and the 
Congress. But I see this as a real challenge to priority 
setting in the United States right now. I wonder if this money, 
a lot of this money, is going to be badly wasted in a time of 
great need.
    Mr. Smith of Michigan. Ms. Peterson.
    Ms. Peterson. For near-term nanotechnology regulation, I 
think Dr. Colvin would probably be the better expert. For 
longer-term nanotechnology, the two main areas would be:
    Accidents: We already have a set of draft rules. I think 
over time, just as with the early days of biotech--in fact, 
these rules were inspired by those--there was a gradual process 
where voluntary drafts slowly turn into, eventually, 
requirements. And I think we will see that here. There is 
also--
    Regarding abuse, there is going to be very serious arms 
control issues, but they are not that different, really, from 
chemical and biological warfare issues, which means they are 
very difficult.
    Mr. Smith of Michigan. Mr. Sherman.
    Mr. Sherman. Thank you. I thank the gentleman from Oregon 
for his comments. I have been sitting here trying to think of a 
pithy rejoinder, and I can't think of one, thus illustrating 
the falseness of his generous comments.
    Mr. Wu. Just remember the beta tapes went. You know, the 
better technology doesn't always win out.
    Mr. Sherman. His comments are about self-replication. I 
guess there is kind of--we are thinking--or at least I am 
envisioning two types of self-replicating technology. One is 
the obvious, but it won't be here for, I think one of you said 
26 years. And that is in every science fiction book, the smart 
robot always builds himself, and it is always a himself, a 
companion. So we can have the self-replication in the self-
aware sense, but that is at least a generation away. And then 
there is this idea of the self-replicating molecule, which is 
DNA and life. And I was interested in Ms. Peterson's comments, 
but I didn't fully understand them. Are you talking about, in 
effect, synthetic life that is based on a more logical DNA 
molecule or----
    Ms. Peterson. No.
    Mr. Sherman. Well, what were you talking about in the sense 
of a self-replicating molecule that was not--did not have to 
solve the protein-folding problem?
    Ms. Peterson. Oh, okay. I don't think I used the term 
``self-replicating molecule''. Although, and Dr. Colvin, as a 
chemist here, could address this, I believe there are such 
things, actually, as molecules that will template off 
themselves.
    Dr. Colvin. Oh, yeah. It is not uncommon.
    Mr. Sherman. Is there scientific work being done to create 
new self-replicating molecules, other than those based on the 
DNA?
    Dr. Colvin. So the question is is there scientific work 
being done? It is a difficult question to answer, because there 
are clearly molecules that have the ability to template 
themselves, if put in the right environment. Is that self-
replication? Does the molecule think? No. It obeys the laws of 
thermodynamics. So it is very common in chemistry to have that, 
and it is not--it is just a property of some particular 
systems. So I don't see that as self-replicating in the 
terminology that people are using it.
    Mr. Kurzweil. I think that your concern is something in 
between a small, self-replicating molecule or a large, self-
replicating robot. But we are talking about our small machines 
that are bigger than a molecule, but have some scaling 
properties, some ability to be scaled up to millions or 
trillions of devices. One way of doing that would be self-
replication. But I think the industry has realized that that 
would be dangerous, so we really want to have controlled 
replication and to avoid runaway self-replication. But there 
has to be some way to scale up, because if you have two or 
three little devices that are microscopic in size, it doesn't 
do you any good. We need billions or trillions of them. So 
there has to be some form of replication in the process. And 
how to do that in a controlled fashion is the key safety issue 
in the long-term.
    Mr. Sherman. I don't know if Dr. Colvin----
    Dr. Colvin. Well, I think why--it comes down to what you 
mean by ``self-replication''. Molecules that are able to 
template themselves are interesting, but they don't have--I 
think people tend to answer--when we think about this, we think 
of little tiny people that are really nano that go around and 
do stuff. And that is where it breaks down, because you need a 
power source. You have got to have multiple functions.
    So when you think of the complex systems that people are 
proposing for the nanoscale, that is when you can say there are 
just not enough pieces to fit together on that size. Because 
there is a big difference between the MEMS devices that Mr. 
Kurzweil is talking about, which if they filled this room, the 
nanostructures that we think about would be the size of a 
baseball or probably tinier. And there is a big difference 
between even the micron length scales and the nano with respect 
to the scaling and physical and chemical properties. So I don't 
take it as a given that things are simply going to march 
smaller and smaller. I believe there will be fundamental 
alterations to how we have to conceive of creating systems on 
those length scales. And that is what I--why I feel 
extrapolations are a little bit dangerous.
    Mr. Sherman. Dr. Winner and Mr. Kurzweil have addressed 
from opposite standpoints that interesting question what is a 
human being. And I--Dr. Kurzweil puts forward the idea that 
wherever evolution takes us, if it produces a self-aware and 
ambitious, exploring entity, that that is human. And Dr. Winner 
takes the more--well, he wants, I guess, to count the fingers 
and count the toes. And I don't know if there is a way to 
address this in the remaining 15 seconds, but----
    Dr. Winner. Well, one important question is who gets to do 
the counting at all. At last, the last statistics, I 
understand, there are about six billion-plus humans on the 
planet, most of whom, the overwhelming majority of whom, are 
not involved in these projects. They might be interested to 
find out these plans are in the works, and they might even want 
to have a say.
    Mr. Sherman. I think they would. And it does go back to the 
question as to if Mr. Kurzweil was a Neanderthal and met that 
Cro-Magnon whether he would be happy or unhappy. And I will let 
him respond, if he wants to.
    Mr. Smith of Michigan. Very briefly.
    Mr. Kurzweil. I think rather than developing non-biological 
systems, although that will happen, I think our primary destiny 
is to enhance our own capabilities. I mean, I like having ten 
fingers and ten toes, but incrementally, one step at a time as 
we overcome various types of physical afflictions and 
limitations of our human capability, we will be enhancing our 
whole civilization. We have done that already. We are doing 
things today that couldn't be possible without the intimate 
merger with our technology. And we are going to stay on that 
path.
    Mr. Smith of Michigan. The Chair calls on Mr. Barton, 
another gentleman from Texas where nanotechnology is being 
explored at the University of Texas.
    Mr. Barton. Well, thank you. I am not going to ask any 
questions. I just came by to show support. There is a 
University of Texas Nanotechnology Center at the University of 
Texas at Arlington that I have just been through and helped to 
get several grants in the last several years. It is an amazing 
technology, and we are still a ways from commercialization, but 
obviously, it has got the potential to do great things in the 
future. I want to appreciate you, Chairman Smith, for holding 
this hearing and thank my--thank all of the witnesses, 
especially Dr. Colvin, who is from Texas, for being here.
    Mr. Smith of Michigan. Mr. Wu, you had a question.
    Mr. Wu. Thank you very much, Mr. Chairman. As you know, I 
usually ask short, quick questions, but I think I will exercise 
the user prerogative of members of this panel. And I just want 
to comment on a range of things that I have heard today. And by 
the way, Dr. Colvin, Dr. Winner, I appreciate your last 
comments. They were very, very helpful.
    You know, there is a full spectrum of policy and regulatory 
and legal responses to new technologies. And we have historic 
examples of what they can be. In many respects, the Nuclear 
Test Ban Treaty is nothing but a ban on experimentation, and it 
is a ban that many nations have agreed to. Some of us believe 
that the Nuclear Test Ban Treaty has done good things.
    At the other end of the spectrum, you look historically and 
what the church tried to do with Galileo and did with many 
others, I think we would look back and say historically that 
was not such a good thing. Those are sort of endpoints in the 
spectrum, but somewhere in between are issues that we have to 
deal with on an everyday basis. And I would just like to 
suggest to my colleagues on this panel, some of whom are here, 
and many of whom are not right now, that it is not such a 
simple thing to decide we are just going to let the scientists 
and the engineers go do their work, because if we just think 
about some of the issues that we, as a Congress, have been 
dealing with recently, stem cell research. I join some of my 
colleagues on it--on that issue and differ with some of my 
colleagues on that issue in terms of where we should be going 
with stem cell research. And interestingly enough, if you flip 
to something not that far apart from it, but I think distinct 
from stem cell research, I share a position with a different 
set of friends and colleagues on human cloning. And again, it 
is a very appropriate, I think, set of lines that we should be 
drawing in some public way, not necessarily here in Congress. 
But just because people are scientists or engineers doesn't 
necessarily give them a stronger vote in the societal decision 
about whether we should be exploring the solar system, as 
Galileo was doing, or doing self-replicating nuclear reactions 
the way that some scientists would be doing or in some of these 
other, you know, middle ground issues, such as stem cell 
research or human cloning. It is a difficult line-drawing 
exercise every single time. And that is our business. We are 
here to draw lines and hopefully wise ones with you all's 
assistance. And I would just like to add that the regulatory 
response can be a positive one, it can be a negative one. It is 
not always eight years that, you know, something is in the 
pipeline. Some of the anti-cancer drugs, which were found to be 
very, very effective, popped out of the pipeline in a matter of 
days, weeks, or months, at the most, and did not take eight 
years. So hopefully, we can engage in an important line-drawing 
process and end up, if we need to, with a regulatory process, 
which is appropriate to the technology, and not automatically 
regulate or automatically reject regulation because of the 
different technologies at hand.
    Thank you, Mr. Chairman. I appreciate your----
    Mr. Smith of Michigan. Thank you. With your permission, 
what we will do to conclude this hearing is ask each witness 
for maybe your--any comments that you would like to make 
guiding this committee as we start looking at our markup on 
April 30 for the nano bill, H.R. 766. So if you would have any 
comments and could sort of hold it down to about a minute to 
guide our Committee as we look at markup.
    Mr. Kurzweil. Well, quickly, just to respond to 
Representative Wu, I think your comments are well taken. I have 
advocated fine-grained relinquishment in response to the call 
by Bill Joy and others for broad relinquishment. Why don't we 
just do away with nanotechnology? There are specific narrow 
tasks we would rather not see funded. I mean, how to modify 
common flu and cold pathogens to be destructive, that is not 
something we would want to fund. We don't want to see on the 
Internet the genomes of the ten top pathogens. So there are 
things that we--that are particularly dangerous that we need to 
deal with through regulation.
    And I would advocate that we--as we did with the Genome 
Project, put three to five percent of the budget and devote it 
to the ethical, legal, social implications, so called ELSI of 
these technologies. And I do think it has to be a balance 
between scientific analysis by scientists as well as an 
understanding of the ethical and cultural issues by people who 
are expert at those domains.
    Mr. Smith of Michigan. Dr. Colvin.
    Dr. Colvin. Yeah. Just to sort of summarize my viewpoint. 
First of all, in societal impact, hopefully environmental 
impact will be part and parcel of that. It should be. And the 
three things that I kind of think of when I look at this 
legislation are the words. Strong support for this type of 
work. I think I outlined what some of the natural barriers are, 
just human nature. Most scientists would rather cure cancer 
than do work that finds out some nanomaterial might cause 
cancer, so you need to be very vigilant if you want this work 
to continue and support it strongly. The methods in which it 
occurs, we have heard that we need to have collaborative 
enterprises. And finally, the resources are the most 
important--an allocation for this type of research, I believe, 
is very well recommended.
    Mr. Smith of Michigan. Thank you. Dr. Winner.
    Dr. Winner. Yes. Two things. On my suggestion about the 
possibility of citizens panels, the relevant part of the NSF is 
called social dimensions of engineering, science, and 
technology. That work also goes under the label of consensus 
conferences, if the Committee wants to look into that. That 
would be one--my one suggestion about how the bill might be 
changed.
    The other thing I would like to do is to express my 
gratitude to the Committee and its staff for assembling so 
diverse a group of panelists today to interact and to exchange 
views. I think this is actually quite unusual right now in 
American society where you can have issues of this kind so 
intelligently questioned and expect to have a diversity of 
responses coming back at you, who are, after all, the decision 
makers.
    Thank you.
    Mr. Smith of Michigan. Thank you. Ms. Peterson.
    Ms. Peterson. Just to reiterate, we could use public 
outreach and discussion perhaps even more than social science 
work in this area. And you have seen there is some controversy 
here, and that is a good thing, as Dr. Winner points out. The 
hopes and the fears about this longer-term work, molecular 
manufacturing, the self-replication issue, are spilling over 
onto the near-term work. This is a problem for the folks doing 
the near-term work. I would say we should just go ahead and do 
that feasibility study, get this cleared up, and then we can 
move on to be doing effective social implications work and also 
public outreach.
    Mr. Smith of Michigan. Thank you very much. With the 
permission of the witnesses, some questions that staff would 
have liked to ask but weren't by the Members, if you would 
consider responding to any questions that might be sent to you. 
Again, thank you all very much for giving us your wisdom and 
knowledge. And with that, the Committee is adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Additional Material for the Record


108th CONGRESS
    1st Session

                                H. R. 766

To provide for a National Nanotechnology Research and Development 
    Program, and for other purposes.

                               __________

                    IN THE HOUSE OF REPRESENTATIVES

                           February 13, 2003

Mr. Boehlert (for himself, Mr. Honda, Mr. Ehlers, Mr. Hall, Mr. Smith 
    of Michigan, Mr. Gordon, Mrs. Biggert, Ms. Eddie Bernice Johnson of 
    Texas, Mr. Bartlett of Maryland, Ms. Lofgren, Mr. Gutknecht, and 
    Mr. Bishop of New York) introduced the following bill; which was 
    referred to the Committee on Science

                               __________

                                 A BILL

To provide for a National Nanotechnology Research and Development 
    Program, and for other purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Nanotechnology Research and 
Development Act of 2003''.

SEC. 2. DEFINITIONS.

     In this Act------
            (1) the term ``advanced technology user facility'' means a 
        nanotechnology research and development facility supported, in 
        whole or in part, by Federal funds that is open to all United 
        States researchers on a competitive, merit-reviewed basis;
            (2) the term ``Advisory Committee'' means the advisory 
        committee established under section 5;
            (3) the term ``Director'' means the Director of the Office 
        of Science and Technology Policy;
            (4) the term ``Interagency Committee'' means the 
        interagency committee established under section 3(c);
            (5) the term ``nanotechnology'' means science and 
        engineering aimed at creating materials, devices, and systems 
        at the atomic and molecular level;
            (6) the term ``Program'' means the National Nanotechnology 
        Research and Development Program described in section 3; and
            (7) the term ``program component area'' means a major 
        subject area established under section 3(c)(2) under which is 
        grouped related individual projects and activities carried out 
        under the Program.

SEC. 3. NATIONAL NANOTECHNOLOGY RESEARCH AND DEVELOPMENT PROGRAM.

    (a) In General.--The President shall implement a National 
Nanotechnology Research and Development Program to promote Federal 
nanotechnology research, development, demonstration, education, 
technology transfer, and commercial application activities as necessary 
to ensure continued United States leadership in nanotechnology research 
and development and to ensure effective coordination of nanotechnology 
research and development across Federal agencies and across scientific 
and engineering disciplines.
    (b) Program Activities.--The activities of the Program shall be 
designed to------
            (1) provide sustained support for nanotechnology research 
        and development through------
                    (A) grants to individual investigators and 
                interdisciplinary teams of investigators; and
                    (B) establishment of interdisciplinary research 
                centers and advanced technology user facilities;
            (2) ensure that solicitation and evaluation of proposals 
        under the Program encourage interdisciplinary research;
            (3) expand education and training of undergraduate and 
        graduate students in interdisciplinary nanotechnology science 
        and engineering;
            (4) accelerate the commercial application of nanotechnology 
        innovations in the private sector; and
            (5) ensure that societal and ethical concerns will be 
        addressed as the technology is developed by------
                    (A) establishing a research program to identify 
                societal and ethical concerns related to 
                nanotechnology, and ensuring that the results of such 
                research are widely disseminated; and
                    (B) integrating, insofar as possible, research on 
                societal and ethical concerns with nanotechnology 
                research and development.
    (c) Interagency Committee.--The President shall establish or 
designate an interagency committee on nanotechnology research and 
development, chaired by the Director, which shall include 
representatives from the National Science Foundation, the Department of 
Energy, the National Aeronautics and Space Administration, the National 
Institute of Standards and Technology, the Environmental Protection 
Agency, and any other agency that the President may designate. The 
Interagency Committee, which shall also include a representative from 
the Office of Management and Budget, shall oversee the planning, 
management, and coordination of the Program. The Interagency Committee 
shall------
            (1) establish goals and priorities for the Program;
            (2) establish program component areas, with specific 
        priorities and technical goals, that reflect the goals and 
        priorities established for the Program;
            (3) develop, within 6 months after the date of enactment of 
        this Act, and update annually, a strategic plan to meet the 
        goals and priorities established under paragraph (1) and to 
        guide the activities of the program component areas established 
        under paragraph (2);
            (4) consult with academic, State, industry, and other 
        appropriate groups conducting research on and using 
        nanotechnology, and the Advisory Committee; and
            (5) propose a coordinated interagency budget for the 
        Program that will ensure the maintenance of a balanced 
        nanotechnology research portfolio and ensure that each agency 
        and each program component area is allocated the level of 
        funding required to meet the goals and priorities established 
        for the Program.

SEC. 4. ANNUAL REPORT.

    The Director shall prepare an annual report, to be submitted to the 
Committee on Science of the House of Representatives and the Committee 
on Commerce, Science, and Transportation of the Senate at the time of 
the President's budget request to Congress, that includes------
            (1) the Program budget, for the current fiscal year, for 
        each agency that participates in the Program and for each 
        program component area;
            (2) the proposed Program budget, for the next fiscal year, 
        for each agency that participates in the Program and for each 
        program component area;
            (3) an analysis of the progress made toward achieving the 
        goals and priorities established for the Program; and
            (4) an analysis of the extent to which the Program has 
        incorporated the recommendations of the Advisory Committee.

SEC. 5. ADVISORY COMMITTEE.

    (a) In General.--The President shall establish an advisory 
committee on nanotechnology consisting of non-Federal members, 
including representatives of research and academic institutions and 
industry, who are qualified to provide advice and information on 
nanotechnology research, development, demonstration, education, 
technology transfer, commercial application, and societal and ethical 
concerns. The recommendations of the Advisory Committee shall be 
considered by Federal agencies in implementing the Program.
    (b) Assessment.--The Advisory Committee shall assess------
            (1) trends and developments in nanotechnology science and 
        engineering;
            (2) progress made in implementing the Program;
            (3) the need to revise the Program;
            (4) the balance among the components of the Program, 
        including funding levels for the program component areas;
            (5) whether the program component areas, priorities, and 
        technical goals developed by the Interagency Committee are 
        helping to maintain United States leadership in nanotechnology;
            (6) the management, coordination, implementation, and 
        activities of the Program; and
            (7) whether societal and ethical concerns are adequately 
        addressed by the Program.
    (c) Reports.--The Advisory Committee shall report not less 
frequently than once every 2 fiscal years to the President and to the 
Committee on Science of the House of Representatives and the Committee 
on Commerce, Science, and Transportation of the Senate on its findings 
of the assessment carried out under subsection (b), its recommendations 
for ways to improve the Program, and the concerns assessed under 
subsection (b)(7). The first report shall be due within 1 year after 
the date of enactment of this Act.
    (d) Federal Advisory Committee Act Application.--Section 14 of the 
Federal Advisory Committee Act shall not apply to the Advisory 
Committee.

SEC. 6. NATIONAL NANOTECHNOLOGY COORDINATION OFFICE.

    The President shall establish a National Nanotechnology 
Coordination Office, with full-time staff, which shall------
            (1) provide technical and administrative support to the 
        Interagency Committee and the Advisory Committee;
            (2) serve as a point of contact on Federal nanotechnology 
        activities for government organizations, academia, industry, 
        professional societies, and others to exchange technical and 
        programmatic information; and
            (3) conduct public outreach, including dissemination of 
        findings and recommendations of the Interagency Committee and 
        the Advisory Committee, as appropriate.

SEC. 7. AUTHORIZATION OF APPROPRIATIONS.

    (a) National Science Foundation.--There are authorized to be 
appropriated to the National Science Foundation for carrying out this 
Act------
            (1) $350,000,000 for fiscal year 2004;
            (2) $385,000,000 for fiscal year 2005; and
            (3) $424,000,000 for fiscal year 2006.
    (b) Department of Energy.--There are authorized to be appropriated 
to the Secretary of Energy for carrying out this Act------
            (1) $197,000,000 for fiscal year 2004;
            (2) $217,000,000 for fiscal year 2005; and
            (3) $239,000,000 for fiscal year 2006.
    (c) National Aeronautics and Space Administration.--There are 
authorized to be appropriated to the National Aeronautics and Space 
Administration for carrying out this Act------
            (1) $31,000,000 for fiscal year 2004;
            (2) $34,000,000 for fiscal year 2005; and
            (3) $37,000,000 for fiscal year 2006.
    (d) National Institute of Standards and Technology.--There are 
authorized to be appropriated to the National Institute of Standards 
and Technology for carrying out this Act------
            (1) $62,000,000 for fiscal year 2004;
            (2) $68,000,000 for fiscal year 2005; and
            (3) $75,000,000 for fiscal year 2006.
    (e) Environmental Protection Agency.--There are authorized to be 
appropriated to the Environmental Protection Agency for carrying out 
this Act------
            (1) $5,000,000 for fiscal year 2004;
            (2) $5,500,000 for fiscal year 2005; and
            (3) $6,000,000 for fiscal year 2006.

SEC. 8. EXTERNAL REVIEW OF THE NATIONAL NANOTECHNOLOGY RESEARCH AND 
                    DEVELOPMENT PROGRAM.

    Not later than 6 months after the date of enactment of this Act, 
the Director shall enter into an agreement with the National Academy of 
Sciences to conduct periodic reviews of the Program. The reviews shall 
be conducted once every 3 years during the 10-year period following the 
enactment of this Act. The reviews shall include------
            (1) an evaluation of the technical achievements of the 
        Program;
            (2) recommendations for changes in the Program;
            (3) an evaluation of the relative position of the United 
        States with respect to other nations in nanotechnology research 
        and development;
            (4) an evaluation of the Program's success in transferring 
        technology to the private sector;
            (5) an evaluation of whether the Program has been 
        successful in fostering interdisciplinary research and 
        development; and
            (6) an evaluation of the extent to which the Program has 
        adequately considered societal and ethical concerns.


</pre></body></html>
